<html>
<title> - STRUCTURALLY DEFICIENT BRIDGES IN THE UNITED STATES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
           STRUCTURALLY DEFICIENT BRIDGES IN THE UNITED STATES

=======================================================================

                                (110-67)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 5, 2007

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

          STRUCTURALLY DEFICIENT BRIDGES IN THE UNITED STATES


          STRUCTURALLY DEFICIENT BRIDGES IN THE UNITED STATES

=======================================================================

                                (110-67)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 5, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
37-652 PDF                  WASHINGTON : 2007
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    RICHARD H. BAKER, Louisiana
JULIA CARSON, Indiana                GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY MCNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa, Vice Chair    MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Cox, William G., President, Corman Construction, Inc.............    98
Ellison, Hon. Keith, a Representative in Congress from the State 
  of Minnesota...................................................    76
Herrmann, Andy, P.E, Hardesty & Hanover, Managing Partner........    98
Kaniewski, Donald, Legislative and Political Affairs Director, 
  National Construction Alliance.................................    98
Kavinoky, Janet, Executive Director, U.S. Chamber of Commerce, 
  Americans for Transportation Mobility..........................    98
Kerley, Malcolm, Chief Engineer, Virginia Department of 
  Transportation.................................................    78
Lynch, Tim, Senior Vice President, American Trucking Association, 
  Washington, D.C................................................    98
McFarlin, Bob, Assistant to the Commissioner for Policy and 
  Public Affairs, Minnesota Department of Transportation, 
  accompanied by Dan Dorgan, Bridge Office Director, Minnesota 
  Department of Transportation...................................    78
Miller, Susan, County Engineer, Freeborn County, Minnesota.......    78
Novak, Hon. Kathleen, City of Northglenn, Mayor, Northglenn, 
  Colorado.......................................................    65
Peters, Hon. Mary E., Secretary, U.S. Department of 
  Transportation, accompanied by Hon. J. Richard Capka, 
  Administrator, Federal Highway Administration..................    11
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board..........................................................    46
Rybak, Hon. R.T., City of Minneapolis, Mayor, Minneapolis, 
  Minnesota......................................................    65
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................    46
Steudle, Kirk, Director, Michigan Department of Transportation...    78
Webb, George, County Engineer, Palm Beach County, Florida........    78

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................   116
Arcuri, Hon. Michael A., of New York.............................   119
Ellison, Hon. Keith, of Minnesota................................   120
Engel, Hon Eliot L., of New York.................................   122
Hall, Hon. John J., of New York..................................   124
Lipinski, Hon. Daniel, of Illinois...............................   125
Mitchell, Hon. Harry E., of Arizona..............................   127
Oberstar, Hon. James L., of Minnesota............................   131
Walz, Hon. Timothy J., of Minnesota..............................   134

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Cox, William G...................................................   136
Kaniewski, Hon. Donald J.........................................   144
Kavinoky, Janet F................................................   149
Kerley, Malcolm T................................................   162
Lynch, Tim.......................................................   179
McFarlin, Robert J...............................................   184
Miller, Susan G..................................................   197
Novak, Hon. Kathleen.............................................   201
Peters, Hon. Mary E..............................................   206
Rosenker, Hon. Mark V............................................   228
Rybak, Hon. R.T..................................................   242
Scovel, III, Hon. Calvin L.......................................   246
Steudle, Kirk....................................................   267
Webb, George T...................................................   277

                       SUBMISSIONS FOR THE RECORD

Kerley, Malcolm, Chief Engineer, Virginia Department of 
  Transportation, responses to questions from Rep. DeFazio.......   173
McFarlin, Bob, Assistant to the Commissioner for Policy and 
  Public Affairs, Minnesota Department of Transportation, 
  responses to questions from the Committee......................   191
Peters, Hon. Mary E., Secretary, U.S. Department of 
  Transportation, responses to questions from the Committee......   213
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board, responses to questions from Rep. DeFazio................   239
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, responses to questions from Rep. DeFazio....   264
Steudle, Kirk, Director, Michigan Department of Transportation, 
  responses to questions from the Committee......................   271
Webb, George, County Engineer, Palm Beach County, Florida, 
  responses to questions from the Committee......................   280

                        ADDITIONS TO THE RECORD

American Public Works Association, William A. Verkest, P.E., 
  President, written statement...................................   282
American Society of Civil Engineers, Andrew Herrmann, Board 
  Member, written statement......................................   286
American Traffic Safety Services Association, Roger A. Wentz, 
  Executive Director, written statement..........................   294
 Colorado Municipal League, Mike Braaten, Colorado Counties, 
  Inc., Chip Taylor, slide presentation on ``Local Government 
  Transportation Needs''.........................................   295
State of Connecticut, Hon. M. Jodi Rell, Governor, written 
  statement......................................................   314
Florida Department of Transportation, Stephanie C. Kopelousos, 
  Secretary, written statement...................................   316
Rhode Island Department of Transportation, Jerome F. Williams, 
  Director, written statement....................................   319
San Juan County Commissioners Bruce Adams, Lynn Stevens and 
  Kenneth Maryboy; and Navajo County Supervisors Percy Deal and 
  Jesse Thompson, joint written statement........................   322

[GRAPHIC] [TIFF OMITTED] T7652.001

[GRAPHIC] [TIFF OMITTED] T7652.002

[GRAPHIC] [TIFF OMITTED] T7652.003

[GRAPHIC] [TIFF OMITTED] T7652.004

[GRAPHIC] [TIFF OMITTED] T7652.005

[GRAPHIC] [TIFF OMITTED] T7652.006

[GRAPHIC] [TIFF OMITTED] T7652.007

[GRAPHIC] [TIFF OMITTED] T7652.008

[GRAPHIC] [TIFF OMITTED] T7652.009



          STRUCTURALLY DEFICIENT BRIDGES IN THE UNITED STATES

                              ----------                              


                      Wednesday, September 5, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. Good morning. The Committee on Transportation 
and Infrastructure will come to order.
    I want to thank all of our witnesses for making time to be 
with us today. In the interest of expediting the proceedings, 
we will limit opening statements to four--myself, Mr. Mica, 
Chairman DeFazio, and Ranking Member Duncan--in order to 
accommodate the Secretary's schedule.
    Madam Secretary, we greatly appreciate your adjusting your 
schedule to be here today. We know you have to be out of town, 
I think it is--or you have at least another commitment that 
requires you to leave here at around noon, and we want to 
accommodate that to the greatest extent possible.
    The collapse of the I-35W bridge in Minneapolis 
demonstrated powerfully once again the need to make a 
commitment to invest in maintenance and in major reconstruction 
in our Nation's infrastructure, not just bridges but highways, 
waterways, airways, railways. This Committee has been at work 
doing that since the beginning of this session. We have moved 
$104 billion in investment in the Nation's infrastructure that 
is under the jurisdiction of this Committee in separate items, 
separate bills that have moved through the House--one at least 
through conference and another through Committee--and we will 
bring that major aviation bill to the House floor the week of 
September 17.
    Many of our facilities are stretched to the limit of their 
design life and even beyond. This is not the first inquiry into 
this subject matter. Twenty years ago, on December 1st and 2nd, 
1987, I held hearings on bridge safety--not this entire volume 
but the last third of it--on the issue of bridge safety 20 
years after the collapse of the Silver Bridge between Ohio and 
West Virginia--46 lives lost--to assess the state of bridge 
safety in this country and what was being done at the Federal 
and State levels.
    A remarkable observation by one of the witnesses was of a 
structural engineer testifying for the Center for Auto Safety, 
who said in 1987, bridge maintenance and inspection is in the 
Stone Age. There are 594,101 bridges in the national bridge 
inventory. That is a very large number. It is 200,000 more than 
in 1987 when I conducted those hearings; 26 percent of those 
bridges--one in four--is structurally deficient or functionally 
obsolete. The U.S. DOT has reported that more than $65 billion 
could be invested immediately, cost beneficial, to replace or 
otherwise address bridge deficiencies.
    An area where we need strong Federal leadership is for 
those bridges on the National Highway System. That is a 
162,000-mile network. It includes the interstate highway system 
of 46,700-plus miles. It is our strategic highway network for 
military mobilization. It is 1 percent of the Nation's mileage, 
but it carries 26 percent of the traffic. The NHS is 4 percent 
of the Nation's mileage, but it carries 45 percent of vehicle 
miles traveled and 75 percent of heavy truck traffic, 90 
percent of tourist traffic on our National Highway System. 
There are 116,172 bridges on the National Highway System; 
55,000 of those are on the interstate; 6,175 of those bridges 
have been rated structurally deficient; and half of those are 
bridges on the interstate, over 2,800. The DOT reports that the 
current National Highway System backlog of investment in bridge 
structures is $32 billion, and that includes $19 billion for 
the interstate system alone.
    Addressing the needs of bridges is critical to public 
safety, to regional mobility, to national mobility, to economic 
competitiveness. It demands a national response. For over 20 
years I have paid attention to bridge issues, attempted to move 
here, to move there, to increase our funding in bridge 
structures, to provide increased capacity in investment through 
our highway trust fund, but we obviously have not done enough.
    In the wake of this tragedy, I said not again, not another 
set of hearings, not another long inquiry, not a commission to 
study, obfuscate and delay, but an action program. I proposed 
the National Highway System Bridge Reconstruction Initiative as 
soon as we completed action on this Committee, and I thank Mr. 
Mica for his participation in moving that emergency response 
bill through Committee. Mr. Duncan, Mr. DeFazio, and all of the 
Committee responded as one to move that legislation. That was 
an emergency response. We need a targeted, high-priority action 
on the bridge issue as a whole. Of course, the NTSB--and we 
will hear from them later--will in due course provide us an 
analysis of what happened in their usual thorough, meticulous 
way. We do not have to wait for that to take on a challenge 
that is crying for a response.
    The proposal I have set forth will provide dedicated 
funding to States to repair, to rehabilitate, to replace 
structurally deficient--just structurally deficient--bridges on 
the National Highway System. We will inject accountability into 
bridge inspection, repair, replacement. We will have a data-
driven, performance-based approach to systematically address 
structurally deficient bridges on the core National Highway 
System. This proposal is not business as usual. As I said a 
moment ago, that would be to establish a commission, to have a 
plan, to muddle through, to dangle our feet over the edge, and 
to find ways not to act. We do not need a plan. We do not need 
a commission. We know what the problem is. It has been there, 
and it is hanging over our heads, and we need an action program 
to deal with this issue of structurally deficient bridges.
    I have received letters of support for this proposal from a 
broad range of governmental and business industry, highway user 
organizations, including the U.S. Chamber of Commerce; the 
Transportation Construction Coalition; the Associated General 
Contractors; the Road and Transportation Builders Association; 
the National Construction Alliance. That is the laborers', the 
operating engineers' and the carpenters' unions; the American 
Association of State Highway and Transportation Officials, 
AASHTO; the American Highway Users Alliance; the Bus 
Association; the Association of Equipment Manufacturers; the 
Associated Equipment Dealers; the National Asphalt Pavement 
Association; the National Ready Mix Concrete Association.
    Madam Secretary, in your statement, you say, "The I-35 
bridge collapse was a tragedy and a wake-up call." It is not a 
wake-up. It is a reawakening. You said, "There is no 
transportation infrastructure safety crisis." You also say, "It 
is inaccurate to conclude the Nation's transportation 
infrastructure is subject to catastrophic failure." It was a 
catastrophic failure for Minneapolis. There are 740 other 
bridges like this that were built at the same time throughout 
the country.
    In this hearing of 20 years ago, I said the purpose of our 
inquiry is to find those bridges and to attack problem bridges 
that do not have redundancy, where there has not been 
sufficient inspection to find structural deficiencies. It has 
not been done sufficiently. We do know there are 73,000 bridges 
that are structurally deficient. We do know there are 6,175 
bridges on the National Highway System that are structurally 
deficient. We have produced maps that have been prepared by the 
Bureau of Transportation Statistics at DOT and have distributed 
those maps to all of the Members of the House.
    The DOT, your Department, Madam Secretary, has identified a 
backlog of $32 billion of bridge investments, cost beneficial, 
that would make improvements in the Nation's bridge inventory 
and that could be done promptly. The question is how to pay for 
it. I do not think that America wants the Congress to say, 
well, we will have a bake sale for bridges. They want us to 
take action to fund that bridge backlog of strategically 
deficient bridges.
    Now, I was disappointed in the Secretary's testimony as I 
read it meticulously last night and again this morning. It 
never once addresses my proposal. It, rather, goes on in the 
administration's repeated song of tolling, congestion pricing 
and--I read into it--public-private partnerships; never 
explaining how tolling is going to be administered, how it is 
going to ensure that the worst safety problems are addressed 
first, how tolling is going to address the needs of bridges. 
The Secretary does call for the data-driven, performance-based 
approach. Now, if you will take a look carefully at my 
proposal, you will find it does that.
    One, the initiative will significantly improve bridge 
inspection requirements. That is what we needed 20 years ago, 
and we need it again today. I would be morally deficient if I 
did not take this opportunity to move ahead and propose 
something concrete and specific in legislative language, and we 
do that. We require the Federal Highway Administration and the 
States to significantly improve and to develop consistent, 
uniform processes and standards for the inspection of 
structurally deficient bridges, and inspector training. We 
cited that as a need 20 years ago.
    Second, the initiative establishes a National Highway 
System bridge reconstruction trust fund for dedicated funding, 
separate from the highway trust fund, to finance the repair, 
the rehabilitation and the replacement of structurally 
deficient bridges on the National Highway System. The 
initiative distributes the funds based on public safety and 
need by requiring the Department of Transportation to develop 
an administrative formula for distributing all funds, for 
prioritizing bridges by State in order of need of replacement, 
reconstruction and rehabilitation, and it will subject that to 
review by the National Council of Engineering and the National 
Academy of Sciences. So there is an independent review, and 
there is total transparency.
    I want to know: Do you oppose efforts to have a dedicated 
funding stream? Do you oppose efforts to distribute funds based 
on public safety and need? We provide accountability in this 
measure by prohibiting deviation from that list through 
earmarks by the executive branch or by the legislative branch, 
by the U.S. Congress, by the U.S. Department of Transportation, 
by State Departments of Transportation. I do not think you want 
to oppose an initiative of that kind.
    While the terrible events of August 1 have sounded an alarm 
note around the country, many have questioned the way we 
operate the system, the way it is financed. But we have to make 
a decision. We have to decide we are going to attack this 
problem, and it would be irresponsible to say we are going to 
do it without a means of funding it. So I have set forth a 
proposal in which we can fund this separate bridge trust fund 
in the way we have done our Federal aid highway systems since 
the days of Dwight Eisenhower. If it was good enough for Dwight 
Eisenhower, it ought to be good enough for this administration 
and for this Congress as well.
    I have asked Subcommittee Chairman DeFazio to have a second 
hearing specifically on bridge inspection and technology issues 
within the next 2 weeks. I hope that, following that hearing--I 
expect that after that we will have what I hope at least will 
be a bipartisan bill to address the National Highway Bridge 
Reconstruction Initiative, and we will consider that 
legislation in markup in Committee in October.
    Many years ago, I cited this work of Thornton Wilder, The 
Bridge of San Luis Rey. I cited it in a hearing 20 some years 
ago: "on Friday, noon, July 20, 1714, the finest bridge in all 
Peru broke. It precipitated five travelers into the gulf below. 
The bridge was on a high road between Lima, Cuzco, and hundreds 
of people passed over it every day. It had been woven by the 
Incas a century before. Visitors to the city were always led 
out to see it. The bridge seemed to be among the things that 
last forever. It was unthinkable that it should break. The 
moment a Peruvian heard of the incident, he sighed to himself 
and made a mental calculation as how recently he had crossed it 
and how soon he had intended crossing it again. People wandered 
about in a trancelike state, muttering. They had the 
hallucination of seeing themselves falling into the gulf. 
Everyone was deeply impressed, but only one person did anything 
about it, and that was Brother Juniper. By a series of 
coincidences so extraordinary, one almost suspects the presence 
of some intention. This little, red-haired Franciscan from 
Northern Italy happened to be in Peru, converting the Indians, 
and happened to witness the accident, and in that instant, 
Brother Juniper made the resolve to inquire into the lives of 
those five persons at that moment, falling through the air and 
to surmise the reason of their taking off."
    His was a teleological inquiry about the last things. Ours 
is a pragmatic inquiry about the present things and about what 
we can do about it. And we have an opportunity to do something, 
and I am not going to let this opportunity pass. There was a 
commentary in the International Falls Daily Journal--if our 
person can call that up on the screen--shortly after the 
collapse of the bridge. Maybe not. He cannot find that.
    We will conclude there, and I yield the floor to Mr. Mica.
    Mr. Mica. Thank you.
    First of all, I appreciate, Mr. Oberstar, that you have 
called this hearing, because today is important. We are 
addressing a very important responsibility as part of our 
Nation's infrastructure; one particular area, bridges. I was 
pleased to work with you, Mr. Oberstar, and with others on your 
side of the aisle when we did, unfortunately, experience the 
national tragedy in your home State and locale with the 
collapse of the St. Paul-Minneapolis bridge, and Congress did 
come together in a bipartisan fashion to address the 
replacement of that bridge; and I said I wish every 
infrastructure project we did in this country could be replaced 
in the time frame that we will be replacing that bridge. That 
would solve probably half of our problems. I understand that 
bridge will probably be up sometime and operating at the end of 
its replacement, operating at the end of next year. If we could 
do that with all of the projects, we would probably have a lot 
less of a need across the country because we would be replacing 
those bridges in record time and putting that infrastructure in 
place in record time.
    Since taking over as the Ranking Member and having--I see a 
large group of suspects in the audience. Most of them have been 
in your office and in my office, Mr. Chairman, talking to us 
about some of their needs; but they represent not just bridges 
but highways, rail, airport, transit infrastructure. Many of 
the folks have come to the hearing today, and they all have the 
same thing that they tell us, that our infrastructure is aged. 
Some of it is obsolete, and it needs repair. And it is not just 
bridges.
    That is what led me to the conclusion some months ago to 
begin a national campaign to try to see if we could develop a 
national strategic transportation and infrastructure plan that 
would address the needs of every mode of transportation and 
incorporate the expertise and the resources of both the private 
and public sectors in that effort. Here, focusing or setting up 
one more fund to address one problem that unfortunately has 
come to our attention in this tragic manner is not the way to 
go. I will not turn this into a knee-jerk reaction. I think it 
is a responsible action that we will take in again addressing 
the infrastructure needs of our country, but I would like to do 
it on an even broader basis. Picking out just bridges is not 
the way to go.
    The other thing that we need to do is to look, as the 
Chairman has indicated, not only at a plan but at a way to 
finance that plan. I would say that, if we would just take 
bridges and we would set up a separate fund and a mechanism of 
funding it, it would kind of like be taking a 60- or 70-year-
old house with a crumbling foundation, a collapsing roof and 
obsolete plumbing, and repairing just the driveway. It would 
not make much sense. We have got a much bigger problem at hand 
that we need to address.
    So I think we need to reevaluate how we also fund these 
programs, because not only is the infrastructure broken, but 
the mechanism for funding these programs is also broken with 
each passing day: the concept of basing a majority of our 
revenues for financing these infrastructure improvements or 
replacements.
    The revenue stream for highways and transit programs on gas 
tax is becoming more obsolete. Every passing day, it becomes 
outdated. That is basically for two reasons: because, vehicles, 
we are requiring them to be more efficient with their fuel and 
we are also requiring that they use alternative fuels; and we 
are also having more and more vehicles with alternative fuels 
on the road. I understand we have about 8 million of those 
vehicles. Just today, I saw one this morning as I was crossing 
the street--"hybrid" was marked on the back of the vehicle--in 
my own neighborhood.
    A debate on our Nation's future transportation plan should 
also include a debate on what our Federal role should be in 
financing, building and maintaining our transportation system. 
We need to leverage the private sector expertise/resources both 
to maintain, expand and finance our transportation system. 
While government funding will always play a major role in 
infrastructure financing, we need to draw from the experience 
and also from the efficiencies of the private sector. Many 
people think the Federal highway program has grown too big and 
too broad.
    The Florida DOT and our Secretary could not make it. She 
asked, Mr. Chairman, if I would submit her testimony--Stephanie 
C. Kopelousos, Secretary of Transportation. I would ask 
unanimous consent----
    Mr. Oberstar. Without objection, it will be included in the 
record.
    Mr. Mica. She told me that Florida's DOT has over now 700 
funding program codes to accurately track Federal highway 
funding in Florida. We have now grown to over 100 Federal 
programs from an original four, and I think you will hear the 
Secretary also say--if she does not say it today, I have heard 
her say it--about how much money of that is diverted. It is a 
staggering amount of Federal funds that does not actually go 
into bridges and highways and infrastructure.
    We also need to narrow the scope of the Federal program to 
better focus our Federal resources so that our critical 
transportation needs are met first, and we also need to think 
about a maintenance of effort to make certain that if we 
increase Federal spending that States and localities do not 
decrease their transportation spending. Also, as to raising up 
revenues, why should some Federal taxpayers reward lax 
taxpayers, so to speak? We have to have a system that is fair 
to everybody.
    It is important also to mention that there is an existing 
highway bridge program--it is funded at approximately $4.3 
billion this year--and before we go out and create another new 
program funded by a gas tax increase, I think we should look 
pretty carefully at what we are doing with the existing program 
that has failed us and try first to correct that.
    So I have some concerns about Mr. Oberstar's proposed 
approach to our Nation's bridge problem and, again, just 
creating another fund or source of raising revenues for that 
single effort. I am committed, however, to looking at repairing 
and replacing not only our bridges but also the system that 
finances it. My home State of Florida has an exceptional bridge 
program, and it has only 306 structurally deficient bridges out 
of approximately 12,000. Under the Chairman's proposal to raise 
the gas tax 5 cents to create a new bridge program, Florida 
would contribute more than $490 million--a half billion dollars 
a year to this--and receive back $27 million. It does not sound 
fair to me to penalize a State like Florida or other States' 
Members who are represented here to fund those who have not 
done their due diligence or have stepped up to the plate. In 
fact, some States with the highest number of deficit bridges in 
the country, such as Pennsylvania, have decided not to use all 
of the funding allocated to it under the Federal bridge 
program. Instead, it transferred bridge funding to other 
highway programs.
    We had a debate in this Committee about rescissions, and we 
failed to give, in a vote in the House, the States the ability 
to decide where Federal funds were to go in that rescission, 
and I know in the past that has been granted.
    We have also sent very conflicting signals, even from this 
Committee, to States seeking public-private solutions. For 
example, Governor Mitch Daniels, who sold some of the State's 
infrastructure, used that money. I know, because I went and 
looked at some of the bridge replacements that were being 
considered with funds from his public-private partnership. 
Instead, the message from this Committee was do not do 
anything, and especially not in public-private partnerships, 
until we say a blessing on it.
    Finally, when you do not act or when we do not set the 
policy, somebody else sets the policy for us as we found out 
this last August when Congress did not act. Of the 435 Members 
and 100 Senators, many of them had earmarked projects that were 
their priorities. Some did not choose bridges as priorities; 
some chose other infrastructure, but they chose as the elected 
Federal Representatives. When we passed the continuing 
resolution, as you may recall, all of those earmarks were 
eliminated, and some of you Members may want to listen to this, 
particularly those who were here last year and who participated 
in this.
    As a result, $835 million was distributed by the 
administration. That was almost all of the discretionary money, 
all of that earmarked money, to hundreds of projects designated 
by Members. Instead of distributing it to hundreds of Members, 
it went to five jurisdictions, basically, and this is the 
earmarking by bureaucratic fiat, but they set the policy 
because Congress did not set the policy. So, while you were on 
vacation, the administration took that $835 million. It was 
fairly evenly divided. About half went to Republicans. New York 
City got the biggest chunk--about $350 million--for Mr. 
Bloomberg and his proposal, basically to put in tolling. That 
was a congestion mitigation solution that they came up with. So 
that is where your money will go. The priority is set by the 
administration.
    The second biggest amount--well, it is sort of a tie. Ms. 
Pelosi got some for San Francisco. The Chairman got a nice 
chunk for Minnesota, and Ms. Murray got some for Washington, 
about $130 million to $150 million, and the Ranking Member even 
got some $62 million. It is not my district, but it is for the 
State of Florida.
    Now, that is the way your money was spent. I do not know if 
you know that, but I am pleased to convey that when we do not 
set the policy, somebody else sets it for us, and that is based 
on the preference of the administration, which is congestion 
mitigation and congestion pricing as their priorities.
    So that is my little part of the information I am providing 
today, and I look forward to hearing from the Secretary. I want 
to also hear more from the NTSB on the cause of the bridge 
collapse, if they know that, and I look forward to the hearing.
    I thank you for calling it, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his remarks. We can 
have a very lively debate on each of those issues, and we will 
in due course.
    The provision in my bill, though, requires the maintenance 
of effort by States to match available Federal funding in the 
bridge program. Secondly, it prohibits earmarking by the 
executive branch as well as by the legislative branch at the 
Federal or State level.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for calling 
this hearing today.
    Just in response to the Ranking Member, we do have and we 
will hear in December from the National Surface Transportation 
Policy and Revenue Study Commission, which was charged with 
developing a national strategy that both goes to needs, 
investment and means. So, hopefully, we will receive something 
that can be a starting point as we move toward the 2009 
reauthorization that will look across transportation more 
meaningfully and will provide more strategic investment.
    Secondly, I actually share the Ranking Member's concerns 
about the one note we are hearing out of the administration, 
which is congestion pricing will solve everything. We are not 
investing enough. The roads are becoming more congested. Well, 
let us price people off of them. That is their sole solution, 
and they have taken $800 million that could have been spent on 
bridges or any other critical infrastructure to push this 
ideological agenda written by the Heritage admin--no. Well, 
they are not the administration but are the Heritage 
Foundation, but they act like they are the administration, and 
they seem to have gotten a playbook from them. That is not 
going to solve America's problems.
    We have not, you know, increased the amount of Federal 
investment in 15 years. Yet the price of construction has gone 
up more than 100 percent during that time. So the Federal 
effort today is less than half of what it was 15 years ago in 
terms of meeting the needs of our country. We have 
extraordinary documentation right here that I am certain the 
Secretary is familiar with and has read every word of, the 
Conditions and Performance Report from the Department of 
Transportation, issued in 2006, dated 2004, essentially in 
terms of data. The conclusions are extraordinary.
    Just to maintain the cosmetic nature of the system, it is 
$78.8 billion a year. We are investing $70.3 billion. All 
right. If we wanted to maintain the current level of 
congestion, we would have to invest $89.7 billion a year. We 
are investing $70.3 billion. If we actually wanted to enhance 
and to improve the system, making it safer and less obsolete, 
it would be $131.7 billion a year. We are spending less than 2 
percent of our GDP on our surface transportation 
infrastructure. China is spending 9; India is spending 5, and 
the answer is congestion pricing.
    The answer is not congestion pricing. We are not going to 
price Americans off the road. Workers do not determine when 
they go to work. You say, oh, $22. You can be in that 
underutilized lane there that is taking up a precious right-of-
way with the other limousines to drive in to D.C. during rush 
hour. And for workers who have to get here or who are, you 
know, at a little lower level, well, gee, I do not know. Sorry. 
Too bad. Maybe you had better move. Oh, no. They cannot afford 
to live in D.C.--it is too expensive--and that is going to be 
repeated around and around and around the country.
    Congestion pricing is not the answer. Let us get off this 
one note, and let us talk about a solution. God forbid we 
should talk about the need for investment, because--guess what? 
That is the "T" word. We might have to tax somebody. We might 
have to have a user fee. Well, when bridges fall down and 
people die in the United States of America--the greatest Nation 
on earth--when the cost of congestion is $100 billion a year, 
when 120 people die a day and probably a third of those die 
because of obsolete or undermaintained infrastructure, 
according to good statistics. We are not doing our job, and the 
country has to lead at the national level. Then, yes, the 
States need to perform, too.
    Again, back to the Ranking Member, he has fought our 
proposal to make States take the recision proportionately from 
all accounts, and he has fought for State flexibility. Well, 
that is what Pennsylvania used, State flexibility. Divert the 
money from bridges, and a bunch of other States have done that, 
too. Not my State. We went out and issued $1.3 billion in 
bonds, and we are not a very rich State to deal with our bridge 
problems. My earmarks are disproportionately bridges. I knew 
the problem was there. The Chairman knew the problem was there. 
The Secretary of Transportation certainly knew the problem was 
there. It was an accident waiting to happen. And to say there 
is no critical problem is not right, and to say we are going to 
solve it with congestion pricing is not right.
    Let us come together, as we did way back in the 1950s with 
the great vision of Dwight David Eisenhower, and talk about 
what is the next century going to look like in America for 
surface transportation. Let us stop quibbling around the edges 
while people are dying.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his statement.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I will be brief 
because I know you want to get on to the Secretary and to other 
witnesses. I do want to thank you for calling this hearing, and 
I commend you for your leadership on this.
    In fact, this is my 19th year in the Congress, and very 
seldom have I seen such unity between business, labor, 
technical experts, and Members all saying that a substantial 
amount of work needs to be done. And the I-35W bridge collapse 
last month in your home State of Minnesota made the term 
"structurally deficient bridge" almost a household phrase. And 
I think you were right in pointing out that this Committee can 
be justifiably proud in the quick action that was taken in 
regard to the tragedy in Minnesota and the legislation that we 
passed so quickly.
    I also want to commend Ranking Member Mica, and I agree 
with him in that the problems we face are much bigger than 
bridges, and I agree with his call for a national strategic 
transportation plan.
    I am pleased that my home State of Tennessee has just 
slightly over half of the national average in structurally 
deficient bridges. We have 6.6 percent, with the national 
average being over 12 percent; but, unfortunately, we had to 
learn from past problems, because in 1989 we had a bridge 
collapse in Tennessee that killed eight people. The NTSB 
determined that a shift in river channel resulted in the 
deterioration of the timber piles that were originally buried 
and not really designed to be in water in the first place. The 
NTSB sided with the State of Tennessee in 1979, and a lot of 
work was done, unfortunately because of that tragedy that 
occurred in my State in 1989.
    You know, there has been some talk already here this 
morning about increasing the Federal gas tax. It may be that at 
some point we will be forced to do that. I understand, though, 
and I have read that we are spending $12 billion a month now in 
Iraq, and over the last 10 years or so, we have spent mega-
billions doing military construction projects all over the 
world for a military that is only about half the size that it 
was a few years ago. And my preference would be that we take 
some of the hundreds of billions that we are spending in other 
countries around the world through all of our departments and 
agencies--and primarily through the Department of Defense, but 
all of the other departments and agencies as well--and take a 
small portion of that money and spend it on our infrastructure 
in this country.
    It has been pointed out that we are devoting just a little 
over $4 billion to our bridge program in this country at this 
point, and I do not think it would be asking too much if we 
diverted a very small percentage of the hundreds of billions 
that we are spending in other countries to take care of our own 
people here. Our first obligation should be to the American 
people, and this is a very important way in which we need to do 
what is right for our own people.
    I thank you, and I yield back the balance of my time.
    Mr. Oberstar. I thank the gentleman for a very succinct but 
very hard-hitting statement. I totally agree with the $44.5 
billion we have committed to infrastructure in Iraq that is 
blown up or otherwise immobilized almost as soon as it is 
built. If we had that money at home, we would not be talking 
about a gas tax increase. We would have that money to invest 
right here with American labor and American jobs.
    While I agree with Mr. Mica on the need for a comprehensive 
plan, in that same set of hearings, our former colleague, Mr. 
Clinger of Pennsylvania, and I developed a capital budgeting 
approach. We had several days of hearings on capital budgeting. 
We moved legislation through the House. We established a 
capital budget for the Congress to assess the needs of all of 
the infrastructure investments that we have to make. By the 
time it got through the Senate and the Reagan administration, 
it was whittled down to an annex in the Federal budget. And 
this is it, number 6, Federal investments at the end of the 
budget.
    Now, if the gentleman would join with me and elevate this 
to the----
    Mr. Mica. Ready to go.
    Mr. Oberstar. --status that it needs, then that is where we 
will start.
    Mr. Mica. Let's go.
    Mr. Oberstar. We will do that. All right.
    Madam Secretary, you have been very patient, and we welcome 
your testimony.

TESTIMONY OF HON. MARY E. PETERS, SECRETARY, U.S. DEPARTMENT OF 
    TRANSPORTATION, ACCOMPANIED BY: HON. J. RICHARD CAPKA, 
         ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION

    Secretary Peters. Mr. Chairman, thank you so much.
    Chairman Oberstar, Ranking Member Mica and Members of the 
Committee, I am honored to be here with you today. Accompanying 
me is Rick Capka, our Federal Highway Administrator, who has 
spent a good amount of time on the ground in Minnesota 
following the tragic bridge collapse.
    America, all of us, were stunned on the evening of August 
1, 2007 when the I-35W bridge over the Mississippi River in 
Minneapolis collapsed. Numerous vehicles were on the bridge at 
the time, and at the end of the day, there were 13 fatalities 
and 123 persons injured.
    On behalf of the President, I would like to personally 
extend our deepest sympathy to the loved ones of those who died 
or who were injured in this tragedy.
    I also want to note, in the four visits that I have had the 
opportunity to make to Minneapolis since the collapse, I have 
been impressed and inspired by the response of the many 
dedicated public servants from all levels of government to this 
terrible tragedy. We do not yet know why the I-35W bridge 
failed, and our Department is working with the National 
Transportation Safety Board, who you will hear from a little 
later in this hearing, as they continue their investigation to 
determine the cause or causes.
    In the interim, we are taking steps to ensure that 
America's infrastructure is safe. I have issued two advisories 
to States in response to what we have learned so far, asking 
that States reinspect their steel deck truss bridges, and that 
they be mindful of the added weight construction projects may 
bring to bear on bridges.
    I have also asked the Department's Inspector General, who 
you will also hear from later in this hearing, to conduct a 
very rigorous assessment of the Federal Aid Bridge Program and 
the National Bridge Inspection Standards.
    In the aftermath of this tragedy, many are calling for a 
renewed focus on our Nation's highway infrastructure, and I 
certainly agree with the calls that have been made and applaud 
people, including the Chairman and the Ranking Member and 
others in this Committee, who are truly thinking about the 
long-term viability of the Nation's transportation system. It 
is imperative, however, that when determining what our future 
transportation system should look like, we actually focus on 
the right problem.
    Since 1994, a percentage of the Nation's bridges have been 
classified as "structurally deficient," a phrase that I would 
agree is not correct and does cause people to be more concerned 
than they should be about these bridges; but that percent has 
improved from almost 19 percent to 13 percent, and our latest 
data indicates that that is now 12 percent.
    While we can and should and will do more to improve the 
quality of our infrastructure, it would be irresponsible and 
inaccurate to say that the Nation's transportation 
infrastructure is anything but safe. More accurately, what we 
have is a flawed investment model, a model that is not 
allocating resources efficiently, and what we have is a system 
performance crisis.
    Increasing Federal taxes and spending would do little, if 
anything, to address either the quality or the performance of 
our roads. Instead, we need a more basic change in how we 
analyze competing spending options and manage existing 
resources more efficiently. Because tax revenues are deposited 
into a centralized Federal trust fund and are reallocated on 
the basis of political compromise, major spending decisions 
increasingly have little to do with underlying economic or 
safety merits.
    For example, the number of designated projects has grown 
from a handful in the mid-1980s to over 6,000 in 2005, valued 
at a staggering $24 billion, or nearly 9 percent of the total 
program. The true cost to States, however, is much higher given 
that, on average, earmarks only cover approximately 10 percent 
of the total cost of a project.
    As a former State DOT Director--and you will hear from 
other directors later in this hearing--I have had firsthand 
experience with the difficulties created when Washington 
mandates override States' priorities. While it is certainly 
true that not every one of these investments could be called 
"wasteful," virtually no comparative economic analysis is 
conducted to support these spending decisions. In other words, 
scarce dollars are spent on earmarks, and special interest 
programs are not available to States for important expenditures 
like bridge repair and maintenance.
    It makes no sense, in my mind, to raise the gas tax at a 
time, as the Ranking Member pointed out, when we are rightfully 
exploring every conceivable mechanism to increase energy 
independence, to clean our air, to promote fuel economy in 
automobiles, and to stimulate the development of alternative 
fuels and renewable fuels as well as reducing emissions. We 
should be encouraging States to explore alternatives to 
petroleum-based taxes, not expanding a company's reliance on 
them by increasing the gas tax.
    The I-35W bridge collapse was both a tragedy and, I said, a 
wake-up call, Mr. Chairman--you say a reawakening--to our 
country. On that fact, we absolutely agree. Our Nation's 
economic future is tied in large part to the safety and to the 
reliability of our transportation infrastructure. However, 
before we reach the conclusion that additional Federal spending 
and Federal taxes are the right path, we should critically 
examine how we are spending money today. What are we doing with 
the money that is already sent to Washington?
    According to the Conditions and Performance Report that was 
cited by the Subcommittee Chairman, FHWA has estimated that it 
would cost $40 billion a year to maintain current conditions 
across all of our transportation system or surface system, and 
it would take $60 billion a year to substantially improve that 
system. The 2004 total U.S. capital investment for highways and 
bridges was $70 billion.
    Ladies and gentlemen, Members of this Committee, it is not 
that we do not have the money. It is where we are spending the 
money that is important that we examine in the aftermath of 
this crisis, but I recognize that we may have different 
opinions. I very much look forward to engaging in that 
discussion with you and throughout the administration but, most 
importantly, with the American people that we all serve.
    I will be pleased to answer any questions that you may 
have.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Madam Secretary.
    At the outset, I want to express once again, as I have done 
publicly and personally, my appreciation and that of the people 
of Minneapolis and the Mayor of Minneapolis for your prompt 
response. You were on the phone, readily available--and 
Administrator Capka as well--and we had a very constructive 
discussion that led to the quick passage of the emergency 
response legislation. And for that, I am very appreciative. You 
and the President made a visit to--you actually made two. The 
second one was mainly for a fundraiser for a Senator, but he 
did come twice to the State in the aftermath.
    You said that you raised questions about where we spend 
that money. On page 4 of your testimony, you say failure to 
prioritize spending in the disturbing evolution of the Federal 
highway program--this program has seen politically designated 
projects grow from a handful to more than 6,000 in SAFETEA-LU.
    But in signing that legislation--and I was there on August 
10, 2005 on the property of the Caterpillar earth moving 
equipment company in Illinois--the President said, "This 
transportation act will finance needed road improvements and 
will ease congestion in communities all across the Nation. Here 
in Illinois, as the Speaker mentioned, one of the key projects 
that he has been talking to me about for quite a while is what 
they call the ``Prairie Parkway.'' I thought that might be in 
Texas, but no, it is right here in Illinois." People applauded 
and laughed.
    ``Good folks understand what it means to the quality of 
life around here when you have a highway that will connect 
Interstate 80 and Interstate 88. The Prairie Parkway is crucial 
for economic progress in Kane and Kendall Counties that happen 
to be two of the fastest growing counties in the United 
States." That is about the speed at which he said it, too.
    "but the United States Congress can be proud of what it has 
achieved in the Transportation Equity Act, and I am proud to be 
right here in Denny Hastert's district to sign it."
    What has changed since then?
    Secretary Peters. Mr. Chairman, I was there as well, and I 
think what has changed since then is, while we have seen 
marginal improvements in the condition of our Nation's 
transportation infrastructure and marginal improvements in the 
safety of that infrastructure--and those two are very closely 
related--what we have seen is a significant decline in 
performance and a misallocation of resources not being spent 
where they could and should be.
    Mr. Oberstar. It was all in the bill, Madam Secretary. It 
was all right there. If the President did not like it, he could 
have vetoed it. He thought it was a great idea then. It is a 
great idea now. This administration started out with a $247 
billion package, and your own Department recommended, as 
directed in TEA-21 to report to Congress on the performance--
that is, payment conditions, congestion, safety--and recommend 
a new level of investment, and you recommended $375 billion. 
Mr. Young and I introduced that bill. It would have had $5 
billion a year for bridge construction, reconstruction, 
rehabilitation, replacement.
    The administration's package, ultimately, would have been 
$3 billion less overall. Now, we negotiated upward from the 
administration's $247 billion to $286.3 billion. That gave us, 
roughly, $4 billion a year in the bridge program. It should 
have been $5 billion.
    So, over the past couple of weeks--I am just looking at 
remarks you have made about my proposal and the bridge 
situation--you said only 60 percent of trust fund revenues are 
used for road and bridge purposes. I see no credible data. We 
have searched high and low for a backup for that figure. There 
is no credible data to back it up. Roughly 20 percent--18.5 
percent to be precise--goes into transit of the total trust 
fund authorizations. That is as close as you can come to 
something to back that up. I do not know where you get that 
information, but I want you to respond specifically to the 
provisions of my bill. I want you to respond specifically to 
raising the standards for the determination of what is a 
structurally deficient bridge.
    What is wrong with that?
    Secretary Peters. Mr. Chairman, I do not disagree with 
that, and in fact, I have asked the Inspector General to do a 
very rigorous review not only of the bridge program funding, 
but of the bridge inspection program itself. I have asked him 
to not only examine whether or not that program is sufficient 
and rigorous enough, but how decisions are made as a result of 
bridge inspections and ratings and whether or not that 
information is, indeed, used to prioritize the expenditure of 
funding.
    Mr. Oberstar. Okay. That is 25 percent.
    We establish a bridge reconstruction trust fund dedicated 
to funding just those structurally deficient bridges and a 3-
year sunset.
    Secretary Peters. Mr. Chairman, where we disagree there, 
sir, is along the lines of what the Ranking Member said as well 
and the figures that I gave you a few moments ago. We do not 
disagree that we need to ensure that we are prioritizing 
bridges that need to be repaired or replaced. Where we do not 
agree is that we need to raise the gas tax to do so.
    Mr. Oberstar. A separate trust fund to do it, do you 
disagree with having that?
    Secretary Peters. Sir, we have dedicated funding for 
bridges today.
    Mr. Oberstar. But it is not enough.
    Secretary Peters. Well, it is also not being used in all 
cases for those----
    Mr. Oberstar. Well, we gave the States the authority to 
flex 50 percent of that bridge fund, and they have done that. 
In my home State of Minnesota, they have taken 42 percent of 
their rescission out of the bridge fund.
    Secretary Peters. Mr. Chairman, our data indicates--and I 
can ask Administrator Capka to expand on this if you would 
like--that approximately $600 million from other funds, 
primarily STP funds, are flexed in to the repair and to the 
replacement of bridges. And I am a big fan of the flexibility 
that States are allowed in order to meet their divergent needs 
by having the flexibility to flex those funds as long as we 
maintain standards to which the bridges and the highways need 
to be kept.
    Mr. Oberstar. All right. The standard issued is that the 
initiative would distribute funds based on public safety, need, 
requiring Department of Transportation to develop an 
administrative formula for the distribution of those funds----
    Secretary Peters. Mr. Chairman, I think----
    Mr. Oberstar. One that will be independently reviewed and 
have all of these structurally deficient bridges evaluated by a 
new standard, a new higher standard, and then rated by States 
for distribution.
    Secretary Peters. Mr. Chairman, I think that those, again, 
are viable terms and certainly could be used within the 
existing programs or to modify the existing program.
    For example, right now there is a perverse incentive to not 
keep your bridges in good condition because you get more money 
based on the percent of your bridges that are not sufficiently 
rated today. And so I think that there are certainly 
improvements that we can make, and I, certainly, anxiously 
await the results of the Inspector General's investigation into 
that program.
    Mr. Oberstar. Would you agree with the idea of 
prioritizing----
    Secretary Peters. Oh, absolutely; data-driven, performance-
based.
    Mr. Oberstar. --of setting higher standards where we are at 
50 percent?
    Accountability, prohibiting earmarks by Congress, the 
administration or the States and requiring the National Academy 
of Sciences independently to review that prioritization, do you 
think that is a good idea?
    Secretary Peters. Mr. Chairman, I think those are very good 
ideas, and again, they could be used to improve existing 
programs and the existing funding.
    Mr. Oberstar. We are not far apart. That is 75 percent. You 
disagree on a mechanism for funding it.
    Secretary Peters. That is correct.
    Mr. Oberstar. Well, you cannot have a bake sale to fix 
bridges. If we take our troops out of Iraq, maybe we have got 
$50-some billion we can deal with at home, as Mr. Duncan 
suggested; but, absent that, which is not going to happen in 
the foreseeable future, President Eisenhower saw the need to 
have a dedicated revenue stream, creating the highway trust 
fund.
    In that first year in 1956, Congress passed legislation to 
establish a 3-cent user fee--a gas tax. It passed 
overwhelmingly. A year later, after the States had been 
underway and the Bureau of Public Roads--as it was called 
then--evaluated it, it said we need more money. Another cent 
increase in the user fee was recommended. Do you know it passed 
the House on a voice vote?
    I do not think we can pass a prayer anymore on a voice vote 
in this Congress. But it passed then because people had vision, 
they had determination. They had a sense of destiny, of what 
was needed in this country; and that if we did not invest in 
this interstate highway program, we would be killing 100,000 
people on the Nation's highways. We had to do this. Congress 
understood it.
    Well, there is the same urgent need today to target the 
bridges, to do this in a 3-year period, to sunset it in 3 
years, to establish a prioritization system that will be 
independently evaluated, and to make it earmark-proof. Public 
trust and accountability.
    Secretary Peters. I like the earmark, sir.
    Mr. Oberstar. All right.
    Secretary Peters. Mr. Chairman, let me, if I may, respond 
very briefly.
    Mr. Oberstar. Yes.
    Secretary Peters. When President Eisenhower and the Clay 
Commission recommended the program that they did to build the 
Nation's interstate highway system, it certainly was visionary 
and certainly was important and certainly did lead to the 
establishment of the premier transportation system in the 
world. But I think, as was said earlier, we need to examine the 
Federal role today and determine what the Federal role should 
be. And as the Subcommittee Chairman indicated, there is a 
commission working on that that will report to Congress by the 
end of this year.
    But again, to continue our dependence on a gas tax when we 
have said we want more fuel-efficient vehicles, when we have 
said we want cleaner burning fuels and when we have said that 
we want to lessen our dependence on foreign oil, and when the 
technology is there today to do those things, I think it is 
contrary to those very important public policy decisions that 
many in Congress and in the administration agree with to 
continue dependence and to therefore increase the use of fuel 
taxes when we have other alternatives to bring funding to the 
table.
    Many think that I say that simply public-private 
partnerships or private investment is everything we need. I 
have never said that. I have always said that there will be 
portions of our road system that have to be funded by public-
sector revenues, but I do believe that we should take every 
opportunity to bring other available revenues to the table, 
such as Florida has done, such as California has done, such as 
Indiana and Chicago have done, to help supplement public-sector 
revenues.
    Mr. Oberstar. Thank you, Madam Secretary. We will continue 
that dialogue----
    Secretary Peters. Indeed.
    Mr. Oberstar. --as we go through this year into next year 
in preparation for reauthorization.
    Mr. Mica.
    Mr. Mica. Thank you, Madam Secretary.
    We have a current Federal bridge program, and I just want 
to spend a minute and take that apart and see if it is 
something we can fix. It is based on, as I said and you have 
said, a flawed system or a system with every passing day that 
becomes more obsolete in raising the revenues that we need. So 
we have got to fix the way we fund all of our infrastructure, 
highways and bridges. We agree on that.
    Let us look at the fund that we have now. $4.3 billion, is 
that enough or not? It appears we have made some progress in 
bringing down the number of bridges that are structurally 
deficient. Is the overall number enough or does that need to be 
increased?
    Secretary Peters. Mr. Ranking Member, I do believe that we 
probably have to look at what the criterion are that we are 
using to allocate that money today.
    For example, since 1970, Congress has provided $77 billion 
to help reconstruct or rehabilitate over 85,000 deficient 
bridges. And of course these bridges, particularly in States 
that have older portions of the system, continue to age or 
continue to wear during that period of time.
    I think what we need to do is very carefully examine the 
criterion that we are using to determine which bridges need to 
be repaired or replaced and then determine whether or not we 
have sufficient funding but to do that very rigorous analysis.
    Mr. Mica. So funding--is the dollars available is the first 
question.
    Now I heard Mr. Oberstar and Mr. DeFazio talk about 
diversion of funds. Usually when I find the problem, the 
problem is us. Either we haven't funded it--for example, I love 
to get the list of request of earmarks, of how many were for 
deficient bridges. You have to have money or we request that 
money as representatives. But both Mr. DeFazio and Mr. Oberstar 
have talked about diversion of the money, and one of the 
examples used is Pennsylvania, 50 percent. We said that, by our 
policy, that that amount can be diverted. What would be the 
appropriate amount?
    Now, you spoke also to having standards that had to be met 
for that diversion, so how would you either reconstruct or 
better construct that policy so that the money goes where it is 
supposed to?
    Secretary Peters. Mr. Mica, what I would do is establish 
standards to which the bridges had to be maintained. If a State 
did not demonstrate they were meeting those standards, they 
could not divert money out of that dedicated program. That is 
what I would establish.
    The situation in Pennsylvania is more complex, and at your 
pleasure I could ask the Federal Highway Administrator to talk 
more about what has happened in Pennsylvania per se.
    Mr. Mica. We have not gotten into other ways of financing, 
for example, public-private partnerships, which I have 
advocated and I think the administration has and others have 
advocated as a possible solution. We have not really defined 
that policy.
    For example, I use Mitch Daniels in Indiana where he sold 
some of the infrastructure; and specifically it was for bridge 
either construction or replacement, the bulk of that money. Do 
you think we need a definition of that policy? What is your 
opinion? How should we define that? What do you recommend?
    Secretary Peters. What I would recommend is having 
standards to which the National Highway System, interstate 
highway system, those things that are truly in the Federal 
interest need to be maintained. And if a State such as Indiana 
or cities such as Chicago chooses to accept private sector 
investment that they would have to insure that they are 
maintaining that infrastructure to those standards so that 
there could not be any demission of the standards as they were 
operating through a public-private partnership or some 
concession wherein a public asset would be leased out. I 
believe that we need to have a rather light touch in terms of 
the Federal Government so we can allow this money to be made 
available in a broad manner.
    As you mentioned, Governor Daniels in Indiana had fully 
funded a 10-year transportation program as a result of a long-
term lease of the Indiana toll road. So one could argue that 
the citizens of Indiana are appreciably better off today than 
many other States that do not have that funding.
    Mr. Mica. Finally, the question is States' contribution, 
State or locality. For example, in Minnesota, I believe the 
Governor had vetoed a couple of measures for increasing 
revenues. I was surprised.
    I visited Texas to find out that Texas has a $0.20 gas tax. 
That is, $0.05 goes for education and $0.03 goes towards law 
enforcement. Now law enforcement I could see as part of the 
highway. But, again, people can say they have a gas tax, but it 
does not fund infrastructure, it funds other things. And the 
Chairman has said his proposal tried to take into consideration 
some of that.
    Isn't that important that we see what an actual 
contribution is from the State or the locality in this process? 
Otherwise, like I said, you have taxpayers paying for lax 
payers or those who are not willing to pay their share.
    Secretary Peters. Yes, sir. Both you and the Chairman have 
indicated that this maintenance of effort on the State level I 
think is very important as we go forward in determining the 
Federal role and what the contribution should be. GAO has 
completed a report that did indicate there was a substitution 
effect. When Federal revenues increased in a period of time, 
State revenues went down during that same period of time.
    Mr. Mica. Thank you.
    Mr. Oberstar. Thank the gentleman.
    Before you break your arm patting yourself on the back for 
Governor Daniels, he has a 75-year lease and 10-year program 
for highway investment.
    Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    Madam Secretary, I appreciate very much your time being 
with us today and want to commend you as well, especially our 
Chairman of our Full Committee, Mr. Oberstar, for the manner in 
which he responded to the tragedy in Minnesota, the depth and 
breadth of your knowledge and the manner in which you tackled 
the tragedy. If we learn nothing from the events of the 
Minnesota tragedy, that, too, would be a tragedy in itself.
    While I commend you for your depth and breadth of your 
knowledge--certainly we would agree on the problems that exist 
and the statistics are all there--we may not agree on the 
manner in which we address it. My biggest frustration is to 
hear this administration and previous administrations--and it 
is not something with which I disagree--but to hear them say 
all options are on the table when it comes to rebuilding and 
defending allies abroad and/or companies that produce so much 
oil vital for our interest and yet not making the same 
statement, especially this administration, when it comes to 
addressing the same problems that exist domestically here in 
this country. I would like this administration to say all 
options are on the table for defending us internally and 
rebuilding America as well, but I have not heard this 
administration say that, and that is perhaps my biggest 
frustration.
    Secretary Peters. Well, you certainly make valid points. 
The incident that occurred in West Virginia in 1967 in which 
numerous people lost their lives was the tragedy that gave 
birth to the bridge inspection program, so I think certainly 
you speak from an experience base in West Virginia about how 
important it is to maintain our bridges.
    Mr. Rahall. Well, I appreciate you bringing up that 
tragedy. I was going to bring it up as well.
    Let me turn to a question specifically in regard to your 
testimony. You state that there are 40 special interest 
programs that had been created to provide funding for projects 
that may or may not be a State or local priority, end quote. 
What are these 40 special interest programs?
    For example, is the Appalachian Development Highway a 
special interest program because it primarily serves 
Appalachia? Is the New Freedom Transit Program a special 
interest because it serves the disabled and elderly--as 
recommended by the administration and the Chairman informs me? 
Is a Safe Routes to School Program a special interest program 
because it promotes a healthier lifestyle for school children? 
What are these 40 special interest programs?
    Secretary Peters. Let me give you an example of one of 
those programs, the Historic Covered Bridge Program. Historic 
covered bridges are important, but when compared with improving 
infrastructure and what Americans believe they are paying for 
when they pay those fuel taxes, I believe that is an example of 
a diversion of funding programs----
    Mr. Rahall. Do you know what percent that is?
    Secretary Peters. I do not right offhand.
    Mr. Rahall. Okay. Again, I say I think from the way I 
interpret the 40 special interest programs--obviously, you can 
tell from the thrust of my question it is not something I 
consider special interest when it comes to spending monies on 
behalf of these particular programs that help particular 
segments of our population. I do not think the groups that are 
served by these programs would call them special interest 
provisions that need to be cut or diverted as well.
    Secretary Peters. Congressman, I think what is important 
and what I have said in my testimony and repeatedly is we need 
to use economics and safety in determining where and how we 
spend money first and make sure that we are doing everything we 
can based on economic analysis, data-driven asset management 
approaches to take care of our infrastructure.
    Certainly there are many, many worthy purposes included in 
those 40 additional programs, but the question that I would ask 
and that I think we owe the American people to ask is, are we 
spending money first on the highest priorities? And only after 
we have satisfied those priorities are we taking care of 
other--how laudable those purposes may be, first is to take 
care of our Nation's infrastructure.
    Mr. Rahall. Well, I would not agree with that last 
statement, that the first priority is to take care of our 
Nation's infrastructure. Where I would disagree is in looking 
at taking care of our Nation's infrastructure there are areas 
in which perhaps Members of Congress, both bodies, have a more 
acute knowledge and are able to discern where meeting those 
needs can be accounted on a local basis and addressed on a 
local basis; and it is a very small percentage of the overall 
picture, I might add. I would say we need to look at both 
priorities--all priorities, I should add.
    Secretary Peters. Understood.
    Mr. Rahall. Thank you, Mr. Chairman. My time is up.
    Mr. Oberstar. I thank the gentleman.
    The matter of historic covered bridges is one of the long 
history of transportation in New England and was an issue 
championed by Senator Jeffords in ISTEA.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    This past May I was asked to chair a conference on growth 
because we are almost being overwhelmed with our growth in east 
Tennessee, and Secretary Peters was kind enough to come and 
headline that because transportation is such an important part 
of that. And then we toured and she visited with State highway 
officials concerning the most expensive highway project in the 
history of our State that we are doing in Knoxville at this 
time. And Secretary Peters just wowed and impressed everybody 
and that conference of 750 people there and all the highway 
officials; and, Madam Secretary, I want to say again how much I 
appreciate your coming.
    In your testimony today you say the percentage of the 
Nation's bridges that are classified as structurally deficient 
has gone from 19 percent in the mid '90s to 12 percent now. 
What do you think has been the main thrust or has done the most 
to lead to that improvement and can we keep on decreasing of 
these numbers of these bridges with some of the lessons we have 
learned since that time?
    Secretary Peters. Congressman, thank you first for your 
comments.
    I do believe we can. What we need to have is a continued 
emphasis on how the bridge inspection program and the bridge 
funding, dedicated funding made available, are connected and 
used properly. That is precisely why I have asked our Inspector 
General to look at how we might make improvements both in the 
inspection standards but also in how the inspection data is 
used to prioritize the repair or replacement of bridges.
    Certainly the highest classification of bridges, those that 
carry the most traffic such as the I-35W bridge in Minneapolis, 
should come to the top of the list. We do not know yet what 
caused that bridge to collapse. I think it would be presumptive 
to say it was a lack of ongoing maintenance, because that does 
not appear to be the case at all.
    Mr. Duncan. Well, you have very accurately pointed out that 
the term "structurally deficient" is not synonymous with 
unsafe; and I am a little curious as to why are there 
categories such as satisfactory, good, even very good and 
excellent ratings included in structurally deficient bridges? 
Why would we say that a bridge is excellent and yet still call 
it structurally deficient?
    Secretary Peters. We generally should not and would not 
make that comparison. I would ask the Administrator to address 
that more fairly.
    I think you make a very important point. When we say to the 
American people a bridge is structurally deficient or 
functionally obsolete, it causes concern. I think the use of 
those statements and perhaps the connotation of those 
statements inaccurately has caused concern certainly in this 
case. That is something I am asking the Inspector General to 
give me benefit of his knowledge in that.
    Generally speaking, a bridge that is rated excellent should 
not be considered structurally deficient. What structurally 
deficient means in a more of a working definition is it showing 
signs of wear, that the bridge needs to be inspected or 
repaired more frequently, watched more closely. But not in any 
way does this connotation mean that bridge is unsafe.
    Rick does a good example of using a pair of shoes that I 
will ask him to explain in a moment, but functionally obsolete 
means basically that it no longer meets today's minimum design 
standards. It met design standards when it was built but may or 
may not today. The congressman from Arizona may remember the 
Gila River bridge in Arizona on I-10 that is functionally 
obsolete but still indeed functions and carries hundreds of 
thousands of vehicles every day.
    If I may ask the Administrator----
    Mr. Duncan. Before you go to the Administrator and before 
my time runs out, I just ask the Administrator not only to 
respond as you have requested, but I do have one question I 
wanted to ask the Administrator.
    The Federal Highway Administration estimates it will cost 
approximately $40 billion a year to maintain the highways, 
maintain our Nation's bridges and approximately $60 billion a 
year to improve those bridges, but the March--the 2006 DOT 
conditions and performance report cited costs of really about 
twice that high. Would you explain what the discrepancies are 
there? Because you are talking about a mega-billion-dollar 
difference there.
    Mr. Capka. Thank you, Mr. Duncan, for the question.
    There is some pretty good information that C&P report 
focused on the cost to maintain and also the maximum economic 
investment.
    With respect for bridges, the latest C&P report identified 
$8.75 billion a year as the cost to maintain. That would be 
invested over a 20-year period. The total amount that would 
need to be invested right now in 2004 dollars--the backlog, if 
you will--is about 65--a little over $65 billion. We are 
investing today--I mentioned that $8.7 billion annual 
investment over 20 years. We are investing today about $10.5 
billion. That might go a little bit to explaining why the 
improvements that we have been seeing in the condition of the 
bridges has been moving in a positive direction.
    I would also point out that the maximum economic investment 
that the C&P report turns out is about $12.4 billion. So that 
10 and a half is nestled in between and I think goes a long way 
to analyzing why we have been seeing improvements.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank the gentleman for his comments and his 
questions.
    Mr. DeFazio.
    Mr. DeFazio. I point out to Mr. Capka--and I may not want 
to say this--the administration did not support those higher 
levels of spending, objected to them, would have cut the 
program.
    Madam Secretary, I hope we can find something to agree on 
here. We are reexamining the Federal role. We have what we call 
the National Highway System. It is 162,000 miles. 46,000 
interstate, strategic highway network, military mobilization 
and other major highways. That is only 4.1 percent of the 
mileage in the country, but it is 45 percent of the vehicle 
miles, 75 percent of the truck traffic, 90 percent of the 
tourist traffic. I mean, is this what we are talking about? We 
are talking Federal interest. Do you believe we should maintain 
or enhance the 162,000 mile National Highway System, including 
the bridges? Simple answer, yes or no?
    Secretary Peters. Yes.
    Mr. DeFazio. So, now, look at the map up there. See all the 
little dots? I know it's a little hard to see. These are the 
6,175 National Highway System bridges that are structurally 
deficient. About half of them are on the interstate and the 
rest are on the rest of the system.
    So you say there is something we can do other than gas tax 
or Federal funding to take care of this pretty widely 
disbursed, very major problem. What is that alternative? Are 
you going to put tolls on all those 6,172 Federal bridges? Is 
that the idea? Or we can ask the private sector to rebuild them 
and let them toll them and lease them? I mean, what is your 
solution here?
    You are saying, can't have any more Federal investment. We 
are not going to have more Federal investment. You have drawn 
the line. You are not going to raise user fees. So what is it?
    Secretary Peters. Mr. DeFazio, I believe the solution is 
examining where we are spending money today, using economic 
analysis; and the numbers that I indicated earlier are that 
there is enough money today if----
    Mr. DeFazio. Let me ask you another question. As far as we 
can tell the source for the 40 percent number, there is nothing 
credible out there except someone named--and he is not 
credible--Ronald Utt at Heritage. He came up with the 40 
percent, Mr. Utt, which I think is 1/1000 of 1 percent. You are 
talking about concerns about congestion and concerns about the 
system and these are diversions. Twenty percent, half of his 
number, is transit. So should we do away with transit? Would 
that not make congestion worse? Do we believe by putting people 
in transit we are avoiding congestion?
    Secretary Peters. Mr. DeFazio, I do not think we should do 
away with transit.
    Mr. DeFazio. Well, then you should not talk about this 40 
percent diversion like there is money out there to be grabbed 
back. Because half of it, according to this expert, Mr. Utt, is 
transit. And you can go down through other programs----
    Secretary Peters. Mr. DeFazio, one of the things I have 
said about that 40 percent is that I think Americans who pay 
fuel taxes when they pump fuel into their vehicles, most of 
them are not aware that only 60 percent of the taxes that they 
pay go directly--and I emphasize directly--to highways and 
bridges.
    Mr. DeFazio. I think, Madam Secretary, what many Americans 
are concerned about is safety. They do not want to die on a 
bridge collapse on the way home from work.
    The daily beef is congestion. Let's get down to congestion 
and the levels of investment we are talking about here.
    Now I am very puzzled, and perhaps Mr. Capka can help us 
out here. You talk about this 40 billion, 60 billion, but when 
I read the conditions and performance report they have three 
levels. One is the current level that we are putting in, which 
is $70.3 billion total investment, which means we are not even 
keeping up with the physical condition and we are not dealing 
with congestion. If we go to--according to your own conditions 
and performance report, if we go to $78.8 billion, we will keep 
up with the current levels of congestion and good conditions. 
If we want to begin to deal with congestion, you have to move 
the number up to at least $89.7 billion in the future to 
improve congestion; and you could, according to the cost 
benefit analysis, invest up to $131 billion. There you have the 
cost benefit analysis.
    I do not know what the 40 to 60 is, but by all accounts we 
are not even keeping up with the current congestion levels in 
the system and we are not keeping up with the physical 
maintenance. But you are very sanguine about it and say private 
sector will take care of it, and then we will have congestion 
pricing.
    Is the idea of congestion pricing somehow congestion goes 
away? Where do those people go when we squeeze them out of the 
system? Do you do think these are all people just out there 
driving around for fun? They are not on their way to work and 
they can just stay home and the roads would not be congested? 
How does congestion management solve this problem if the 
Federal government does not invest in the States or the 
localities don't invest? Mr. Capka?
    Secretary Peters. You probably should talk about all the 
conditions and performance and all the rest of the issues.
    Mr. Capka. All right.
    As far as the C&P report is concerned, you are correct. The 
cost to maintain is $78.8 billion. The investment is $70.3, 
with the maximum----
    Mr. DeFazio. And it's good to explain that to the humans 
out there. That means--cost to maintain would mean today's 
levels of congestion on good road surfaces and safe bridges.
    Mr. Capka. That is correct, Mr. DeFazio.
    The other thing the C&P report pointed out this year is 
that there are other investment mechanisms that are available 
that should be considered, mechanisms that will help better 
operate the system that we have, more efficiently operate the 
system that we do have and perhaps take the peaks off the 
demand times during the course of the day, which would then 
lessen the demand for the new investment that would be made. So 
there are some other things pointed out.
    Mr. DeFazio. But if you take a peak off, it is either 
discretionary travel or you have to provide an alternative, is 
that correct?
    Mr. Capka. And I think the data shows there is a 
considerable amount of discretionary travel made during those 
peak times. So I think there is room to improve the operations 
of the system which would have an overall beneficial impact on 
the resource demands on the system.
    Mr. DeFazio. You are saying we have to squeeze it. We do 
not need to invest in more capacity. We have to get people off 
the road. We have to tell them get off the road. Just let a 
Lexus go by paying a buck a mile.
    Secretary Peters. If I may, in terms of a very recently 
completed household travel survey, it does indicate that more 
than half--in many instances, more than half of the people who 
are on a road during commute times, during peak periods of 
time, are not commuting. They are doing other things. My sister 
is picking up her dry cleaning.
    Mr. DeFazio. Taking their kids to school?
    Secretary Peters. It could be.
    Mr. DeFazio. Well, that is not discretionary for most 
people who work for a living.
    Secretary Peters. Since 1991, transportation spending has 
more than doubled.
    Mr. DeFazio. In real dollars?
    Secretary Peters. In real dollars. If I am mistaken, I will 
come back and correct that.
    But during that same period of time congestion has gotten 
substantially worse. Condition of roadways has marginally 
improved as has safety marginally improved. Where we are seeing 
a big degradation in the system is in performance.
    Mr. DeFazio. The bottom line is you think we do not need 
more Federal investment. We need congestion pricing, force 
people off the road, and we need more private-public 
partnerships. That is your alternate financing that you are 
talking about?
    Secretary Peters. I wouldn't say it exactly like you did. 
What I would say is we need to make a better, more efficient 
use of the----
    Mr. DeFazio. Would you agree that there is any need for 
more Federal investment, just a smidgen?
    Secretary Peters. Sir, there may well be. Our first 
obligation to the taxpayer is to spend the dollars we have at 
the highest priority level.
    Mr. Oberstar. My proposal will do that. We have agreed on 
75 percent.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman; and, Madam 
Secretary, thank you for being here and thank you for the 
administration's response to what happened in Minnesota and 
thank you for your service.
    I also want to thank the Chairman of the Full Committee. 
After the events that occurred in Minnesota on August 2nd, the 
Chairman was kind enough to send around a list, map of the 
bridges in our districts that were labeled as structurally 
deficient.
    And it gets me into the point that Mr. Rahall made. I had 
two in my district, and I am happy to report that one has been 
repaired pursuant to an earmark in TEA-21. When I was home, I 
drove under the second one that is being repaired thanks to an 
earmark in SAFETEA-LU. So I do subscribe to the theory that 
there are good diversions and bad diversions. It really depends 
on whose ox is being gored when you determine what an 
appropriate diversion is.
    And then the covered bridge issue. Ashtabula County in the 
northeastern corner of Ohio is the home of probably more 
covered bridges than anywhere outside of New England.
    I always viewed the highway bill and the highway program as 
something that not only takes care of our infrastructure, roads 
and bridges but also enhances the quality of life in areas that 
we live.
    I know that some people chafe about the fact that there are 
diversions for scenic highways and covered bridges and 
diversions for the transit program, but I would suggest that 
what we have is a 1956 model wherein we funded our Nation's 
infrastructure, at least at the Federal level, through the 
Federal excise tax on gasoline when most people probably had 
one car, most people did not have cars that were getting 30 
miles per gallon, and now on the drawing board we have cars 
getting 60 miles per gallon. If we bring turbo diesel into this 
country, we are going to have 85 miles to the gallon.
    So the model, that we're going to say that that 18.4 cents 
is sufficient and that is going to be the Federal investment--
quite frankly, as a long-time Member of the Committee who has a 
great deal of respect for you and the administration, my 
greatest disappointment in the 13 years I have been on this 
Committee was the fight we had with the administration over the 
highway bill.
    When the Department of Transportation said that the cost 
should be $375 billion over the 6-year period of the bill and 
we had to fight for 2 years, the bill was delayed for 2 years, 
getting between 256--can it be 289? Can it be 301? And all the 
while our infrastructure was lacking.
    I would just hope--and I know you do not get to make all of 
the calls. There is a reason the administration's approval 
rating is down in the polls. There is a reason that the U.S. 
Congress' approval rating is down in the polls. One of my 
favorite lines in this Congress was Senator Trent Lott said 
this Congress cannot pass gas. And the reason for that is 
people expect us to do better.
    I think Mr. Rahall's point is right on the money. To say 
that all things are not on the table, whether it is increased 
gasoline taxes, users' fees, public-private partnership, 
whether it is a re-examination of our bridge program and 
privatization, I think cheats the American motoring public; and 
I would hope that the administration would rethink its position 
and work in a way to finally get a bipartisan success.
    Mr. Oberstar could write a bill that would never get the 
administration's support, wouldn't get a lot of Republican 
support. The administration could do vice-versa. But that is 
not why we are here. I think we are here--my constituents when 
I am home saying mixed views on what is going on in Iraq, but 
they do say, how come their roads are in better shape than our 
roads? I think that is not an appropriate place for us to be in 
in this country.
    I am happy to say I think you are doing a good job, but I 
would hope at least part of the administration's message on 
this bridge crisis that we have in this country would be that 
we will consider all options. You do not have to promise to 
accept any option but that you would consider all options as we 
move forward.
    Because, quite frankly, I saw when Tom Petri was the 
Chairman of the Highway Subcommittee as the SAFETEA-LU bill was 
being drafted, I saw the projections of what $0.05 a gallon 
would get. It really doesn't fix the problem. So you cannot get 
there from here just by looking at the gasoline tax. It will 
take a blend of things. And I hope that the administration will 
work with the Chairman and those on our side of the aisle and 
come up with something that fixes the problem, rather than 
figuring out we cannot fix the problem.
    Thank you very much.
    Mr. Oberstar. I thank the gentleman for enunciating the 
formula by which we will proceed in the future. Thank you.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Madam Secretary, you said you think you have enough money 
to fix all these 6,000 structurally deficient bridges.
    Secretary Peters. Sir, what I said is if we were spending 
money appropriately there is enough money in the total amount 
that we are collecting today, yes.
    Mr. Capuano. And do you have enough money to fix the other 
66,000 structurally deficient bridges that are not part of the 
National Highway System?
    Secretary Peters. Sir, I do not know that. That is 
something I would have to analyze.
    Mr. Capuano. If you fixed all the structurally deficient 
bridges, would you have enough money after that to then deal 
with the structurally deficient bridges that deal with mass 
transit or rail?
    Secretary Peters. That, sir, is covered, I believe, in the 
conditions and performance report for transit that I do not 
have with me.
    Mr. Capuano. If we just do structurally deficient bridges, 
is there enough money left over to deal with anything else? I 
am trying to prioritize in my own mind structurally deficient 
bridges for mass transit, structurally deficient bridges for 
rail.
    Secretary Peters. For rail and for mass transit, I will 
differentiate the numbers that I will give you, but the numbers 
that we have used is, according to FHWA estimates, it would 
cost $40 billion a year.
    Mr. Capuano. I know the numbers.
    Secretary Peters. This is all infrastructure. This is all 
highway and bridge infrastructure.
    Mr. Capuano. Well, I am trying to prioritize. There are 
highway bridges, there are mass transit bridges, rail bridges. 
We have not talked about tunnels. Do we have any money to even 
inspect tunnels? Since we do not inspect any tunnels in America 
right now that we are required--do we have money to do that?
    Secretary Peters. We need to look at what was left of the 
money. You are correct. The Federal government does not inspect 
tunnels. The State governments do.
    Mr. Capuano. If we inspect those tunnels, would we have any 
money left to fix anything we found that was wrong in any of 
the tunnels across America?
    Secretary Peters. I would prefer not to speculate.
    Mr. Capuano. If we did all the bridges and all the tunnels, 
would we then have any money left to deal with the dangerous 
intersections? According to the NTSB, it has 19,000 accidents 
per day, killing 43,000 people per year. Do we have enough to 
deal with those intersections.
    Secretary Peters. Sir, the data I have in front of me today 
is for highways and bridges; and we could maintain it to 
current conditions for $40 billion, improve it for $60 billion. 
There is a total----
    Mr. Capuano. And we have enough money to do that.
    Once we are finished with the bridges, the tunnels--just 
the structurally deficient ones, we are not talking about the 
80,000 obsolete ones. We are just talking about the 
structurally deficient ones. Do we have enough money to deal 
with the typical highway maintenance problems that we have 
across this country?
    Secretary Peters. Yes, sir, I believe we would.
    Mr. Capuano. We would have money to then deal with the mass 
transit and rail maintenance issues?
    Secretary Peters. Those are separate funds. I will give you 
those.
    Mr. Capuano. Do we have any money left to do any of the 
expansion that some of us want to do with mass transit or rail 
anyplace in this country?
    Secretary Peters. Sir, the figures that I have for highway 
indicate that we could substantially improve for $60 billion. 
We are collecting greater than 70 today.
    Mr. Capuano. I look forward to getting the numbers, because 
I am not sure--I look forward to getting them, but it strikes 
me as almost unbelievable that you think we can deal with all 
these issues with the current funds that we have.
    I understand fully well that you may not want to add 
additional funds. I respect that. That is a fair philosophical 
commentary. But I think it is also fair to tell the American 
public the truth. I am not suggesting that you are fudging at 
the moment. We will wait to see the numbers. But it will be 
amazing to me if we can deal with those priorities. We're not 
even talking about the obsolete bridges, and we can even leave 
out any expansions of mass transit or any of the other things 
we want to do. Just the 72,000 structurally deficient bridges 
across this country. If we can get enough money to do that, I 
would love to see it; and then I would like to see what we have 
left over.
    Because I have a particular interest in tunnels, as Mr. 
Capka knows. That has been completely overlooked by this 
country, and it is a disaster waiting to happen somewhere in 
this country. When it does, you will be back; and we will talk 
about it all over again.
    That does not talk about all the other things we need to 
do. That is why I believe we need to add more money to this 
system. I do not believe you can make these numbers work. I 
hope you can. I hope it is not done with any interesting 
accounting. Money is not that fungible. States, cities and 
towns do not have the money.
    I have 21 structurally deficient bridges in my district, 
just national highways. I will tell you I have asked for 
earmarks for several of them, and it kind of bothers me that we 
do not have a prioritization on those things.
    I totally agree, we should prioritize. We shouldn't be 
spending Federal taxpayer money without setting those 
priorities, and I look forward to doing it, but I also believe 
it is not the only thing we should be doing.
    I honestly believe when everything is said and done, that 
is all the money you will have, you will not be able to fix 
72,000 bridges when the DOT IG said it will be $65 billion just 
to fix the 6,000 NHS bridges. We will see, and I look forward 
to those numbers.
    Mr. DeFazio. Will the gentleman yield?
    We really need a point of clarification here. You keep 
throwing out 40 and 60. When I was questioning, Mr. Capka 
agreed that just to keep the current levels of congestion on 
well-maintained roads would be $78.8 billion a year. What is 
the 40 and 60 and how does that relate? You are saying for 60 
we can improve everything. He is saying 78.8 just to maintain 
the current levels of congestion. How do those numbers----
    Secretary Peters. Mr. DeFazio, the 40 and 60 refer to the 
condition. They do not refer to the performance. We have in the 
most current version of the C&P report begun to address 
performance. But what we are talking about of the numbers that 
I am citing----
    Mr. DeFazio. What is 78.8? I thought that was current 
performance, i.e., congestion and meeting the maintenance 
needs; and she is saying there is something else. She is 
saying, for 60 we can fix everything. You say, for 78.8, we can 
just keep up with what we have got.
    Mr. Capka. Mr. DeFazio, the C&P report conditions and 
performance includes investment in both, and what the Secretary 
is referring to is the investment in the conditions.
    Secretary Peters. Conditions only.
    Mr. DeFazio. It is a little narrow, so we are not dealing 
with performance.
    Secretary Peters. Mr. DeFazio, this is precisely why we 
choose to use the discretionary money that was made available 
to us this year to address congestion, because we do see we 
need to improve performance.
    Mr. Oberstar. The gentleman's time has expired.
    Mr. LoBiondo.
    Mr. LoBiondo. No.
    Mr. Oberstar. Not right now.
    Mr. Moran.
    Mr. Moran. No.
    Mr. Oberstar. Mr. Brown?
    Mr. Brown of South Carolina. Thank you, Mr. Chairman; and 
thank you for holding this hearing today.
    Thank you, Madam Secretary, for coming to be a part of this 
discussion.
    I applaud the Chairman for bringing this meeting, because 
of the tragedy we had in Minnesota. But, Madam Secretary, you 
know that as we look at the overall performance of our highways 
we are losing some 40,000 of our citizens every year to tragedy 
on the highway. I would hope that we would not look at this in 
the narrow view, but the broad view to come up with some kind 
of overall policy that will address the total safety of our 
highways. I know we have got a lot of congestion, and that we 
are losing a lot of dollars on the road, but public safety is 
certainly a major concern of mine.
    I was just wondering how we are proceeding with the 
SAFETEA-LU commission. How is that coming along and when do see 
that we might get some response from that? Not only a response 
over the overall view of the highway system but maybe some 
alternative funding.
    We might want to look at a different way of funding our 
bridges and our highways other than a gas tax. Maybe there 
should be some other designated funding sources that we could 
use that would be more consistent with the continuing needs in 
the transportation system.
    Secretary Peters. Congressman Brown, thank you for the 
comment.
    The 1901 commission which was created by SAFETEA-LU has 
been actively working for a little over a year right now. 
Secretary Mineta was the original chair of that commission. I 
now chair that commission, and we do intend to have to Congress 
reports by the end of this year.
    Safety is one of our primary concerns. It is a critically 
important issue, and we need to address and certainly are 
addressing that, as well as condition, as well as performance 
and as well as looking at what the Federal role should be and 
the Federal contribution should be.
    We are looking at a number of alternative revenue sources, 
including gas taxes how to meet those needs. It would be 
premature for me to give you any idea of where we are going to 
come down on that, since there are 12 independent 
commissioners, all of whom are contributing significantly to 
that report.
    The second commission, the commission that we call the 
11142 commission, I met with the chairman, Mr. Rob Atkinson, 
yesterday. They also are progressing on a more narrowly 
tailored focus, that of financing mechanisms; and they also are 
making good progress. I hope to have a report out in early '08. 
Thank you, sir.
    Mr. Brown of South Carolina. Thank you very much. Thank 
you, Mr. Chairman.
    Mr. Oberstar. Thank the gentleman.
    Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman, and thank 
you for hosting this meeting; and welcome, Madam Secretary.
    I just returned from a trip, from Spain, London and Paris; 
and I was asking them how do they majorly fund their 
transportation needs. And they told me it was not through gas 
tax but through toll roads. This is how they fund their major 
transportation system. How would some similar system work here 
in the U.S.?
    Secretary Peters. Congresswoman Brown, thank you, by the 
way, for your Chairmanship on the Rail Subcommittee and for the 
work you have done on rail safety.
    You are correct. In Europe and many other parts of world 
they have used a much greater dependence on tolls than we have 
in America. Generally, the application here in America I 
believe would to be attract private-sector investment and 
recoup that investment through tolls or congestion pricing in 
our most congested areas.
    As I said before you had the opportunity to join the 
Committee meeting, there are roads that simply will not meet 
that test. We will not be able to use towing or congestion 
pricing, and they will require other public investment in those 
roads.
    Eventually, we may go to a mileage-based system of pricing 
where when we use the road, time of day, how congested it is, 
how many occupants in our vehicle, all is concerned in 
determining the cost in a utility model which has merit and has 
been tested in Portland, Oregon, I believe.
    You learned a lot on your trip, I hope, and would love to 
talk with you more about that.
    Ms. Brown of Florida. Absolutely. One of the things in 
downtown London, for example, they charge $10 a day per car 
for--excuse me, sir, I cannot see the Secretary. Mr. Chairman? 
Excuse me--Mr. Kagen, I am sorry.
    They charged $10 a day per car to drive in the city. So it 
is actually a physical charge on a car to come to like downtown 
D.C. Per day.
    Secretary Peters. That is accurate. That is not only being 
in done in London but also in Stockholm and in Singapore. In 
Stockholm, it was done on a trial basis, and the citizens were 
asked if they wanted to continue it, and they did.
    Here in the United States one of the urban partnership 
agreements that we awarded in August, as was referred to 
earlier, Mayor Bloomberg in New York has also proposed such a 
congestion pricing matter in New York City. It remains to be 
seen whether or not a commission that was established by State 
legislature will vote to move that forward. But it is something 
that we think does have tremendous promise in given areas, as 
long as it is looked at very comprehensively; and we are very 
anxious to see what the Mayor and citizens of New York want to 
do in terms of going forward.
    The money that we allocated to them is contingent on their 
ability to move forward. If they are not ultimately able to get 
the authority to move forward, that money will come back and be 
reallocated to other congested areas.
    Ms. Brown of Florida. The spin-off is that it just drove up 
the ridership on the mass--train, and that is the key. It 
helped congestion, pollution. It was just a win-win for 
everyone.
    One other question, have you received any feedback yet on 
the inspection of the 750 steel arch bridges and the 
conditions?
    Secretary Peters. We have, and I will ask the Administrator 
to give you that information.
    Mr. Capka. Yes, ma'am, we have. We hope to have all the 
information in by the end of November, but now we have better 
than 50 percent of reports in from the States, and the reports 
are coming in with bridges in very good shape. We have not 
uncovered a systemic problem at all with the reports coming in 
thus far.
    Ms. Brown of Florida. Can we get a tentative update of 
where we are?
    Mr. Capka. Yes, ma'am. We will provide that to you.
    Ms. Brown of Florida. Thank you, Mr. Chairman. I will yield 
back my time.
    Mr. Oberstar. The Chair recognizes the gentleman from North 
Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I have been tied up 
with a Judiciary hearing. I apologize for my belated arrival. 
It is good to have you all with us.
    For the past 5 or 6 years, Mr. Chairman, each time I speak 
to a civic club back home or a public group, I always have 
directed attention to our aging national infrastructure, 
including bridges. Unfortunately, my words were prophetic; and 
I am sure others have uttered the same thing here.
    Secretary, let me ask you a question. If that was asked 
prior to my arrival, I apologize. Some of the structurally 
deficient bridges in my area and I'm sure in the areas of my 
colleagues are very costly as far as repairing them and working 
them up to snuff. Previously, we granted States the ability to 
transfer dollars dedicated for bridge funding to a National 
Highway System or surface transportation program. I am applying 
hindsight now, Secretary. That is always 20/20, as you know. 
Should we continue to grant this authority, place a greater 
emphasis on using dedicated highway bridge funding for its 
intended purpose or permit States to transfer funding into a 
highway bridge program to address the deficiencies?
    Secretary Peters. Congressman, what I believe we should do 
is be sure we are establishing the proper standard for which 
bridges should be maintained and only allow a transfer of money 
out of those dedicated accounts if the State can demonstrate 
that their bridges are meeting those criterion. This is part of 
what we will be looking at in the review of the bridge 
inspection program that the Inspector General, who you'll be 
hearing from a little later, is looking at.
    I believe it is based on standards. You are meeting the 
standards and have the ability to transfer the money to other 
purposes. If you are not, you may not. You must meet those 
standards.
    Mr. Coble. I thank you. I yield back.
    Mr. Oberstar. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Madam Secretary, I was very pleased to learn that in your 
opening remarks you identified your firsthand experience as a 
former State DOT director, and I appreciate that very much. 
Have you ever had an opportunity to work on a bridge crew?
    Secretary Peters. Sir, I have not. I have done flagging, I 
have done a variety of things but not on a bridge crew per se, 
I have observed it being done.
    Mr. Braley. I had the good fortune to work on a bridge crew 
for 4 years, and one of the things that we often don't focus on 
in these discussions is that thousands of men and women put 
their lives on the line every day to build and repair our aging 
infrastructure all over this country.
    One of the things you learn very quickly when you are 
working on those jobs is that there is a lot more to putting 
together our aging infrastructure than just dollars and cents. 
One of the things we know is when we commit to reinvesting to 
an infrastructure there are ripple affects far beyond safety, 
far beyond transportation and goods and services and into the 
economy and all over the country.
    One of the other things you quickly learn when working for 
a county road department is there are ripple effects with 
highway projects that are being done at a Federal level and 
then Federal right of way gets abandoned to States on existing 
Federal highways that are no longer subject to the same type of 
road use and then those States end up abandoning to county 
government, and all this gets passed on and on and on.
    The cost of maintaining many of these structurally 
deficient and obsolete bridges is borne by lower level 
government agencies who many times do not have the resources 
that we do here in Congress. So as someone who represents a 
State that ranks number four in terms of overall structurally 
deficient bridges as a percentage of its population, this is a 
very acute concern to the Highway Department of Transportation 
and to many county supervisors all across our State in 99 
separate jurisdictions.
    So what I would like you to do is talk about your 
perspective as a former State DOT director and how our Federal 
system of highway repairs and funding is impacted by all of 
these decisions we are making that are important not just from 
a safety standpoint but from the other areas.
    Secretary Peters. Different States do things differently. 
For example, in Virginia, they are responsible for the entire 
system on primary and secondary roads. In other States and my 
home State of Arizona, that responsibility goes to county 
governments and ultimately to city governments as well.
    The national bridge inventory and national bridge 
inspection standards apply to all of those bridges. This was 
something after the tragedy in West Virginia that was pointed 
out how important it is to apply those standards to all 
bridges.
    The funding in the Federal aid highway program is intended 
primarily for those who are federally aid eligible. States also 
have funding sources and can make those discretionary funding 
sources available to county and city governments. In Arizona, 
we allocated approximately half of the State discretionary 
revenues to local governments to use on their system.
    If there was a case where the Federal government was taking 
a bridge or road off that system and it was no longer part of 
the Federal aid system and National Highway System, perhaps 
then it had to be in good operating condition before it could 
be then allocated to a county government or to a city 
government. So before any transfer was made, it was insured 
that that infrastructure, whether it be a roadway or a bridge, 
was in good operating condition.
    Mr. Braley. But I want to clarify that. Because we have 
already talked in this hearing about the fact that many of 
these bridges that are classified as structurally deficient 
does not necessarily mean that those bridges are unsafe. So 
when you are talking about the classification of being in good 
operating condition, does that mean that they cannot appear on 
a structurally deficient listing or functionally obsolete 
listing?
    Secretary Peters. In my experience, sir, that was the case. 
I do not know if that is the case in every State. I know you 
will be hearing from county officials a little later who may 
give more clarity to that. But I did always feel as the person 
responsible that we should not put problems on county or city 
governments who had even fewer resources to deal with than we 
in the State level had.
    Mr. Braley. One of the other questions I had relates to the 
rescissions we have been talking about. One of the things I 
have not heard you or the Administrator discuss is whether or 
not you think the policy that is currently in place with the 50 
percent allocation is working, and I would like to hear from 
both of you on whether you think it needs to be adjusted.
    Secretary Peters. I will give you my thoughts and then 
certainly ask the Administrator to give his.
    I believe what we should do in the aftermath of this 
tragedy and looking over the bridge program is to establish 
standards, ensure those standards are accurate to which the 
bridges need to be maintained and not allow transfer of money 
out of those accounts unless the State can demonstrate they are 
maintaining their bridges to that level or to that standard.
    Rick, please, you work more closely with this.
    Mr. Capka. Yes, sir. In the transfer in the rescissions 
that States have been dealing with, many of the States--in 
fact, if you take all 50 and the District and Puerto Rico in 
aggregate, there are more funds transferred in from some of the 
other programs into the bridge investment than there are 
rescissions and transfers going out. I believe--and you will 
have an opportunity to check with some of the State officials 
later on--that the transfers and rescissions are made to create 
a more flexible ability to use those funds. In the aggregate, 
they get rolled back up into the bridge investment.
    I do think there can be some improvements made. Right now, 
the allocation of the bridging dollars, the apportionment that 
is done is based upon the condition of the bridge, as opposed 
to other characteristics which are just as important, the ADT, 
the average daily traffic demands on the bridge, the 
maintenance requirements and the maintenance investments, these 
preventive maintenance investments being made on bridges, the 
asset management programs that are in place are all very 
important to ensure investments are made wisely and 
effectively. I think we can expand the criteria against which 
these apportionments are made for bridge funding.
    Mr. Braley. Thank you.
    Mr. Oberstar. Gentleman's time has expired.
    Mr. LoBiondo?
    Mr. Boozman.
    Mr. Boozman. I really do not have any questions.
    The only thing I would say as we go about this, we are 
talking specifically about bridges, but I think more than ever 
that we really have to--the rail, the highway, the waterways, 
it is an entity now, and as we do not repair it or locks and 
dams and things like that--we can have a whole separate hearing 
and hopefully we would not have a tragedy that brings that 
about, although we have our normal hearings--but as those go 
into disrepair and not being used, and that forces that traffic 
onto the highways.
    Also, our rivers and things could stand a lot more traffic.
    So, again, as we think about these things besides--and I 
think I would echo what was said earlier, I think everything is 
on the table. We really do have to look at all these things.
    But, also, I would just encourage you to think in those 
terms of it being a total system. Some of our interstates--we 
could have north, south corridors that are not finished. We 
need to look at that.
    The other thing is, besides potential tax increases or 
things like that, I think we really need to look at incentives. 
How do you incentivize people not to do it in a positive way 
rather than--and, again, I think everything is on the table.
    But the other thing we have got going on in this country is 
a tremendous amount of obesity. We are in poor health as a 
country, and a lot of that is due to the fact that everybody in 
the family has a car now. I mean everybody from the teenage 
kids--when I go to church, many times we will have four cars 
there. Because I will be there, my wife sings in two services, 
my two daughters will meet me from someplace else. A few years 
ago that did not happen.
    So, again, that's just kind of for what it is worth. Thank 
you.
    Mr. Oberstar. I think the gentleman.
    I just want to pick up on Mr. Capka's response to Mr. 
Braley. You suggested broadening the criteria. That is a very 
valuable contribution. It is what I do in this bridge proposal. 
To include vehicle miles traveled on bridges, mobility, 
regional and national mobility, that is what we will do in this 
new iteration.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you very much. I, too, was 
unfortunately delayed. Pleasure seeing you, Madam Secretary.
    I certainly agree with my colleagues in some of the 
questions about the bridges. There are 15 in my area alone, it 
has been covered.
    My concern at this point is into railroad bridges. I have 
not heard anybody mention those. You have no jurisdiction over 
them. There is no accountability for maintenance and their 
upkeep. I know we have not heard of any catastrophes, but most 
of them were built in the '30s.
    Mrs. Napolitano. And with the increase in traffic and the 
increase in the weight that they are bearing, how are we going 
to be able to say to the general public, "You will be safe, 
even with the rail bridges in your backyard, from a 
catastrophic release of chemicals," if you will.
    What are you doing? What is being planned? Are you going to 
have something that is going to address getting the railroads 
to comply with an upgrading and the standards of the new 
technology?
    Secretary Peters. Congresswoman Napolitano, you raise a 
very important question, and others have asked about this. But 
to be more specific about what is happening, as you mentioned, 
FRA does not have regulatory authority over the railroad 
bridges. We do, however, have the ability to establish safety 
policies for bridges and are moving forward to doing so.
    A recent GAO report cited the fact that we needed to do 
more in working with the railroads to improve rail bridges, and 
therefore, FRA is already working to develop appropriate 
criteria to better ensure that potential bridge safety risks on 
railroads are properly identified, evaluated and dealt with.
    The FRA has also--I am sorry--soon will be issuing a formal 
safety advisory on bridge safety issues, as well; and the 
administrator, Administrator Boardman, in June of 2007 
initiated a railroad bridge safety roundtable to begin 
discussions with the railroad industry to ensure that we are 
having proper follow-up--proper evaluation and proper follow-
up--to ensure bridge safety on the rail lines, as well.
    Mrs. Napolitano. Are you setting aside program money to be 
able to do the reports of the requests for the intensive, in-
depth analysis, if you will?
    Secretary Peters. Congresswoman, I do not have that data 
with me. I would be happy to look that up and get that back to 
you. I am thinking they are, since we are moving forward with 
this, but I would rather be accurate on the record.
    Mr. Oberstar. If the gentlewoman would yield----
    Mrs. Napolitano. I will do so.
    Mr. Oberstar. --Mr. Cummings and I and Mr. Mica in the last 
Congress asked the GAO for a report, an in-depth analysis and a 
report, on rail bridge safety. That report was delivered just 
last week, and we have not been able yet to get enough copies 
to distribute it to all Members on the Committee. But it is 
available online, and the Committee will provide the 
gentlewoman with a copy of it.
    Mrs. Napolitano. Thank you, sir.
    What really is also, I would say--important to all of us, I 
would believe--is that we have a plan that is going to help us 
address some of the issues and ensure that those bridges are 
structurally safe, given their age and especially in an area 
like mine----
    Secretary Peters. Yes.
    Mrs. Napolitano. --where we have increased traffic and 
expect more--tenfold, I understand--that they are going to be 
sufficiently well-structured to withstand that additional load 
and the increase in traffic; and those are some of the things 
that I had in mind.
    Are you going to create any regulations? Do you believe 
that it is a necessity to be able to do that?
    Secretary Peters. Ma'am, on the rail bridges, we will be 
looking at that. We have not yet arrived at that decision and 
want to work first with the rail industry to determine what we 
can voluntarily do together, and I think that it is our first 
course of action, but we have not conclusively reached a 
decision yet.
    Mrs. Napolitano. Do you have any reports of any accidents 
or any damages from any failure of rail bridges?
    Secretary Peters. Ma'am, I do not have that data with me. 
To my knowledge and in recent history, I do not; but I do not 
want to say that without getting the data, and we will do that 
and get back to you.
    Mrs. Napolitano. I would really appreciate it.
    Then there was a question that one of my colleagues left 
with me. We are having the hearing because of the bridge safety 
issues, and the question he left was, what responsibility are 
you and the administration willing to accept for the condition 
of our bridges on the National Highway System?
    Secretary Peters. Ma'am, I do think there is, indeed, a 
Federal responsibility--or a Federal interest, more 
accurately--in ensuring that the National Highway System, which 
includes the interstate highway system, does have adequately 
maintained bridges, and I think as we move forward both in the 
Committee deliberations--or in commission deliberations, 
rather--that I am having now with one of the commissions 
established in SAFETEA-LU, it is important to work with you 
during the next authorization period so that we do address 
those issues.
    Whether or not all of the funding has to come from the 
Federal Government, I think remains to be seen, but certainly, 
it is in the national interest to make sure those bridges are 
maintained appropriately.
    Mrs. Napolitano. Thank you very much.
    I yield back.
    Secretary Peters. Thank you.
    Mr. Oberstar. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    I, first, want to thank the Secretary for her service. 
Also, as a Representative of south Florida where we are 
benefiting from the urban partnership, I want to thank you for 
that. It is great to see, Madam Secretary, that you are clearly 
thinking outside the box, and south Florida is one of those 
areas that I think will benefit dramatically from this 
innovation.
    And I think everybody agrees that Florida DOT is innovative 
and that it is doing a great job. When you look at, for 
example, bridge safety, there again, while some States have 
gotten some of that money and have spent it elsewhere, Florida 
has done, I think, a very good job. And the numbers speak for 
themselves in that they do emphasize bridge safety. It should 
come as no surprise when you look at the fact that in Florida 
the bridges are not only transportation, but they are also 
evacuation routes for hurricanes.
    My concern, Mr. Chairman--and again, I state this up 
front--it is unfair because I have not had the chance to look 
at the Chairman's bill in depth, but I would be very concerned 
at anything that would penalize States like Florida, because 
they have done a good job, if all of a sudden the funding is 
going to go to those where the bridges have not been taken care 
of.
    You are clearly disincentivizing and hurting those who have 
done a good job, whom we should be incentivizing and not 
disincentivizing, number one.
    Number two, I agree with what Mr. Mica said, which is, I 
think we have to look at the overall plan. We cannot just focus 
on the very important tragedy du jour or problem du jour, which 
we are going to have continuously. And we also need to focus on 
that--and this Congress did; with you, Madam Secretary, and 
your leadership and the Chairman, in particular with, for 
example, the bridge collapse. But, again, we need to make sure 
that we do not lose sight of the entire issue, number two.
    Number three, I, for one--I do not know about you all, but 
people in Florida are hurting with $3 a gallon. And at this 
moment, to be looking at increasing gas taxes--when I talk 
about looking at the overall picture, we also have to remember 
the user and the payer, which is, frankly, what it is all 
about; and I think increasing gas taxes now, frankly, would be 
a huge problem.
    And particularly--and again, as I said, this is an unfair 
criticism because I have not had a chance to look at the bill 
in depth, but in a cursory review, it looks like, for example, 
Florida would be paying in a lot more than it would be getting 
out because it has been doing a good job.
    I am concerned about what the rate of return would be. I am 
also concerned about creating a new program as opposed to 
fixing a program that already exists.
    Lastly, are we making sure that the States are using their 
funds correctly? Florida seems to be doing that, obviously, at 
least better than most States. Are other States not doing that? 
If not, what can we do to fix that?
    Madam Secretary, I think you have mentioned that time and 
time again. I appreciate that. I just want to make sure that we 
do not take any steps that, frankly, disincentivize the ones 
who are doing a good job, and incentivize or continue to 
incentivize those who are not doing a good job.
    I support State flexibility, but I need to make sure that 
that flexibility is accompanied by some common sense, and that 
if States are supposed to be using those funds for bridges and 
they are not, that they are not then compensated or given 
incentives to doing that in the future. And that is my concern 
with what seems to be in this bill.
    I agree with the Chairman that about 75 percent of the bill 
sounds really good. As to the other 25 percent, in a cursory 
review--and again, I state that, Mr. Chairman, overall, without 
having the opportunity to obviously spend too much time on it--
I am concerned with some of the issues that I just brought up.
    Thank you, Mr. Chairman.
    Mr. Oberstar. All right. I thank the gentleman for his 
observation, and I respect his concern.
    And out of concern for that very issue raised, we have a 
provision requiring the maintenance of effort by States, that 
is, taking into consideration the degree to which a State is 
willing to match the Federal funds, the degree to which States 
have participated in the bridge program in the past, to which 
they have transferred funds out of the bridge program; and 
those will be factors that we consider in the prioritization 
and in the allocation of funds.
    The matter of return on equity was something that we have 
debated diligently since ISTEA in 1991, TEA-21 in 1998 and with 
SAFETEA. We have gotten much closer to a fair return on equity 
in the SAFETEA legislation. This is a 3-year sunsetted 
proposal, however, targeted specifically to structurally 
deficient bridges, and it is limited to that purpose alone. So 
it is a different category than the overall surface 
transportation program which we will address again in 2009, and 
I expect the gentleman to be a part of that discussion.
    Mr. Diaz-Balart. And I look forward to working with the 
honorable Chairman on all of these issues. These are important 
issues.
    I want to thank him for bringing up the debate. It is 
important. I have some concerns, but that is what the process 
is all about.
    Mr. Oberstar. Great. Then I invite the gentleman to give 
further consideration as he has had an opportunity to evaluate 
the bill.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    First of all, as I have listened to my friends from this 
side of the aisle and as I have heard it in listening to some 
of the debate in my office, there seems to be a discussion, Mr. 
Chairman, with regard to dealing with transportation issues in 
general. And I think we all know, in being a part of this 
Committee, that we have a lot of issues with regard to 
transportation.
    Well, one of the things that concerns me so often is that 
when things like what happened in Minnesota happen--Mr. 
Chairman, you have been quoted as saying that this is a very 
critical moment, and it highlights that we need to be 
addressing a problem. What I fear is that without the efforts 
of the Chairman and the kinds of things you are doing, we will 
debate the debate and do nothing, and then another catastrophe 
will happen in 3 or 4 years, and then we will go through the 
same cycle again.
    One of the things that concerns me, Madam Secretary, is the 
whole idea of inspections and whether we have enough 
inspectors. The Chairman spoke just a moment ago in reference 
to a matter that was raised by Mrs. Napolitano, that we had 
requested this rail study of tunnels and bridges. One of the 
things that it said in that study was that there were only five 
FRA inspectors for bridges. This is with regard to rail. And in 
a few moments, we are going to have folks from DOT, their IG, 
and the NTSB talk about inspectors for our highways, and I am 
just wondering, what is our situation with regard to 
inspectors? Because certainly, if we do not have the man- and 
the womanpower to inspect those bridges--you know, we can do a 
whole lot of things. We can talk from now until forever, but if 
they are not being inspected, and we do not have the personnel, 
I am just wondering, you know, whether that is something that 
you are concerned about.
    Secretary Peters. Congressman Cummings, I am concerned.
    First of all, let me acknowledge your leadership on this 
issue, particularly on tunnels and particularly after the very 
tragic incident in the Baltimore area where there was a fire 
for a long period of time.
    Mr. Cummings. Thank you.
    Secretary Peters. I do think we need to do a better job, 
and we need to look at our standards. And we are in the process 
of establishing standards for tunnels, largely as a result of 
your initiative, which I compliment you for, and I also 
compliment you, by the way, for the "man- or womanpower" in 
terms of inspecting those bridges or those tunnels.
    In terms of FRA, I do not have that information right with 
me, sir, but I would agree with you that we can have the best 
standards in the world, but if we do not have an adequate 
number of inspectors out there, they are not going to do us any 
good.
    And those are some of precisely the issues as it relates to 
this tragedy in Minnesota, that I would like the inspector 
general to look at. How are we inspecting today? Are we 
inspecting in the right way? Are we using the data that we get 
as a result of those inspections in the right way? Are we doing 
an adequate job?
    I look forward to reporting back to you when that report is 
complete.
    Mr. Cummings. I look forward to your response then.
    Let me just ask you this, Madam Secretary, if in the 
meantime--and you know, things around here happen slowly. In 
the meantime, if you were to find that we have insufficient 
inspectors, are you prepared to act or to--do you follow what I 
am saying? I do not want something to happen in the interim 
between your getting your information and then possibly coming 
up with the personnel--I mean, then something happens, and then 
we have got a problem.
    Secretary Peters. No. You make a very good point, sir, and 
I absolutely am prepared if, in the short-term, we learn that 
we are not doing an adequate job of having the right number of 
personnel out there to act. In fact, in our budget submittal 
with the FRA, in particular, we ensure that we are not reducing 
the numbers of inspectors, but more to looking at making sure 
that we had everyone we needed out there.
    But let me go back and look at the data. I will get you 
numbers. But absolutely, yes, if we do not have the right 
number of people doing the job, then we must deal with that.
    Mr. Cummings. Just very briefly, the inspector general of 
the USDOT has written in his testimony that the Federal Highway 
Administration cannot really provide data on how much Federal 
funding is actually spent on structurally deficient bridges.
    Do you intend to implement a system that will allow such 
expenditures to be tracked?
    Secretary Peters. Sir, if I could have the administrator 
answer that question.
    Mr. Capka. Yes, Congressman Cummings. I was aware of the 
inspector general's observation there, and it is a matter of 
taking the data that we do have within our national bridge 
inventory and, in a way, manually right now cross-checking it 
with bridge codes that we do have.
    So it can be done, but it is a very laborious task of 
making that match. I think the requirement is for us to adjust 
the database that we do have to make that kind of analysis very 
easy to do.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman.
    Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    I certainly want to commend you for holding this hearing. 
It is of a critical nature, certainly, and it is very 
appropriate that we dissect all of these issues today.
    You know, I guess the reality is--the brutal reality is, 
our Nation just has not invested enough in our Nation's 
infrastructure over the years; and it is not only a question of 
safety, but I think it is a question economically as well. You 
can always think about how economics has followed the 
transportation grid throughout our history, whether they 
followed the wagon trains out West or the railroads or the 
interstates, now the aviation links, et cetera.
    Oftentimes, as well, to be very brutally frank, we have 
wasted incredible amounts of money on projects that maybe were 
not so necessary. You know, I do not know about the Big Dig, 
and I will not go through all of these things, but there are a 
lot of areas where we could have spent money more 
appropriately.
    I have not had a chance, Mr. Chairman, to look at your 
recommendation, your proposal. I certainly want to do so. I 
will say, coming from the State of Michigan that is a donor 
State--it has always been a donor State--we are always very 
hesitant about any idea raising the Federal taxes, the 
transportation taxes, because we do not get our fair share as 
it is. And so we do have that hesitancy, and we think about 
whether or not it would be better for us to raise our own money 
internally, and at least we can spend it where we think we need 
to have it spent.
    I will just make a couple of observations and then ask a 
question as well. I just want to mention--and I am sure every 
Member of Congress has one. I have my report here from my 
Michigan Department of Transportation. I am looking at all of 
these little green dots all over the State of Michigan of 
structurally deficient bridges that have been identified by 
MIDOT, and I have my own PowerPoint here in my own 
congressional district.
    Actually, I-94 and I-69 both have their genesis in my 
congressional district. At the beginning of both of those 
interstates is something called the Blue Water Bridge, which is 
actually the second busiest commercial artery on the northern 
tier of our Nation. I cross over it often. They have a bridge 
authority, and so they are inspected annually, and apparently, 
they meet--I should not say they meet--they exceed all of the 
Federal requirements. However, they do have a dedicated revenue 
stream.
    Three days ago, I transited the Mackinac Bridge, which goes 
between the two peninsulas here, which is about 5-miles long. I 
think it is the longest suspension bridge in the free world, 
and it is also run by an authority, inspected annually, and it 
exceeds all Federal requirements.
    So we were talking about toll roads, and I will just point 
that out as some fantastic examples of bridges that do not have 
problems.
    I have a little bridge literally by my home, and we live on 
a river. Our local road commission is closing this bridge. It 
is the only way to transit in a huge area, and we are all, you 
know, obviously very exercised about that, but the local road 
commission--I do not think MIDOT has even worked with them on 
this, but they have put a weight restriction on the road, and 
now they only have a single lane that can transit, et cetera.
    And I guess I am pointing out some of these examples 
because there is a question that has already been asked, but I 
think it is so important that I am going to ask it again 
because, Madam Secretary, you just outlined, I believe, an idea 
essentially saying that there should be some mandating from the 
Federal level--I do not want to mischaracterize you, so I am 
going to ask you this question--that the States would utilize 
the bridge funding and could only move the dollars if they 
could demonstrate some overriding need. And I guess my question 
would be, again, how the Federal highway has actually 
encouraged the States to make sure that they are expending the 
funds for bridge work appropriately.
    Also, has the administration actually made a formal 
proposal, since the tragedy in Minneapolis, about this? If not, 
can we have some expectation of looking at a formal proposal, 
whether that is requiring legislation or promulgating rules or 
in the statute, what form might that take?
    Secretary Peters. Congresswoman Miller, we have done 
several things since the tragedy in Minneapolis.
    First, we issued two advisories to the State. The first of 
those was to inspect all similar bridges, bridges which have 
fractured critical Members, which the engineer at the table 
here with me will explain in more detail if necessary. The 
second advisory was to be mindful of how they were loading 
construction materials and equipment in the event that they 
were doing construction on bridges.
    These were issued with an abundance of caution based on 
discussions that we have had to date about the particular 
bridge that collapsed, but I want to reiterate we do not know 
yet why it collapsed, and we do not want to jump to any 
conclusions.
    The Chairman of the NTSB certainly can talk more about that 
than I could, but what we are doing is asking each of our 
division administrators--the Federal Highway has a division 
administrator in every State--asking them to take these 
inventories such as you have, go to their States, talk with 
them about what they are doing. If they are flexing money, why 
is it a higher use?
    Those are things that are going on right now; and several 
of the State DOT Directors, I believe, are here and might talk 
a little bit more about that on a subsequent panel, and Rick 
can as well. But in the long-term, ma'am, we do want to look at 
the bridge inspection program. We want to look at what did 
happen in Minneapolis on the I-35W, and we likely will make 
recommendations, but--I would rather have that data in hand, 
but in the short-term, if we have any concern that a bridge is 
not safe, it would either be load-controlled, meaning it could 
only carry lighter loads, or it would be closed. And that is 
standard practice. No State DOT secretary, no county engineer 
or city engineer and certainly not the administrator, nor would 
I ever allow what we deemed to be an unsafe bridge to stay in 
operation without some modifications.
    Rick, is there anything you would add?
    Mr. Capka. Madam Secretary, that is a great summary. And, 
ma'am, I also wanted to emphasize that we do have structurally 
deficient bridges that we are looking at, but it does not, as 
we have said before, equate to unsafe. And there are certain 
things that attract a State Department of Transportation's 
attention immediately when they are doing an inspection and a 
critical finding, and it does not have to wait for an 
appropriation to provide resources to fix that immediate 
problem.
    Those critical findings really jump to the top of the 
priority list in any event, and they are handled very 
expeditiously. Sometimes it is a posting of the bridge. 
Sometimes it may be a closing of the bridge until the correct 
remedial action can be taken, but that is the process that we 
have in place to ensure that the public is not put at risk when 
they use our infrastructure.
    Mr. Oberstar. The gentlewoman's time has expired.
    Mrs. Miller. Thank you.
    Mr. Oberstar. Madam Secretary, I know we had a time limit. 
We have only two Members remaining--Mr. Hall and Ms. Fallin--if 
you can spare a little more time for them.
    Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    Madam Secretary and Administrator Capka, thank you for your 
testimony. I am looking forward to the results of the report 
when it comes out. Just quickly, I want to ask a couple of 
questions.
    Are the current intervals between inspections too long to 
prevent failure? Does finding a deficiency trigger a more 
frequent inspection to monitor any possible deterioration?
    Secretary Peters. Sir, in terms of the duration between the 
inspections right now, we do not have any evidence to date to 
indicate that that is not sufficient. However, again, I have 
asked the inspector general to look at that as part of his 
analysis, and if there are any issues that cause concern, even 
outside of the normal inspection interval, State or Federal 
highway personnel in the State can ask for an inspection out of 
cycle, a more current inspection to happen; and that would be 
very important, I think, in terms of making sure that we are 
doing what we need to do.
    We certainly will, as a result of this in-depth look, look 
at the inspection program, come back and make further 
recommendations, but there is no indication to this at this 
point in time that the regular cycle, with ad hoc inspections 
as warranted, should happen.
    Mr. Hall. Thank you.
    As the Congresswoman from Michigan, I am sure, knows, 
bridges and other infrastructure in my district face a 
challenge from a diversity of weather that States such as 
Florida may not face, so we see 100-degree temperatures, and we 
see zero-degree or lower temperatures. We see deicing and then 
sand and salt and all on the heaviest traffic bridges on the 
interstate system and other Federal highways.
    Should the inspection regime be modified or has it been 
modified to require more frequent inspections in such areas of 
extreme weather?
    Secretary Peters. That has been a factor in determining the 
frequency of inspections, Congressman--again, Rick, if you have 
anything more detailed on that--but it is something again we 
are looking at, at the robustness of the bridge inspection 
program as part of this analysis, and certainly would make 
recommendations.
    Another factor that you have in your district, as well as 
Congresswoman Miller, is that your infrastructure, on average, 
is older than that in the Sunbelt States as well. Not only does 
it have the weather extremes, but generally it is older 
infrastructure. That factor is absolutely taken into account in 
terms of determining the frequency.
    Mr. Hall. Thank you.
    The only other question I had is whether the Department is 
considering or any of the technical people on your staff are 
considering, with bridges that have deficiencies, limiting in 
high-traffic volume times access to the bridge so as to avoid a 
full load of vehicles standing on the bridge or moving at very 
low speeds, bumper to bumper, on the bridge--you know, 
providing a load that may be in excess of the actual bearing 
capacity of the bridge. You see this with some highways where 
there will be a gated red-green light on it, an on-ramp to 
prevent the density from rising above a certain amount. I do 
not know if there is a way to do that on a bridge, but it is an 
idea.
    Secretary Peters. The process you are referring to is ramp 
metering. It is often used on freeways to meter the number of 
vehicles that go on so that traffic can be kept moving or free-
flowing. To my knowledge, I do not know that it has been used 
on a bridge. Bridge calculations, in terms of the weight that a 
bridge must be able to support, assume that it is fully loaded 
with vehicles, and given whatever type of bridge it is, that 
mix could be both passenger vehicles and heavier commercial 
vehicles. That weight would be static, and bridge loadings 
determined with those things in mind.
    I am going to let my engineer talk to you because he is 
smarter than I am on those issues.
    Mr. Capka. Yes, sir. That is a very good question.
    One way of controlling that kind of, I would say, posting 
load on the bridge, where you want to limit the bridge, is to 
close lanes; and the State DOTs and local engineers do that if 
the bridge requires a posting. The inspection cycle for bridges 
is 2 years, and many bridges are inspected on an annual basis 
and more frequently, depending on the specifics of the bridge. 
That is probably a more frequent cycle than you will see in 
many of the nations overseas.
    So we are looking at that very carefully, and as the 
Secretary said, the inspector general has that on his list of 
things to observe and will provide us some recommendations.
    Mr. Hall. Thank you, sir.
    Thank you, Mr. Chairman, for your leadership and for 
holding this hearing. I have a statement I will submit for the 
record. I yield back.
    Mr. Oberstar. Without objection, the statement will be 
included in the record.
    Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman. I appreciate, too, 
your holding this hearing for us.
    Thank you so much for joining us today, both of you, and 
for giving us good information. I, too, am very concerned about 
our bridges in our Nation. Of course, in Oklahoma, you might 
remember back in the mid-2000s we had a bridge collapse. Of 
course, it was through an accident with a boat hitting one of 
the pillars of our bridge at River Falls, and I was actually 
the lieutenant governor of the State at that time, and was 
involved in the reconstruction of that bridge as the Chairman 
is going through right now in his State. So it hits close to my 
heart when we experience bridge deficiencies in our Nation.
    I was looking at our chart for structurally deficient 
bridges in the United States, and I see that Oklahoma appears 
to be ranked the highest, which does not please me, but I had 
the opportunity to meet with our Department of Transportation a 
couple of weeks ago and survey some of our bridges in our 
State. I am happy to say, Mr. Chairman, that our Oklahoma 
legislature has put forth some money, has seen the wisdom of 
allocating money in our State funds to match some of our 
Federal funds so that we can start rehabbing our bridges in our 
State and making that a priority. And I appreciate the 
Chairman's comments, and I am looking forward to studying your 
proposal on how we can address the needs of our bridges in our 
Nation and looking at the States' investing in equity and 
matching the Federal share and looking at some innovative ways 
that we can encourage our States to participate more, because I 
have seen my State do that.
    I will just say that I am concerned about how we fund that. 
I know that, Ms. Secretary, you tried to address some of the 
funding issues here in this meeting, and I hope in a minute you 
will continue to discuss how we can use the money that we have 
right now with our taxes to meet some of the rehab needs. I 
will just say, in my State, we had an initiative several years 
ago to raise the gasoline tax, and if I remember right, it fell 
by 78 percent, and with the cost of gasoline being as high as 
it is right now to our citizens and to our businesses, I know 
that that is a big concern. So I hope to work with the Chairman 
in looking at what are the alternatives and what are the 
innovative ways that we can look at meeting the needs of our 
Nation.
    I was especially pleased, Mr. Chairman, to hear you 
discussing setting priorities in donor States. Oklahoma, of 
course, is a big donor State to our transportation fund, and I 
know that Secretary Peters has visited with me about how we can 
look at some innovative ways for States to get some of that 
money back to prioritize their own needs, but my question is:
    You had stressed about our need to analyze the competing 
forces for Federal transportation spending and how to manage 
our existing transportation systems and programs more 
efficiently.
    Would you agree, in light of the discussion we have had 
today on rails, on tunnels, on congestion, that we need an 
overall transportation plan for the Nation, not just for the 
bridges, but to look at the big picture of how our money is 
allocated and what we can do innovatively in our States and, of 
course, in working with the Chairman on these ideas.
    Secretary Peters. Congresswoman Fallin, that is exactly 
what I have been saying this morning.
    As important as this issue is--and there are ways in the 
short term that we can reprioritize and make sure that we are 
making our infrastructure safe and ensuring our infrastructure 
is safe, in looking at the condition of that infrastructure. 
But I do think we have to look holistically at how our program 
is structured today, where and how we are spending money today 
and ensuring that we are using data, performance objectives, 
benefit/cost analysis, things like that, for determining how 
and when we spend our money before we ask Americans to take 
more of their hard-earned dollars and pay more gas tax. I think 
we owe it to them.
    Much like each of our families would do, if we had an 
unexpected emergency, we would not immediately go to our bosses 
and ask for a salary increase. We would probably say, "How can 
we ensure that we are using all of our money in the best way 
possible before we go to outside sources?"
    That is something where I absolutely applaud the Chairman's 
initiative in putting this important issue in front of us. As 
he has said, we agree on many things, but I do think we owe it 
to the American public to first determine if we are spending 
their money wisely and well before we ask them for more money.
    Ms. Fallin. Mr. Chairman, I probably should disclose that I 
may have a vested interest in the cost of gasoline. I have two 
teenagers who are driving, so it is really hitting me hard.
    Secretary Peters. Ma'am, I do remember. I was at River 
Falls, Oklahoma, the day after the bridge collapsed there due 
to a barge hitting the bridge pier. Six people lost their 
lives--it was very tragic--and your leadership at the time in 
helping reestablish that important infrastructure was integral 
to making it happen.
    Ms. Fallin. Thank you.
    Secretary Peters. Thank you.
    Ms. Fallin. Thank you so much, Mr. Chairman.
    Mr. Oberstar. I thank the gentlewoman for her observations.
    Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I think I will defer 
questions to the next panel since I just arrived.
    Thank you.
    Mr. Oberstar. Thank you.
    Secretary Peters. I would be happy to answer questions on 
the record, ma'am.
    Mr. Oberstar. Any questions that Members have can be 
submitted, and they will be sent to the Secretary for inclusion 
in the Committee record.
    I just have to observe that, amid all the hand-wringing 
about the high price of gasoline and adding 5 cents for the 
user fee, I did not see the President jaw-boning OPEC to bring 
their price of oil down. There is a lot of jaw-boning about 5 
cents that will stay in America for American jobs--American 
steel, American cement, American asphalt. For the good jobs, 
send the kids to school and pay the mortgages and buy the 
snowmobiles and the ATVs.
    I do not understand that dichotomy of thinking, but here is 
how it looks from the heartland of America. This is from the 
International Falls Daily Journal, their editorial a couple of 
days after the bridge collapsed and our governor, who twice 
vetoed an increase in the user fee passed by the State 
legislature, Your Tax Cuts At Work, a tragic commentary on the 
state of policy toward investment in infrastructure.
    Madam Secretary, you have been most generous with your 
time. You have been a very patient and enduring witness. I 
thank you for your endurance at the witness table.
    Secretary Peters. Thank you, sir.
    Mr. Oberstar. Mr. Capka, thank you very much for being with 
us.
    Now I will proceed to our second panel. The inspector 
general of the Department of Transportation, the Honorable 
Calvin Scovel; and the Chair of the National Transportation 
Safety Board, the Honorable Mark Rosenker.
    Welcome, gentlemen.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
 GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AND THE HONORABLE 
  MARK V. ROSENKER, CHAIRMAN, NATIONAL TRANSPORTATION SAFETY 
                             BOARD

    Mr. Oberstar. Mr. Scovel, we will start with you.
    Mr. Scovel. Chairman Oberstar, Ranking Member Mica and 
Members of the Committee, thank you for the opportunity to 
testify today on FHWA's National Bridge Inspection Program.
    The collapse of the Interstate 35W bridge in Minneapolis 
has heightened concern about the safety of our bridges 
nationwide. Along with the President and the Secretary of 
Transportation, I saw the wreckage firsthand; and I join with 
you and the Nation in mourning the lives that were lost.
    While it is the responsibility of the National 
Transportation Safety Board to determine the probable cause of 
the Minneapolis collapse, my testimony today will focus on 
overall bridge safety inspection and is based on work done by 
our audit and engineering staffs over the past 3 years, 
including a detailed report issued last year. Our work in this 
area is continuing. I would like to briefly highlight three 
major issues.
    First, Federal oversight of bridge inspections and funding 
for bridge rehabilitation and replacement are and will remain 
significant issues for DOT. Second, FHWA must continue its 
efforts to develop an approach to bridge oversight that is 
driven by data and based on risk assessment. This should allow 
better identification and targeting of those bridges most in 
need of attention. Finally, FHWA can take action now, today, 
that will strengthen the National Bridge Inspection Program.
    First, oversight and funding. The safety of our Nation's 
bridges, which has been a high-priority issue for 40 years, 
depends on a complex web of local, State and Federal 
activities. States are ultimately responsible for the safety of 
their bridges, while FHWA oversees the States and provides 
expertise and guidance relating to inspection, repair and 
maintenance. Bridges that are part of the National Highway 
System--and there are about 116,000--carry over 70 percent of 
all bridge traffic nationwide. About 5 percent of these, or 
6,100, are currently categorized as "structurally deficient."
    The term "structurally deficient" does not necessarily mean 
dangerous. However, many in this category can continue to 
operate safely if they are properly inspected and their maximum 
load limits are correctly calculated and posted. Our written 
statement includes a breakdown by State of the number of 
structurally deficient bridges in the National Highway System.
    Congress has long provided States with funding to correct 
structural deficiencies. In 2005, $21.6 billion was authorized 
through 2009. However, the need for funding is great, and the 
FHWA report issued in January of this year estimated that about 
$65 billion could be invested immediately to address current 
bridge deficiencies. We will be evaluating funding issues as 
part of our ongoing, comprehensive review of the agency's 
oversight of the bridge program.
    Second, the importance of a data-driven, risk-based 
approach: As we reported last year, based on a statistical 
projection, more than 10 percent of the highway system's 
structurally deficient bridges may have had inaccurate load 
ratings. To combat such issues, we recommended that FHWA 
develop a data-driven, risk-based approach to address bridge 
problems most in need of attention.
    FHWA has initiated specific action to improve oversight of 
structurally deficient bridges, which we commend. These include 
updating guidance to its engineers and to its bridge program 
manual, implementing new inventory reports intended to identify 
problem areas and load-rating data, and promoting greater use 
of computerized bridge inspection management systems. Yet, more 
is needed.
    As these initiatives advance, it is essential that FHWA, as 
part of its overall risk management process, ensure that its 
State division offices are conducting rigorous and thorough 
assessments of potential risks related to load-rating and 
posting practices. As high-risk areas are identified, the 
agency must quickly follow up and ensure that actions to 
mitigate these risks are taken without delay.
    In addition, FHWA needs to reexamine the responsibilities 
and time constraints of its division office bridge engineers. 
In many cases, we found that the time that these engineers 
devote to bridge oversight is limited. For example, an engineer 
in one large State said that he spends only about 15 percent of 
his time on bridge inspections. The rest goes to other duties.
    Third, FHWA can immediately take action to strengthen the 
bridge inspection program. The agency needs to be more 
aggressive as it moves forward. The success of its initiatives 
rests with its 52 division offices, and FHWA will have to 
monitor their progress closely. Actions that FHWA can begin to 
take now include, first, finalize and distribute the revised 
bridge program manual to division offices as soon as possible, 
and ensure that bridge engineers make better use of existing 
Federal and State data during compliance reviews.
    Second, identify and target those structurally deficient 
bridges most in need of recalculation of load ratings and 
postings using a data-driven, risk-based approach.
    Third, ensure that division offices conduct complete, 
rigorous, thorough assessments of potential risks associated 
with structurally deficient bridges, and define how they will 
respond to identify high-priority risks.
    Finally, our audit work on these issues will continue in a 
comprehensive way, focusing first on assessing the corrective 
actions that FHWA has taken in response to our March 2006 
report; second, studying several aspects of Federal funding for 
bridge repair, including how effectively these funds are being 
used and what the funds are being used for; and finally, 
reviewing FHWA's oversight activities for ensuring the safety 
of National Highway System bridges.
    Mr. Chairman, this concludes my statement. I would be happy 
to respond to your questions.
    Mr. Oberstar. Thank you very much for your comments, and 
your complete statement will be included in the record.
    Chairman Rosenker.
    Mr. Rosenker. Good afternoon, Chairman Oberstar, Ranking 
Member Mica and distinguished Members of the Committee. Thank 
you for allowing me the opportunity to present testimony on 
behalf of the National Transportation Safety Board.
    When transportation tragedies occur, the Safety Board helps 
restore the public's confidence in our transportation systems 
by conducting thorough, objective investigations and making 
safety recommendations so similar tragedies will not happen 
again.
    You will recall a little over a year ago when Congress 
turned to the Safety Board to investigate the collapse of 
ceiling panels in the Big Dig tunnel in Boston because of our 
reputation for thorough, independent accident investigations. 
What resulted from that investigation radically changed the 
thinking in the highway construction industry about the long-
term structural properties of epoxy in overhead applications. 
We intend to do that same thing with our investigation of the 
bridge collapse in Minneapolis; that is, find the cause, 
propose solutions and help restore public confidence.
    Forty years ago, a bridge collapsed in Point Pleasant, West 
Virginia, killing 46 people. As a direct result of the Board's 
recommendations, the Federal Highway Administration, along with 
congressional leadership, established national bridge 
inspection standards for locating, inspecting, evaluating, and 
correcting bridge deficiencies.
    Since then, the Board has investigated every major bridge 
collapse in this Nation. In each case, as a result of our 
recommendations, improvements have been made.
    For example, after the 1983 I-95 bridge collapse into the 
Mianus River in Greenwich, Connecticut, the Federal Highway 
Administration established a fracture-critical inspection 
program. After the 1985 Chickasaw Bogue Highway 43 bridge 
collapse in Mobile, Alabama, the Federal Highway Administration 
established an underwater bridge inspection program. After the 
1987 New York Freeway bridge collapse into the Schoharie River 
in Amsterdam, New York, the Highway Administration established 
a scour inspection program.
    Now let me turn to the issue at hand, the August 1st 
collapse of the I-35W bridge in Minneapolis. As you know, the 
Safety Board seldom rules out any potential causes of an 
accident during its initial phases of an investigation until we 
have had the opportunity to thoroughly investigate all 
potential causes. Much of the bridge superstructure is still 
under water, so there is still considerable work remaining for 
us to determine why it collapsed. That said, let me tell you 
what we do know and, perhaps more importantly, what we do not 
know as of today.
    First, we know that the bridge was 40 years old and that it 
was considered structurally deficient because of a relatively 
low rating of its superstructure. We do not know yet whether 
the age or the condition of the bridge caused it to collapse.
    We know that the deck truss bridge design is now considered 
obsolete, and newer bridges no longer use this design because 
of the inherent lack of redundancy in the structure. We do not 
know yet whether the design of the bridge was a factor in its 
collapse.
    We know that the bridge is composed of steel beams, held 
together by flat gusset plates and that a failure in one of 
these plates could have catastrophic consequences. We have not 
yet recovered all of the gusset plates, but we have observed 
damage in some of the gusset plate locations that warrants 
further investigation. We do not know whether these locations 
represent primary or secondary failure points.
    We know that deck bridge resurfacing work was taking place 
at the time of the accident and that 287 tons of construction 
materials and equipment were on the span. We are interested in 
this additional loading, and we are conducting a very detailed, 
finite element analysis of the structure so as to understand 
the effect of loading on each component. In addition, we must 
complete a sequencing study to determine the earliest 
identifiable fracture area or areas.
    Finally, we know that 190 people and 110 vehicles were 
involved in the collapse; 13 people were killed and 144 persons 
were injured. More than 50 agencies initially responded to the 
accident, and the Safety Board would like to express our 
gratitude to all of the organizations that continue to assist 
the Board in this investigation, especially the Federal Highway 
Administration, the Minnesota Department of Transportation, the 
Minnesota State Patrol, the Minneapolis Police Department, the 
Hennepin County Sheriff's Department, and also the folks, the 
good folks, of the United States Navy, whose divers were able 
to recover the victims that happened as a result of this 
accident.
    Also, if I can leave my script for a moment, I want to 
thank and congratulate and applaud all of the first responders 
and civilians who came to help those people. Without their 
help, more people would have died. More people would have been 
seriously hurt. So I want to thank them, Mr. Chairman, the good 
people from Minneapolis and Minnesota who came to help.
    Mr. Oberstar. If the Chairman would yield, in fact, the 
House is doing that this afternoon in a resolution sponsored by 
the gentleman from Minnesota, Mr. Ellison, in whose district 
the accident occurred. We have a resolution echoing the 
Chairman's comments.
    Mr. Rosenker. Thank you very much. It is well deserved, Mr. 
Chairman.
    Mr. Oberstar. Thank you.
    Mr. Rosenker. The Board is still in the initial phases of 
its investigation, and as you can see, there is still much work 
to be done. As new and significant developments occur, we will 
be sure to keep the Committee and the public informed.
    NTSB investigators are still on scene today in Minneapolis, 
and they are likely to be there until November or however long 
it takes for the critical bridge components to be recovered.
    Thank you for the opportunity to testify today, and I would 
be delighted to respond to any questions.
    Mr. Oberstar. Thank you very much for your testimony, 
Chairman Rosenker, and for the splendid work on site of your 
investigative team. I had a very informative and in-depth 
review on my tour of the bridge site as soon as Congress 
recessed, exactly a week after the bridge collapsed. As always, 
I am greatly impressed with the quality of NTSB personnel.
    Mr. Rosenker. Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Scovel, in your testimony, you say that, 
while the Federal Highway Administration tracks bridge funding, 
the agency is unable to track how much money is spent on 
structurally deficient bridges.
    Can they do that? Is it beyond their capacity to do that? 
Are there problems?
    This is money that is going out of the Federal Highway 
Trust Fund. The FHWA ought to be able to track that money.
    Mr. Scovel. Mr. Chairman, there are problems with that, as 
you heard Mr. Capka testify on the previous panel. He mentioned 
that while the overall Federal funding for structurally 
deficient bridges is tracked, it cannot be tagged bridge by 
bridge. That requires a laborious, essentially manual process 
to match codes against funding streams; and that is very 
manpower- and time-intensive.
    Our staff has run into the same problem in connection with 
our March 2006 report, and it is one of the areas that we will 
be exploring going forward in the second phase of our overall 
audit project that we have promised for the Secretary and for 
the Congress.
    Mr. Oberstar. Well, how then do they assign--"they," the 
States--assign bridges to the national bridge inventory system 
as structurally deficient or functionally deficient? If they 
cannot track where the money is going, how can they track which 
bridge is structurally or functionally deficient?
    Mr. Scovel. Well, Mr. Chairman, those bridges are 
identified in the national bridge inventory, but it is FHWA's 
financial management system that is deficient in its ability 
readily to identify what funds are going to what bridges. So it 
is not really the bridge inventory that is posing the problem. 
It is really FHWA's financial management system.
    Mr. Oberstar. Twenty years ago in these hearings, we 
identified that same problem, not I, but my investigative staff 
did. Witnesses did. Mr. Molinari, who was a Member of the 
Investigation and Oversight Subcommittee, raised very serious 
concerns about it at the time. Mr. Clinger did, the ranking 
Republican on the Subcommittee. We raised those very same 
issues. Do you mean there has not been any progress since then?
    Mr. Scovel. It does appear to be a problem, sir, and as I 
mentioned, we are running into it even as we speak.
    The first phase of our audit project will evaluate FHWA's 
response to our March 2006 report. Phase two, as we promised 
the Secretary, will explore in detail Federal funding to 
correct structurally deficient bridges.
    Mr. Oberstar. Well, in the proposal I have set forth, a key 
element is to evaluate all of the structurally deficient 
bridges and to prioritize their condition State by State.
    What would you recommend as methodology for the States to 
achieve that objective? If they cannot track where they are 
sending the money now, how are we going to be able to do that 
in the future?
    Mr. Scovel. Well, as you know, I am not an engineer, and I 
would have to rely on engineering expertise in order to make 
some of those decisions that you ask for.
    Our findings illustrate the value of a risk-based and data-
driven approach, as we customarily find in many areas that we 
audit throughout the Department of Transportation where 
oversight is the key. How is progress to be monitored? How is 
effectiveness to be evaluated? How can lessons learned be 
shared, in this case, between the States? What works and what 
does not?
    That needs a risk-based and data-driven approach. We would 
rely on our engineers, I would suspect, to evaluate those and 
to identify for us those conditions on those bridges that are 
deemed to be most dangerous. That priority list can then be 
organized in that fashion.
    Mr. Oberstar. That is fair, but I would welcome your 
recommendations after you have had an opportunity to fully 
evaluate the proposal that I have set forth on how we achieve 
that vital objective. One of the issues 20 years ago and 20 
years before that was the effectiveness of bridge inspections.
    Mr. Rosenker, the NTSB has been at the leading edge of this 
issue. A witness at our hearings in 1987 said, "Eyes are the 
best inspection tool." Hmm. But we have Eddy-Current technology 
which is used in aviation inspections, in the inspection of 
hulls of aircraft, to detect cracks and the propagation of 
cracks of 25,000ths of an inch to see what is happening with 
them each time the aircraft comes in for inspection.
    The same technology is available for bridge inspection and 
was referenced 20 years ago. Ultrasound, Eddy-Current, mag 
particle, and dipenetrant technologies that were available then 
are still available now. Over-bridge snoopers that look at the 
underside of something, we simulated way back then. Yet, we 
find State DOTs with a device dragging a chain over the bridge 
and listening to it and hearing how that chain sounds on the 
bridge. Now, engineers assure me that that really works. It 
sounds a little like snake oil, but you had an opportunity, 
both of you, to evaluate bridge inspection technologies.
    What is missing? What are States doing/not doing? Why does 
a gusset plate fail? Why is it so hard to do an inspection on 
steel when the manual on the steel making of the United States 
Steel Corporation--the making, shaping and treating of steel--
cites all of these technologies?
    This was 35 years ago. They said, "Here is how you inspect 
the steel that we produce," and it appears to me that States 
are not using the available technologies to determine the 
structural integrity of steel members on a bridge.
    Mr. Rosenker. Sir, you are right. All of what you said is 
there.
    Now, as it relates to the specific investigation of the 
bridge in Minneapolis, we are going to be looking at all of the 
procedures. We are going to be looking at the technologies that 
were used, the processes that, in fact, were used to inspect 
that bridge. We have already gotten all of the reports that 
have been made through 2007. We have asked now for the 
preceding 10 years of reports so that we can understand the 
kinds of things that were done in the actual inspection process 
and then, of course, what happened afterwards. What was done to 
follow up from the deficiencies that had been seen in the years 
prior?
    But all of that is under part of our investigation process 
right now, Mr. Chairman.
    Mr. Oberstar. The first element of my bridge proposal is to 
raise the standards by which we determine the structural 
integrity or the deficiency of bridges and establish a national 
uniform standard that all States can use.
    Do you think that is a useful advance on bridge safety, Mr. 
Scovel and Chairman Rosenker?
    Mr. Scovel. Yes, sir, I would. I would think that would be 
most useful.
    If I can refer back to our March 2006 report----
    Mr. Oberstar. Yes.
    Mr. Scovel. --and I do not mean to say that we examined 
this question in depth, but--we were primarily focused on 
FHWA's oversight, but in reaching that step, we did examine 
States' inspections of bridges, and we found at that time, and 
we concluded, that they were generally accurate, complete and 
adequate.
    That is not to say that there cannot be technological 
improvements; and I anticipate that when we get to that phase 
of our audit for the Secretary, it will comprise a 
comprehensive overview of the entire National Bridge Inspection 
Program, and we will be examining those points that the 
Chairman mentioned.
    Mr. Oberstar. Chairman Rosenker.
    Mr. Rosenker. We, as part of our investigation, will be 
taking a look at the standards that have been created under the 
national bridge inspection program. While the Inspector General 
does his independent investigation, we, too, will be doing a 
thorough, independent investigation and an assessment of those 
standards. If we believe that some of those standards are not 
robust enough, we will be making recommendations.
    Mr. Oberstar. Thank you very much. I welcome that.
    These are non-cost. This is separate from any issue of 
trust fund or increase in user fee. These are things that we 
need to do in the short term and for the long term.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    With your permission, I would like to defer my time and go 
ahead and move down to Mr. Baker.
    Mr. Oberstar. Mr. Baker.
    Mr. Baker. I thank the gentleman and thank the Chairman for 
recognition. I really have more of a comment than a question of 
the current panel unless, of course, they wish to respond in 
some way.
    Mr. Chairman, I certainly understand the timeliness and 
importance of this hearing and of the extreme nature of the 
problem in your State that warrants this detailed level of 
analysis, and I hope we can come to an appropriate resolution. 
However, with regard to the underlying proposal that I have 
reviewed and that you have laid out before the Committee, I 
wish to suggest a modest expansion of the scope of that 
proposal.
    Without regard to the revenue increases that may ultimately 
be considered, I think it highly appropriate we assess that 
need, but in my own State's case, we have two unfortunate 
engineers who, every year, ride every mile of the State highway 
and conduct a subjective and objective rating system that 
results in a point-driven rating criteria for all construction 
projects contemplated that is subsequently reviewed at highway 
district level public hearings, which means they go around the 
State, which then leads to the construction of a program to 
which the legislature may not add projects that have not been 
subjected to the review process. They may delete a project if 
for some unknown reason they find it to be unwarranted.
    I would suggest that your type of prioritization that you 
have in mind for bridges be made applicable in a broader 
capacity to infrastructure generally, but that a significant 
component of that evaluation be the public safety. If we were 
to analyze bridges only, you would to a great extent obviate 
the ability to repair elevated roadways, which in my State are 
a significant number of miles which would, in essence, have the 
same structural deficiencies that a bridge would have. I do not 
know under the Federal definition as to whether an "overpass" 
and a "bridge" are viewed as strategically the same where you 
cross a rail with an elevated roadway, but those are concerns.
    Beyond that, in Louisiana, as the Chairman well knows, we 
have a number of roadways subject to significant inundation or 
tidal surge. We lost the twin spans across Lake Pontchartrain 
as a result of that very fact. Those factors need to be 
considered in determining what best serves the public interest, 
and I would hope, in going forward with the Chairman's 
insightful proposal, that we may perhaps construct this around 
best serving the public safety of the motoring public on 
existing roadways, not just necessarily to go after increased 
capacity, or to do commercial development type things, but 
really focus on the significantly underfunded public safety 
issues that are across the entire transportation network.
    Lastly, we have two very high-utilization interstate 
corridors that intersect, and because of Katrina, we believe 
there has been an extraordinary influx of high-loaded 18-
wheelers which have caused repetitive accidents and loss of 
life in an unparalleled frequency. Those kinds of safety issues 
should also be, I think, considered.
    And there are remedies. We would simply take those trucks 
off of that roadway and provide an alternate path if the road 
were sufficient to withstand the load.
    Mr. Baker. So I am very supportive of the Chairman's 
direction and want to be helpful and supportive in any way that 
I can. I come to this with the view that the underlying 
elements of requiring the States to prioritize is absolutely 
essential. The disclosure of where those resources are spent 
certainly need to be made public at the Federal level, for the 
State to defend or brag as appropriate about the utilization of 
those resources. I certainly see no objective reason why 
someone would find that not to be an appropriate step, 
particularly where we may ask the motoring public to pay more 
for the service they should be able to clearly see and evaluate 
as the rate payer as to where their resources are going. So I 
would hope, Mr. Chairman, as we continue to investigate this 
matter, that perhaps a slightly broader view of the problem may 
be incorporated, and we can enthusiastically join together in 
moving something forward that would have a distinct and 
measurable impact on public safety generally. I thank the 
Chairman and yield back my time.
    Mr. Oberstar. This is why we have hearings, for issues of 
this kind to surface.
    The gentleman referring to the causeway, for example, in 
the vicinity of HOUMA----
    Mr. Baker. Yes.
    Mr. Oberstar. --the elevated roadway.
    To be more specific, where we have roadways which they 
cannot be built below sea level and we know that in a landfall 
of a major storm those roadways are going to be inundated, it 
may not be financially viable to elevate, but there may be 
alternative routes provided to get people out. Because what we 
saw in the contra flow between New Orleans and Baton Rouge, 
where thousands of people sitting in vehicles running out of 
gas with nowhere to go and no alternative to get off the 
interstate, they were literally locked where they were, those 
are the public safety issues which should be folded into our 
evaluation. If there is a way to do it, great; if not, we 
explored it, and we tried, and there is no alternative.
    Mr. Oberstar. I think there is a compelling case to be 
made, as the gentleman has outlined. Having driven over those 
causeways, those elevated structures, I certainly concur. What 
we learned in the hearings of 20 years ago was that scouring of 
bridge piers is the single most important threat to bridge 
integrity; and you have that in spades when you have storm 
surge, which often is more powerful and more damaging than wind 
damage of hurricanes.
    Mr. Baker. Thank you, Mr. Chairman.
    Mr. Oberstar. I certainly concur in that.
    Mr. DeFazio.
    Mr. DeFazio. Just following up on that line of thought, 
first, Mr. Rosenker, on the daily fatalities which you 
mentioned in page 1 of your testimony, basically we are looking 
at 120 people a day dying on our highways. Now in the testimony 
from the U.S. Chamber of Commerce they would attribute a third 
of those deaths to poorly maintained roads. I assume--I have to 
ask them whether they mean functional obsolescence, dangerous 
or poorly maintained. Do you have any data of that aspect?
    Mr. Rosenker. No, other than a third of them are alcohol 
related.
    Mr. DeFazio. Right. You can certainly have a--in this case, 
we have something unexpected and so dramatic in terms of the 
bridge and the immediate loss of 13 lives is an extraordinary 
event that causes us to rethink a lot of what we are doing. But 
you also look at 120 people a day. For those individuals and 
their families it is an unexpected event. It does not get the 
media attention because they were not all in one place at one 
time and it was not as spectacular.
    I guess what I am getting at here is the broader focus that 
the gentleman at the other end of the aisle raised, Mr. Baker 
raised, other things that really go to critical safety issues.
    It seems to me in the case of bridges functional 
obsolescence may be leading to loss of life. You do not have 
merge lanes and things like that on an incremental basis that 
we have come to accept which we do not need to accept. I'm 
trying to get at all the underinvestment and all the needs, but 
you do not have any fix on that right now so----
    Mr. Rosenker. Mr. DeFazio there are 7 million accidents 
that occur a year, 3 million injuries and the 43,000 or so that 
die every year. We have begun to look at things at the NTSB as 
preventive measures. Mitigation has been done fairly well; and 
I must applaud the work of the Congress, NHTSA and the 
Department of Transportation in mitigating by making better, 
stronger automobiles, the safety belt use laws that are in our 
State, both primary and secondary, the air bags in our 
automobiles and now NHTSA's most recent regulation dealing with 
rollover electronic stability control and rollover mitigation 
being a requirement by 2012.
    Mr. DeFazio. We have been doing substantial progress in the 
capsules with which we travel, but the lack of investment and 
what may be causing those accidents to happen where you might 
be in a safer car today but still there are fatalities, so 
anything you could provide that would address the idea of how 
much functional obsolescence contributes to the problem also 
would be of interest to me as we address----
    Mr. Rosenker. I do not think we have done that type of 
work. It normally comes from the direct result of an accident.
    Mr. DeFazio. Maybe it is something we could get from the 
very State.
    Again, in relation to the gentleman from Louisiana, we do 
not have the hurricane problem, but we have the earthquake 
problem, which could also, obviously, where a bridge is not 
earthquake proof can cause--we had the California instance and 
luckily it was at a time of day when--I mean, a number of 
people died, but it could have been a lot worse in terms of the 
collapse of the overpasses.
    Again, if we are looking at preventative things, I think 
that is something else that we need to look at in the bridge 
program. How many of--in earthquake-prone States, how many of 
these bridges have been upgraded for that?
    Mr. Scovel, the Secretary made a point of talking about how 
people should not be alarmed at all if bridges are rated as 
deficient; and I guess I find the gross scale rating not to be 
tremendously helpful. I understand there is a more detailed way 
of rating. But when you look at saying, okay, you are going to 
four and below on a scale of 10 is structurally deficient if it 
applies to one or more of three components of the bridge--
you've got superstructure, surface, substructure.
    Now I can understand why you would be concerned about 
surface in terms of puddles, travel and accidents and/or long-
term problems with the bridge because of infiltration if the 
deck is bad. But it seems to me in the short term the most 
critical factor is for structural deficiency. Either go to 
supporting superstructure or substructure of the bridge, do 
they not?
    Mr. Scovel. Again, I am not an engineer. My staff has not 
had an opportunity to examine that in detail. A layman's 
opinion would be to agree.
    Mr. DeFazio. Right. In looking at it I don't quite agree 
with the Secretary that people should not be concerned to hear 
that this has been a--because when I read 4, which is the 
highest of--the best of the structurally deficient, it says 
advanced section loss, deterioration, spalling or scour. That 
does not sound good to me. Then we get down to 3, loss of 
section, deterioration, spalling or scouring, serious effect of 
the primary structural components. Local failures are possible, 
fatigue cracking and steel or sheer cracks in concrete may be 
present.
    Again, I think the traveling public should have some 
concerns, so I hope in reviewing the criteria you dig into, so 
to speak, these--what things we are rating and which present, 
like decking, long-term problems that you want to deal with, it 
is serious, but which present immediate problems of potential 
failure and have it look toward a different rating scale in the 
future.
    Mr. Scovel. We will, sir. That is one of the areas the 
Secretary has asked us to look into.
    Another slant on your question perhaps might be whether the 
American traveling public has the information it needs to make 
decisions regarding their travel, particularly over 
structurally deficient bridges. The term "structurally 
deficient" raises a red flag in the minds of many laymen. 
Hearings like this, reports like those prepared by my staff 
last year, and our upcoming reports, certainly the NTSB's 
report and investigation into--specifically into the 35W 
collapse, all of those are important in getting information to 
the American public. But I would suggest that a key element 
ought to be greater visibility, transparency, accessibility 
through FHWA data to the American public.
    Mr. DeFazio. I think that is an excellent suggestion. In 
fact, we might post every bridge. The bridge ahead is rated 4 
on a scale of 1 to 10, it is structurally deficient, and this 
is your last opportunity to exit before you reach that bridge. 
I mean, it is a little bit humorous, but it isn't, really. 
People do not know. People are driving over a bridge--I mean, 
on their way home, on their way to a ball game----
    Mr. Scovel. You are right. What they encounter--if I may--
oftentimes they will encounter a load posting, 10 tons, 15 
tons; and that does not really register with, I think, the 
American public that what they are encountering is a 
structurally deficient bridge that has safety problems.
    Mr. DeFazio. They think it was built that way, not built 
actually for 40 tons and we have downgraded it to 10 because it 
has some real problems.
    Mr. Scovel. Right.
    Mr. DeFazio. I think education would both help us as 
policymakers in terms of generating public support for the 
investment we need, but I think it is something consumers 
deserve. We have--on the Oregon coast now, we have posted all 
these signs that you are now driving through Tsunami area and 
expect people to become familiar with what they might do if 
there was a Tsunami and every motel room has little directions 
of where to go and how to go and all those things. I am not 
saying we have to go that far with bridges, but I think we need 
certainly need a higher level of understanding on the part of 
the American people, and I applaud you----
    Mr. Scovel. Agreed.
    Mr. DeFazio. --for whatever you might be able to do.
    One last question if I could, Mr. Chairman. The staff 
prepared a question where they say there was a study from FHWA 
in 2001 talking about the visual inspection, and they found in 
this study only 4 percent of the inspectors could correctly 
identify fatigue cracks, and many identified non-existent 
problems. Are you familiar with that study?
    Mr. Scovel. I am not.
    Mr. DeFazio. I would urge your folks to be in touch with 
ours and see if you can find that. Because that goes to the 
issue raised by the Chairman about these kind of primitive 
methods that are being used.
    Again, in Oregon we do not know until one very alert bridge 
inspector found a number of stress cracks in our cast-in-place 
concrete bridges on Interstate 5 that we were experiencing 
virtual simultaneous failure of a large percentage of the 
bridges on our system because we used a pre-1960 form of 
construction. And no one knew that it would lead to these sorts 
of failures in a relatively short period of time almost 
simultaneously, but one very alert inspector found that. We 
want to give people the tools so this does not take one really 
good inspector to discover it. Obviously, it had been going on 
elsewhere and on some of these other bridges, but this one guy 
found it.
    Mr. Scovel. Right. Our comprehensive review of the bridge 
inspection program will tackle just that.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. As always, the Chairman is on the right 
track.
    Before I recognize Mr. Shuster I just want to make two 
heart-breaking observations. One, our colleague, Paul Gillmor, 
was found dead in his apartment this morning. It touches me 
very much because Paul and I left the Rayburn building at the 
same time last night. He drove one car length ahead of me.
    And Jennifer Dunn, a former Member of this Committee who 
served on the Ways and Means Committee and retired from 
Congress, collapsed yesterday.
    Mr. Boozman just passed that information to me. We keep 
them, their families and loved ones in our prayers.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    I first want to associate myself with the remarks of Mr. 
DeFazio on the ratings that we use, especially for the general 
public. You know, when you say structurally deficient or 
functionally obsolete, it sounds terrible. And in some cases it 
is terrible and in some cases it is not quite as bad. So I 
would encourage us as we move forward to try to figure out a 
way to give it a pinpoint to be better to rate these bridges 
so, as Mr. DeFazio said, the traveling public, the public at 
large knows what the bridge is like and so the political will 
back in our States is raised to say we need the funding, we 
need to divert the funding or fix this bridge or replace this 
bridge. Because, as I said, to me it is confusing and, in some 
cases, alarming.
    The question--and we talked a lot about the bridge 
inspections, the safety, the Federal, State and local working 
together. Where is that coordinated and who is charged with the 
responsibility of coordinating all of that so that we don't 
miss things, we don't have lapses?
    Mr. Scovel. That is a Federal Highways Administration 
responsibility, sir. There are 52 offices, one in each State, 
the District of Columbia and Puerto Rico. Each of those 
division offices has an individual designated the bridge 
engineer. That is his or her title. In larger States, he or she 
is supported by staff as well.
    Our finding--and it is outlined in our statement for the 
Committee today--however, is that those bridge engineers, to 
include their staff, are stretched very thin. We were told by 
one bridge engineer in a large State with a very large number 
of bridges that he was able to spend only 15 percent of his 
time on bridge oversight and inspection duties. Given the 
magnitude of the problem, a reprioritization by FHWA would seem 
to be in order.
    Mr. Shuster. Is that something that we can rate States on 
their safety, that there are enough people in place to spend 
enough time? Is that something we rate?
    Mr. Scovel. FHWA does do that as well. My recollection is 
that generally across the board nationwide FHWA is pleased with 
the State inspection efforts. In fact, my own engineers when we 
conducted our March, 2006, study found the same thing. At the 
State level, inspections were done properly and accurately.
    Where we took issue was with FHWA's oversight, what it did 
with the data that was turned over to it by the States. And we 
made a number of recommendations to FHWA, and that led to 
really our overall conclusion that a risk-based, data-driven 
approach to measure the process would be most beneficial.
    Mr. Shuster. You feel comfortable and confident with the 
inspections and the repairs that you've seen going on across 
the board?
    Mr. Scovel. At this point. But that will be another item 
for comprehensive review that we owe the Secretary. We will be 
completing that sometime next year.
    Mr. Shuster. What tools or abilities does the FHWA have to 
encourage States to tackle these deficient bridges?
    Mr. Scovel. Very few in terms of a carrot or a stick, I 
guess. There is goodwill, there is jaw boning, there are the 
personal relationships established State by State through the 
division bridge engineers and their State counterparts.
    FHWA has little control, if any, over where States 
currently spend their money. As you know, State can flex funds 
out of bridges and into other programs, sometimes from other 
programs back into bridges. We would encourage FHWA, if it has 
serious misgivings about a State approach, to raise it at the 
Federal level, certainly with you and Congress and the 
Secretary of Transportation, in order to bring visibility to 
what may be a serious problem.
    Mr. Shuster. I see my time is running short.
    I have a question for Mr. Rosenker. While you are doing an 
investigation in Minnesota, what is the typical time frame? I 
know it depends on the size. When do you expect to have a 
finding on the Minnesota bridge collapse?
    Mr. Rosenker. That is a question that I get on every single 
one of my accidents. This is not unique. I wish I could give 
you a finite time, how long it will take for us to understand 
what happened, do the full analysis to guarantee that our 
findings are correct and write that report. I am hoping that we 
can do this within 12 to 14 months.
    Mr. Shuster. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rosenker. With that said, if we find any glaring safety 
issues, we will make urgent recommendations to the appropriate 
authorities, whether it be at the Federal or State or local 
level.
    Mr. Shuster. If you know there is something that fails and 
there are a thousand other bridges you will make that 
recommendation.
    Mr. Rosenker. Immediately, sir.
    Mr. Shuster. Thank you.
    Mr. Oberstar. The question and response is appropriate.
    The NTSB in its classic performance reveals information as 
the investigation proceeds and shares that information. But, in 
this case, there are 740 some bridges built at the same time, 
under the same structural conditions as the I-35W bridge. Any 
significant finding is of great national importance because it 
will apply to the other structurally deficient bridges.
    Mr. Shuster. A question. Did not the Secretary of 
Transportation order those 700 so bridges to be immediately 
inspected?
    Mr. Oberstar. The Federal Highway Administration was 
directed to step up its oversight of State review of those 
bridges.
    Mr. Shuster. Thank you.
    Mr. Oberstar. Mr. Altmire.
    Mr. Altmire. I thank the Chairman.
    We all have stories to tell on these issues with our 
districts and with our State. We heard from Mr. Baker about 
Louisiana and certainly the troubles that they have had. The 
Chairman certainly knows in his own State recently what can 
happen.
    Mr. Shuster and I both know in Pennsylvania we have the 
highest number of structurally deficient bridges in the entire 
country. Our own State Department of Transportation classifies 
6,000 of our more than 25,000 bridges to be structurally 
deficient, including 800 that are in need of outright 
replacement. The average age of these bridges is 50 years old, 
and in the six counties that I represent in South Western 
Pennsylvania many are over 100 years old. It is not uncommon.
    The number of structurally deficient bridges in the six 
counties in my district which has over a thousand bridges in 
the district, we have 29 with sufficiency ratings on a zero to 
100 scale that are 10 or below. We have 566 just in my district 
that are rated at 50 or below.
    Insufficiency ratings, as you know, of 50 or below qualify 
a bridge for Federal funding and require the regular 
inspections that we are talking about today.
    Two of the bridges in my district, the Koppel Bridge and 
the Rochester Beaver Bridge, are steel truss bridges of similar 
design to the I-35W span. And in particular the Koppel Bridge, 
which carries Route 151 over the Beaver River in north 
Sewickley and Beaver County, was constructed in 1915 and has a 
current sufficiency rating of 8 out of 100.
    So as the State with the most structurally deficient 
bridges there is no shortage of examples in Pennsylvania or 
even in my district of bridges that are in dire need of 
rehabilitation, repair or even replacement. In total, the State 
estimates it will take $11 billion required to update the 6,000 
plus structurally deficient bridges.
    So I just want to say, to start, that certainly Mr. Shuster 
and I are more than passive observers coming from the State 
which has the biggest problem of any State in the country.
    I would look forward to working with the panel and the 
Secretary in moving forward and want to be active in resolving 
these issues, and we do need to find a revenue stream do that. 
The Chairman has been a leader in that, and I want to offer my 
assistance in moving forward in that way.
    The question that I have on that zero to 100 scale, we 
talked about bridges in my district that are in the single 
digits. I know you touched on this briefly earlier. It would 
seem to me if you are in the single digits on a zero to 100 
scale, that is by definition pretty low. So at what point, as 
Mr. DeFazio talked about, does the driver need to give a second 
thought when they are crossing these bridges? When you hear 
that low of a rating, what does that mean when you are at 8 on 
a scale of 100?
    Mr. Scovel. If I knew about it and were a driver in your 
congressional district, I would be very concerned driving over 
bridges of that low a sufficiency rating.
    That said, assuming your State inspection program is 
adequate and working properly and those bridges have been 
inspected on the required schedule and load ratings have been 
properly calculated as required, the decision as to posting has 
been addressed, if it is not posted, then a driver should be 
able to assume that the State's load for that highway can be 
supported through and over that bridge.
    Those are a series of assumptions, but based strictly on 
the fact that there is a low sufficiency rating to begin with, 
I would be concerned. If I were a taxpayer, I would like to see 
it addressed.
    Mr. Altmire. How confident are you at the U.S. Department 
of Transportation that the States in general are doing their 
job on that issue?
    Mr. Scovel. Based on our review that led to our 2006 
report, we are confident. Pennsylvania was not one of the 
States we examined in detail. Those were Massachusetts, New 
York and Texas. However, based on the data that we turned up in 
those three States--and, again, we were focused primarily on 
FHWA oversight--it gave us concern, however. So we expanded our 
survey nationwide, and through statistical sampling we did 
reach bridges in Pennsylvania as well as every other State and 
the District of Columbia and Puerto Rico as well. Again, we 
found throughout that State inspections generally were adequate 
and accurate.
    Mr. Altmire. I thank the panel, and I thank the Chairman. I 
want to be actively involved in this moving forward, and I look 
forward to working with you.
    Mr. Oberstar. Thank the gentleman, and we certainly will 
engage and enlist his support.
    Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I want to thank the 
panel.
    I would like to say my colleague from Pennsylvania 
referenced that everyone has a personal story. Well, that 
bridge that fell in 1967 was in West Virginia, the Silver 
Bridge in my district. I was not representing the district 
then, but I am sure the Chairman was around at that time.
    Mr. Oberstar. I was on the staff at the time, yes.
    Mrs. Capito. I thought that was a safe bet.
    When the tragedy occurred in August, those folks in West 
Virginia had a great deal of sympathy and empathy. It is a pain 
that never really goes away from a small community 
particularly, as in the case of Point Pleasant.
    I am pleased to know that was the precipitating event to 
then go forward with more detail and more precise ways of 
inspection and safety.
    Quick question to make sure I understand this. When you 
talk about structurally deficient bridges, does the State set 
the priority for where those dollars goes or is that done in 
conjunction with the Federal Highway Administration?
    Mr. Scovel. Currently, the State accepts those priorities.
    Mrs. Capito. Let me ask you this. This is kind of--I do not 
know if this is a "gotcha" question for somebody. When the 
Federal highway dollars come down through the State and the 
State is setting the priorities for bridge reconstruction or 
bridge inspection, is there a competition for dollars in terms 
of new construction, maintenance dollars and then the bridge 
dollars?
    Mr. Scovel. My office has not examined that in detail. It 
certainly assumed, I think, that new construction is often more 
attractive for a number of reasons, as opposed to 
rehabilitation or extensive repair work on existing bridges.
    Mrs. Capito. You stated earlier you really cannot say with 
much detail how much of the Federal dollars are being spent on 
what particular structure for reconstruction or repair.
    Mr. Scovel. That is true. For structurally deficient 
bridges in the Federal system, we have not been able readily--
as Administrator Capka and I spoke to earlier, we can't readily 
track the dollars that may or may not be reaching those bridges 
without a very laborious process.
    Mrs. Capito. So I would be safe to assume that the pile of 
Federal dollars that the State is using for Federal either 
construction, rehabilitation or working on bridges is a little 
fuzzy math sometimes that we are relying on.
    Mr. Scovel. It can be, yes.
    Mrs. Capito. Is that part of your report?
    Mr. Scovel. We will be looking at the Federal funding of 
bridges, both, as I mentioned, how we are able to track that, 
if we can, and what recommendations we can make for improvement 
there. But also the uses to which States put those Federal 
dollars, how effectively and how efficiently those are made.
    Mrs. Capito. Two other kind of quick questions.
    We have heard a lot about--I think Congressman Baker 
mentioned that there are two bridge inspectors that go all 
through Louisiana. Would you think this is something we should 
look at in terms of legislation, would be providing funding for 
more inspectors? And I worry, too, also about the level of 
engineering expertise that bridge inspectors are--I am sure 
they have continuous study and updating, but is this part of 
what your study would include?
    Mr. Scovel. We will. But I'd like to say again that 
inspections are a State responsibility. Our focus has been on 
FHWA. Primarily, our concern has been on the bridge engineers 
for each individual office and the amount of oversight they 
have been able to bring to the bridge inspection oversight 
program.
    Mrs. Capito. My final question. Certainly going forward you 
mentioned, Mr. Rosenker, that the construction of the Minnesota 
bridge was of a particular type that might have ongoing 
questions of 300 some other bridges built of the same 
construction. In your history of investigating accidents of 
this kind, what kind of impact has it had on further 
construction and going forward trying to avoid these 
circumstances?
    Mr. Rosenker. When we talk about construction issues, a la 
the Big Dig, we change the thought process as it is related to 
the epoxy process and utilizing it in overhead panels. Each 
time we do one of these significant accidents, whether it be at 
a construction type of a scenario or whether it is a major 
aircraft disaster or a railroad disaster, what we come up 
with--because these are unique accidents for the most part, are 
very unique. But we see some, in many cases, some general 
information that has not been understood before. And when we 
learn that, through our investigations, we either put it out in 
an urgent recommendation or at the end put it out as a full 
recommendation for regulatory change and operating change and 
manufacturing change.
    In the previous four accidents that I discovered, each one 
of those represented an improvement to the way that we look at 
inspections and design, and most of that goes to the Federal 
Highway Administration. The first one as a result of that 
catastrophic accident in '67 resulted with the good work of the 
Congress in creating the National Bridge Inspection Program. I 
believe the Chairman may have been on staff to help create that 
good work.
    Mrs. Capito. I thank you both.
    Mr. Oberstar. Thank the gentlewoman for her observations.
    The hearing I cited was on the 20th anniversary of the 
Silver Bridge collapse. The hearing held December 1st and 2nd 
of 1967--1987, it was on the 20th anniversary of '67 of that 
bridge collapse, and we are reliving some of the issues raised 
in that hearing that were not sufficiently addressed. So what 
we are also reliving is the continuing saga of transfers out of 
the bridge fund by States to their National Highway System and 
Surface Transportation Programs.
    The States asked for flexibility. We provided flexibility 
for the States to shift dollars around on those various 
categories of funding. It is not 60 categories as the Secretary 
said, which I contested earlier today. It is more like 36 
categories of funding. It used to be 60. We whittled those down 
in ISTEA and TEA-21 to 36 categories of funding and gave States 
flexibility.
    Look what has happened in the last 10 years: $4,700,000,000 
has been shifted by States out of the bridge fund to their NHS 
and Surface Transportation Programs. In the case of West 
Virginia, it adds up to $39 million. In the case of 
Pennsylvania, the largest amount was $1,950,000,000 they 
transferred over that decade, plus 10, 15 years of their bridge 
money to other needs.
    Well, we gave States that flexibility. But then you have a 
bridge collapse, and it focuses all that attention again. And 
the issue is not Member High Priority Projects, it is what the 
States are doing with their money allocated to them under the 
Highway Trust Fund.
    A uniform, consistent approach to inspections, frequency of 
inspections, shifting from 2 years to 1 year would be of 
benefit, which I know both of you have cited, which is in my 
bill. Uniform standards to show the data submitted and included 
in the national bridge inventory is consistent among States 
will lead to a data-driven, performance-based program.
    Those are the key elements of Title I of the proposition I 
have set forth.
    Thank you very much for your testimony.
    Mr. Boozman. Can I just say, first of all, I very much 
support Mr. Oberstar's effort to provide leadership in this so 
important area and is doing a tremendous job in that way.
    I guess my fear as I was listening to the discussion, many 
of the Members voiced support for prioritization program, which 
makes sense. We have a limited amount of resources, and I guess 
my concern is if we had a prioritization plan in effect I do 
not know where this bridge would fall. I suspect it would be 
fairly low or in the middle in the priorities.
    The gentleman from Pennsylvania talked about the very low 
ratings on many bridges, so what I would like to know is, what 
are you all saying? In a sense, the process has broken down as 
far as the inspection. In this, we are not talking about a lot 
of money. It might be the methodology or whatever that we are 
doing in the sense this bridge, because it failed, should have 
been at 100 percent but was much lower on the scale.
    So you mention putting all the materials on the bridge. I 
had a friend who reroofed his house, and they stacked all the 
shingles on one corner of his house, and it caved in that area. 
Because of that, is that knowledge going out through the system 
right now that we are not doing that? Do we have that in place? 
Those are the kinds of things I would like for to you comment 
on.
    Again, the preliminary things that we are saying, I hope 
that somehow there is--I know that your investigation will go 
forward, but I would hope we have some way as these things 
start to come up that we do not have a bunch of material 
stacked on a bridge similar to this one.
    Mr. Rosenker. Thank you. As a result of what we learned and 
what we saw on that bridge, the Secretary of Transportation put 
out an advisory to be sensitive to the maintenance workers, 
State inspectors, the State Departments of Transportation. When 
you are bringing materials on to a bridge, be careful how you 
distribute the loads.
    We do not know yet for a fact that this was the cause, but 
it is clearly an area that we have a good deal of interest in, 
along with the design of the bridge. Forty years ago, that 
bridge was designed. What we're looking at, did the 
construction adhere to the design? Were the materials specified 
to the right design capability?
    We are looking at calculations that were made when they 
designed that bridge. We have the original plans. We are 
checking those calculations to be sure they were done properly 
to hold loads.
    Then, of course, we are looking at the materials 
themselves. When I say "the material"--the construction 
material, the actual gusset plates, the actual bars, the actual 
girders, much of which is still under water and we are trying 
to recover.
    So when we are able to pull all of those materials up and 
we can do a visual and ultimately a very granular type of 
examination, we will learn a great deal if it was an issue of 
aging infrastructure or if it was an issue of something other 
than aging infrastructure--poor design, load concentration or a 
combination of factors.
    But that is the problem we get when we begin--we try to be 
as open as we possibly can when we talk about what we have 
learned, but sometimes it takes us down areas that never pan 
out and sometimes it does. But what we do not want is to jump 
to conclusions. The answer that we ultimately will give you 
will be the right answer. It will be one that has been tested 
and we can guarantee with a great deal of confidence that is 
what caused the bridge to fail. Other things then faused the 
failure as secondary issues, but what was the real cause? We 
will learn that as we go through this investigation.
    Mr. Boozman. Thank you, Mr. Chairman.
    Again, what caused it to be number 50 rather than 99 or 
100, that is kind of an underlying thing.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Mr. Oberstar. The gentleman's point is well taken. That is 
why we have crafted this legislation, to raise the standards by 
which bridges are evaluated on deficiency, structural, 
functional, and in the case of this legislation structurally 
deficiency. So there is a national uniform standard State by 
State. The standards vary, as we said today.
    Secondly, to have a priority rating system that will be 
established to those new, higher standards and have that 
priority rating system evaluated by the National Academy of 
Sciences so that we know it is a valid rating system. That is 
what we will attempt to accomplish.
    I thank the panel for their contributions, very grateful 
for your time before us today. Thank you.
    We will proceed to Panel III: the Honorable R.T. Rybak, the 
Mayor of the City of Minneapolis, and Kathleen Novak, Mayor of 
the City of Northglenn, Colorado.
    I would observe that our Committee colleague, Mr. Walz, is 
now on the floor managing the bill reported from Committee to 
honor the first responders; and our entire Minnesota 
delegation, minus this Member, are on the floor paying their 
tributes to those who responded with such alacrity and skill.
    I might observe the Mayor of Minneapolis, our witness 
today, had the foresight to engage the city and the 
Metropolitan Council in a dry run in emergency response to just 
such a tragedy; and that was the principal reason those first 
responders were able to do what they did so effectively and so 
efficiently.
    I thank both of you for being here today.

  TESTIMONY OF THE HONORABLE R.T. RYBAK, CITY OF MINNEAPOLIS, 
   MAYOR, MINNEAPOLIS, MINNESOTA; AND THE HONORABLE KATHLEEN 
     NOVAK, CITY OF NORTHGLENN, MAYOR, NORTHGLENN, COLORADO

    Mr. Oberstar. Mayor Rybak. 
    Mr. Rybek. Thank you very much, Mr. Chair. It is an honor 
to be here to speak on this topic, and it is an honor in 
general to be before your Committee. You have done remarkable 
work.
    We especially want to thank the Committee and all the 
Congress for the swift response we had in addressing the 
emergency funding that was required in this situation and will 
obviously need to continue to work with you on that.
    I wanted to share with you a few thoughts I had about the 
situation in Minneapolis and the implications of what this 
Committee now faces as you move forward. As you do that, I want 
us to step back from this a moment and stop and think that 
every day in Minneapolis and certainly in the United States of 
America there are millions of us who cross paths without really 
seeing who the other person really is. We may cross on a 
sidewalk or in a shopping mall and not stop and look someone in 
the eye. We may be on a busy freeway and not see who is behind 
the wheel of that other car speeding by. We live in the same 
places, but rarely do we really stop and think who the other 
person really is.
    And then something happens. There is that moment, that 
realization when something occurs that you look up from your 
daily life and recognize we are all really in one place. That, 
of course, happened tragically in the City of Minneapolis on 
August 1st at 6:05. At that moment, there were many people 
moving in different directions.
    There was an amateur baseball player, who was heading home 
to his wife and two young kids.
    There was an insurance marketing director, whose husband 
and two daughters had dinner on the table.
    There was an immigrant from Cambodia, a nursing student who 
was pregnant at the time.
    There was another immigrant who was there with her son with 
Down's Syndrome. They were inseparable, in fact, even in their 
death.
    There was a vegetable salesman from Mexico, whose family is 
now spread across two different continents.
    There was a missionary who worked in the computer field. 
There was a construction worker who loved ice fishing and peach 
pie. All of them and six others are gone.
    There were many others who injured, some of them very, very 
seriously.
    Thankfully, there were some on that bridge who survived, 
including a school bus filled with children. All these separate 
lives lived very separately are now forever tragically woven 
together.
    It is at moments like that that we recognize we really are 
not all that separate after all, because all of us inhabit 
common ground. I say that because the notion of common ground 
should have certain resonance for those of us who are in public 
service, because we are the providers of that common ground. 
Roads and bridges are common ground and so are all the other 
things that we provide service for, here in the Congress and 
here in the city hall of Minneapolis, roads and bridges, 
garbage collection, public water, the common ground for the 
common good. That is what we do for a living.
    There are rules as stewards of the common ground. I believe 
there is a certain message that comes out of the tragedy in 
Minneapolis, and it is a message that I hope you take closely 
to you as you go forward in this work. The message is this. 
When we invest in quality government, we get quality results. 
When we do not invest, there are consequences.
    In Minneapolis, we have invested in public safety and 
emergency response. Over the past 5 years, we have invested in 
a strong partnership with the Federal government, more that $50 
million in emergency preparedness. We did, as you referenced 
earlier, do a mock drill, a 3-day training for disaster in the 
City of Minneapolis. We trained for that 4 years ago. We 
learned from that. We purchased equipment on that, we trained 
for that, and because of that training and because of that 
investment we provided a quality response. This was a 
horrendous tragedy, but because we invested wisely we prevented 
it from being far worse.
    When you invest in quality government, you get quality 
results. When you do not invest, there are consequences.
    It is clear in my City of Minneapolis and my State of 
Minnesota and in the United States of America, we have 
dramatically underinvested in transportation. We do not fully 
know why this bridge collapsed, but we do know several things.
    We know that the most recent inspection of that bridge in 
June of 2006 showed some cracking and fatigue problems. The 
bridge had a sufficiency rating of 50 percent, which was 
referenced this morning, which is certainly a percentage that 
should merit great alarm. In December of 2006, the bridge was 
supposed to have undergone a $1.5 million steel reinforcement 
project that was delayed by the Department of Transportation, 
and they chose instead to move to inspections. Decisions like 
that are being made in Minnesota and all across this country as 
Departments of Transportation wrestle with underinvestment in 
transportation.
    When you do not invest in public infrastructure, there are 
consequences. I say this as a Mayor of a city that is reacting 
to a disaster that was not an act of God. It was failure of 
man. For some time, we have known that our rates of investment 
are falling far, far behind.
    I say that also as a representative of the U.S. Conference 
of Mayors. Because mayors around the country understand this. 
Mayors from my conference have been before this group during 
the debate on SAFETEA-LU. At that time, we supported the 
congressional efforts to increase the Federal gas tax to extend 
the Federal commitments and to put more money into 
infrastructure. We mayors were also here last month when this 
Congress looked at the transportation-related initiative 
included in the energy legislation, and again we supported the 
idea of increased investment in the infrastructure.
    Now as we start the debate today I would like to draw your 
attention to some of the issues that are leading to 
underfunding of some of the local priorities. Mayors across 
this country know that States, including my own, are 
underinvesting in transportation with new revenue. I think, as 
we were just hearing referenced, there has been also great 
concern that funds for issues like bridges have been diverted 
to other situations.
    When people are struggling for money, they will do 
desperate things. When you see that happen, mayors around the 
country recognize that there are investments being postponed. 
We understand there is no free lunch. Every day we face those 
challenges in our cities. Look at what happened in Minnesota.
    We really need to be honest about what happens when you 
underinvest in transportation. In Minnesota, people are driving 
more; and that is putting more pressure on our roads. Today, in 
Minnesota, we are spending 31 percent less per vehicle on 
transportation than we did in 1975. As a result, our roads are 
dramatically more congested than 5 years ago. The average 
driver in the Minneapolis-St. Paul region spends a full 
workweek stuck in traffic every single year.
    It is not like we do not know how to get out of this. We 
have a good plan. But the problem is that it has been 
dramatically underfunded, and we need both capital for that 
program and also money for maintenance. To give you an idea of 
the gap, the cost of catching up right now is estimated to be 
$19 billion for Minnesota over the next 20 years.
    We need to make a dramatic new investment in 
transportation, and clearly we need to make a dramatic new 
investment in maintaining our existing infrastructure. We 
simply cannot choose between the two. This is why I am strongly 
in support of Congressman Oberstar's proposal to have a Federal 
gas tax to temporarily address these issues around the country. 
I am also in support of a gas tax in the State of Minnesota and 
have looked at the idea of regional sales taxes for pay for 
transit in the metropolitan area of Minneapolis-St. Paul.
    No one wants to sit before Congress or anywhere and 
advocate more taxes in the State or in my city. Yet it strikes 
me we pay now or pay later. We can invest now in the transit 
solutions that we know are going to lessen our dependence on 
foreign oil or we can watch as gas prices continue to skyrocket 
further and further ahead as we become more dependent on 
foreign oil. Pay now or pay later. We can invest now in 
maintaining the transportation infrastructure we have or we can 
pay much more later as the issues grow further and further and 
become more and more dangerous. As we understand in 
Minneapolis, paying on the issue of transportation 
infrastructure can mean much more than dollars alone.
    When you invest in quality transportation, you get quality 
results. Let me give you two quick examples as I come to 
conclusion here.
    In 2004, the Hiawatha Light Rail Line was built in the City 
of Minneapolis connecting the downtown area with the airport 
and the Mall of America. Today, over 19,000 people ride that 
line. We have reduced congestion, we have built 5,400 housing 
units along that line, and we have seen $1.5 billion of 
investment along that line. The only problem is the State's 
dramatic underfunding of transportation means we will probably 
only build a line about every 20 years. We are falling 
dramatically behind.
    In contrast, look at Denver. In November, 2006, Denver 
opened its newest light rail line in the southwest corridor; 
and their total investment now is $879 million. That is 
resulting in a 19-mile line that has generated $4.25 billion, 
which is really not a bad rate of return. They are able to do 
that because Denver, unlike my State, passed a regional sales 
tax that is putting $4.7 billion into that program. If you 
invest in quality transportation, you will get quality results.
    I want to finish by telling you a story about my experience 
yesterday as I went to meet the students of Oxford College as 
they opened their year. I welcomed them to the campus, and a 
girl walked up to me afterwards. She introduced me. I met her 
earlier at the funeral of her mother. Her mother was one of the 
people who died on that bridge that day. I told her where I was 
coming today, and I said I will try to do everything I can to 
convince them that this should never happen again.
    But I want us to think about that girl as she starts 
college. I want you to think about her sister, who knew that 
before the tragedy her mother was taking down all sorts of 
information about how to plan the wedding. That girl will 
graduate from college. That girl will go to the wedding. Their 
mother will not be there.
    It was not an act of God, it was a failure of man, and it 
was a failure of our ability to invest in basic core 
infrastructure. I hope we can think about that; and I hope we 
can think, as members of the generation that we are, the 
generation that was given an Interstate Highway System, and 
look at ourselves now as a generation that has left billions of 
dollars more to be invested and wonder if we can look that girl 
in the eye and answer the question, whether we can say we have 
done all that we can.
    I say, as a person who represents a city who was gone 
through a tremendous tragedy where lives have been broken, that 
we need to step up and take that action. I call on Congress to 
follow your lead, Congressman Oberstar, to make sure that that 
girl gets the justice that is deserved to her.
    Thank you very much.
    Mr. Oberstar. Thank you very, very much, Mayor, for that 
powerful testimony, that compelling image of that young woman 
who will have to face the future without her mother.
    I lost my wife to breast cancer. Our three daughters have 
had to face that situation. I know how heavy that is, how heavy 
a burden it is. But when it occurs, a force that could have 
been controlled, it is all that more painful.
    Mr. Oberstar. We have 5 minutes remaining on this. Mayor 
Novak, I will let you begin, but I think we may have to recess 
before you complete.
    Ms. Novak. Thank you. I understand.
    Good afternoon, Mr. Chairman and Members of the Committee. 
I am Kathy Novak, Mayor of Northglenn, Colorado; and I am here 
on behalf of the National League of Cities, the oldest and 
largest organization representing local elected officials in 
America's cities and towns.
    I appreciate the opportunity to present the views of local 
elected officials on the state of our Nation's bridges and our 
transportation infrastructure in general. We appreciate the 
leadership of this Committee in protecting our Nation's 
infrastructure, from water resources to bridge, highways and 
our transit and aviation system. This Committee has 
demonstrated your commitment to our Nation's economy, 
environment and quality of life.
    As our transportation infrastructure shows its age, local 
elected officials want to work with you on a new commitment to 
rebuilding a robust and safe infrastructure that both serves 
our communities and keeps our economies moving. Under President 
Eisenhower's leadership, this country created a national 
transportation system that has become the backbone of our 
Nation's development from coast to coast and spurred 
unparalleled economic growth in our cities and towns, where 
today seven out of every ten residents live in cities in 
America.
    The tragedy in Minneapolis reminds us that investment in 
our transportation system cannot be assigned for the future. 
Maintenance and continuous improvements requires a renewed 
financial commitment at all levels of government and a long-
term, comprehensive national plan for the future.
    Our transportation system, built to maintain through an 
innovative Federal, State and local government partnership and 
the private sector, continues to be and may now more than ever 
be the key to our Nation's economic growth, business 
competitiveness, quality of life and national security.
    Federal support through the Highway Trust Fund has 
sustained the governmental partnership, and current levels of 
Federal spending fall far short of the actual cost of 
maintaining and improving our Nation's infrastructure. The 
shortfall is too large for local governments to make up on our 
own.
    Estimates of the cost of maintaining the National Highway 
System. There is general agreement that the system is 
deteriorating and needs a significant upgrade that can only be 
achieved through a new national commitment to maintaining this 
infrastructure.
    The American Society of Civil Engineers gave our Nation's 
infrastructure an overall grade of a D. Well, as the mother of 
five children and an instructor at the university, I would not 
be satisfied with that outcome, nor should we as a Nation be 
willing to allow the first-class transportation infrastructure 
we developed to disintegrate and risk harm to all of our 
citizens.
    ASCE's most recent estimates of the total cost needed by 
all levels of government to update our infrastructure, 
airports, bridges, roads and transit, brownfields, dams and 
levees, drinking and wastewater and inland waterways is $1.6 
trillion. In the words of the House Appropriations Committee, 
it is well documented that our Nation's transportation 
infrastructure is aging and the investment needs of our 
Nation's highway and transit systems is significant. Without 
additional revenues for transportation investment, the Nation 
will be unable to reduce congestion, maintain aging bridges and 
highways or expand capacity.
    For my own State in Colorado, we confirm what ASCE and the 
House Appropriations Committee are telling us. Colorado has 
nearly 17,000 bridges, over 8,000 of which are part of the 
interstate system. Of those, 580, or 7 percent, are 
structurally deficient, two of them in my own city which bridge 
I-25 and really keep us together as a community. If anything 
happened to those bridges, there would be serious implications 
for my city.
    Ten percent of our bridges are functionally obsolete. As I 
am sure many of you did when the Minneapolis bridge collapsed, 
I thought about what the impact would be on my city and my 
State. Of the nearly 7 percent of the interstate system bridges 
that are structurally positioned, one is traveled by more than 
139,000 motorists each day.
    Allowing our bridges to deteriorate further is a national 
calamity waiting to happen. 3,757 of Colorado's bridges are 
owned by the State, and more than 4,700 bridges are owned by 
cities and counties. Of those State-owned spans, 110 are 
considered in need of replacement and another 375 are in need 
of rehabilitation.
    Ms. Novak. We spend in Colorado about $30 million a year on 
bridge repair and replacement out of an annual transportation 
budget of $1 billion. Locally, Colorado cities and counties 
commit billions of dollars to roads, bridges and streets. In 
2005, local governments--cities and counties alone--spent 
$1,281,463,000 on these systems. The Colorado Municipal League 
and Colorado Counties, Inc. have estimated a total of $31 
billion for improvements, maintenance and preservation needs 
through the year 2030. With an estimated $18 billion available, 
this leaves us a shortfall of only $12 billion. We estimate 
$1.6 billion for bridges alone over this time period. We 
continue to raise local taxes, find ways to fund 
transportation, but we cannot do it alone at the local level.
    One of the challenges is, as we are updating our local plan 
and transportation plan priorities from a 2030 plan to a 2035 
plan, we need to cut $800 million out of that worth of projects 
just due to increased costs.
    Mr. Oberstar. Madam Mayor, I regret that I have to suspend 
there. We are down to zero time remaining on the vote on the 
House floor. We have a series of votes. We will recess for 
approximately an hour, unfortunately.
    [recess.]
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order and resume its sitting.
    My apologies to the witnesses and to panel 3 and to 
subsequent panels. Unfortunately, the votes and the procedure 
on the floor took longer than anticipated with commemoration of 
the loss of the two colleagues that I mentioned in the 
Committee--Mr. Gillmor, a current Member, and Ms. Dunn, a 
former Member. Then Mr. DeFazio and I were committed to meeting 
with the news media, and we did that on our way back, and he is 
off to another hearing in another Committee, and he will rejoin 
us later, but I am here, and I thank all of you for being here, 
and this is a familiar situation over the 33 years I have 
served in the Congress that, come late afternoon, the place 
just sort of settles down, and there are only those with 
endurance who remain.
    So, Mayor Novak, that is a very familiar name in my part of 
the country, Northern Minnesota. Novaks are Slovenes and 
Croatian. They are also Polish. In fact, the current mayor of 
Ely in my district is "Novak."
    Ms. Novak. Well, I married well into the "Novak" name, but 
I come from a long line of good, old Irish folks, so it does 
not really fit the name.
    Mr. Oberstar. Thank you. Under any flag, you are welcome, 
and I had to suspend while you were mid sentence, so you may 
continue.
    Ms. Novak. Well, you have my statement in front of you, so 
I will just conclude by just reinforcing that, at the local 
level and representing the National League of Cities, we 
believe that your proposal to fund a separate bridge program is 
a step in the right direction toward meeting our infrastructure 
investment needs and national goals. A more comprehensive 
approach to infrastructure and bridge repair is critical for 
the long-term. We look forward to working with you and the 
Committee to reauthorize Federal surface transportation 
programs and to reenergize our national vision for a national 
infrastructure program that keeps our citizens safe, helps move 
goods quickly and focuses on safety, congestion relief, 
protecting our air quality, and increasing energy efficiency 
and conservation and accountability for the billions of dollars 
spent on transportation programs and improvements throughout 
our country.
    As national and as governmental partners, we need to make 
the preservation, maintenance and modernization of our 
transportation system a national priority and a commitment, and 
I thank you for the opportunity to speak on behalf of America's 
cities and towns.
    Mr. Oberstar. Well, thank you very much for a well thought-
out statement. It was well presented, earnestly, and was 
sincerely delivered.
    You heard testimony from previous panels--from the 
Secretary and then from the Inspector General and from the 
chairman of the NTSB. There was a great deal of discussion 
about how funds are distributed and how they are allocated.
    From the vantage point of a mayor, when you see dollars 
distributed for transportation--for bridges, for highway 
projects and for transit--do you feel that your city has a 
voice, has a say, in the prioritization and in the distribution 
of those dollars?
    Ms. Novak. I have to say, from my perspective in the Denver 
Metro area--and I am a board member for the Denver Regional 
Council of Governments, which is our MPO--we spend a tremendous 
amount of time prioritizing every single transportation project 
in the Denver Metro area.
    I think the funds that we get are used well. The difficulty 
is that there just are not enough of them. For example, I-25 
runs through my city. It is the major north-south interstate, 
and it runs from Canada down to Mexico. It is projected that, 
due to the growth and to the increase in usage, the capacity 
needs to be expanded by 200 percent.
    Right now, there are no funds available for at least 25 
years. An extra 83,000 homes will already be built, will 
already be impacted on a system that just cannot handle that 
capacity. The difficulty--you know, I heard some previous 
testimony in that there are bridge funds and that there are 
congestion mitigation funds and that there are highway funds, 
and that there are all of these different funding pots, but 
when I have a bridge that connects this side of my city with 
this side of my city over a major interstate, what is the best 
way to do that?
    Well, in order to meet the demands--current demands let 
alone future demands--that bridge really ought to be expanded. 
So where does the money come from? Does it come from the bridge 
fund because it is structurally deficient? Does it come from 
congestion mitigation? Does it come from capacity? Does it make 
sense to just build that bridge with bridge funds and ignore 
the roads on either side which happen to be State highways? 
Whatever we get, it is never enough.
    So, I think, in my experience in the Denver region, we are 
very good at prioritizing those funds, and we are very good at 
using the funds. The problem is the funds only get to the first 
5 out of a list of 50.
    Mr. Oberstar. So you have a council of governments that 
works together, that is involved in the transportation 
investment plan----
    Ms. Novak. Yes.
    Mr. Oberstar. --for the region.
    Is that plan then folded by the State into the STIP, the 
State Transportation Investment Plan?
    Ms. Novak. Yes, it is.
    Mr. Oberstar. Who then makes the final decision on 
priorities? You have done your priorities within the TIP, 
within the COG, and then that plan is submitted to the State, 
and the State evaluates all of its needs. Who makes that final 
decision?
    Ms. Novak. We worked out a memorandum of understanding with 
the State. As you have heard, there are donee States and donor 
recipient States. The Denver Metro area is a donee. We donate 
funds to the rest of the State, and we have an agreement that a 
certain amount of those funds will be spent in the Denver Metro 
area and that we work in connection with our Department of 
Transportation, who has an advisory seat on our board, to 
develop that plan. When we get the funds, the funds are spent 
according to the priorities that we have developed together.
    Mr. Oberstar. Are you aware that Colorado had the highest 
percentage increase of funds in SAFETEA-LU of any State in the 
Nation?
    Ms. Novak. Yes.
    Mr. Oberstar. 46.1 percent.
    Ms. Novak. And we greatly appreciate it. Thank you. We also 
are----
    Mr. Oberstar. That's a very nice response. I like that.
    Ms. Novak. Our local region also, as was mentioned by the 
previous witness, chose to tax ourselves to the tune of $4.6 
billion to build out a transit system. So we are working--you 
know, the transit system will be great, but if our roads are 
falling apart around it, that is not good. We need a 
comprehensive approach that takes all of these pieces and puts 
them together and funds them in a way that really makes sense.
    Mr. Oberstar. The T-Rex project that I have visited on 
several occasions at one point involved, over one weekend, 
raising an entire bridge and shoring it up and, in effect, 
rebuilding it from the base on up and putting it back in place. 
That was an extraordinary engineering achievement.
    Ms. Novak. And T-Rex has been a great success in Colorado. 
As you know, under Tabor, we have some difficulties in bonding, 
in long-term debt, in raising any kind of taxes without a vote 
of the people, which is not a bad thing, but as many people 
say, as wonderful as T-Rex is, it addressed a part of the 
problem, and there are many that say that we borrowed money 
from tomorrow to build a transportation system today that was 
needed 20 years ago. We are that far behind, and even then, 
with that kind of investment, the need is still tremendous.
    Mr. Oberstar. You mentioned the bridge in your town--in 
your city, I should say--of Northglenn.
    Ms. Novak. Northglenn. Uh-huh.
    Mr. Oberstar. Where is Northglenn?
    Ms. Novak. We are a Denver suburb about 10 miles of 
downtown Denver.
    Mr. Oberstar. Is it north?
    Ms. Novak. North, uh-huh, and we straddle I-25.
    Mr. Oberstar. My youngest daughter moved back to Colorado 
and her husband and daughter. They are in Fort Collins, but she 
was a speech pathologist in the Cherry Creek Elementary School 
system.
    Ms. Novak. No doubt she went through my city.
    Mr. Oberstar. Oh, yes. I have been out there many times to 
visit.
    In your setting, what are the stresses on the bridge 
structure--vehicle miles traveled, weight limits or weight 
pressures on the bridge? Is it functional concerns?
    Ms. Novak. Yes.
    Mr. Oberstar. Is it the freeze-thaw cycle? Is it salting or 
de-icing?
    Ms. Novak. Uh-huh.
    Mr. Oberstar. All of the above?
    Ms. Novak. All of the above. In addition, we have the 
occasional semi which rams into the bottom of it, which is not 
helpful either.
    Mr. Oberstar. Ah.
    Ms. Novak. That happened at another bridge where it 
actually hit the bridge, and that bridge went from like number 
300 on the priority list to number 1 and was able to get funded 
and repaired, but yes, all of those things and capacity. That 
is, you know, a big thing as well. You get more people driving. 
The Denver area is just booming, and we are not keeping up. A 
pay-as-you-go transportation system, which is what we have 
traditionally done in Colorado, is not keeping up with the 
needs and with the investments required.
    Mr. Oberstar. What is the basis of the funding of 
Colorado's share of bridge and highway and transit investments?
    Ms. Novak. I do not know. I do not have that.
    Mr. Oberstar. Is it from the State general fund?
    Ms. Novak. Oh, yes, it is.
    Mr. Oberstar. So you do not have the State equivalent of 
the Federal Highway Trust Fund?
    Ms. Novak. I do not believe we do, and out of that general 
fund, of course, only about 25 percent is really available for 
annual appropriations outside of the things that the State is 
committed to, and so those, you know, transportation dollars 
are competing with health care and higher ed and K through 12 
and open space, which is huge in Colorado as well, and it is 
not glamorous.You know, it is hard to make the case for roads 
and bridges when it is easier to sell education and wildlife 
and open space.
    Mr. Oberstar. Well, that is where the Federal Highway Trust 
Fund has been so effective and successful. People pay the tax 
at the pump or the user fee at the pump, and they know it goes 
into the fund that is reserved only for transportation 
purposes. Even though, over time, funds have been withheld to 
build up surpluses in the Highway Trust Fund, they cannot 
physically be used for anything else. They can just be borrowed 
against but not physically transferred; whereas, your general 
revenue dollars are fungible. They can be moved around to other 
programs.
    Now, within the context of the Federal Surface 
Transportation Program, we give States great flexibility to 
move dollars around. They can flex up to 50 percent of their 
bridge allocation to the National Highway System or to the 
Surface Transportation Program, and they can flex money out of 
those into bridges, but States have chosen to shift 
$4,700,000,000 over the last decade out of the bridge program 
into other needs, and then we have the Secretary coming to us 
and saying, well, Congress has not prioritized funds and has 
not done a good enough job. Well, wait a minute. We gave the 
States, at their request, authority to shift dollars among 
categories, and then they wind up with a deficit in their 
bridge program. It is not our problem. It is theirs.
    In the future, maybe we need to be more restrictive about 
certain programs and how much money can be shifted about.
    Ms. Novak. You know, I think it is difficult. The 
flexibility is much appreciated, you know, as I gave the 
example earlier. If a project is going to cost $60 million and 
you do not have enough in this fund, this fund, this fund or 
this fund or you partition it out, you cannot get the whole 
project done, so it never gets started. If you do not have full 
funding, it does not make sense to build the project. I have an 
example in my city. We have got a road, and we have deferred 
maintenance because we had other needs. We made other choices. 
We had other priorities. Now the road is to the point where the 
only way to fix it is to reconstruct the entire thing. The cost 
to reconstruct that road is $10 million. My general fund's 
annual budget is $20 million. I have no--there is nowhere to 
get the money. We cannot raise it. We cannot raise taxes. We 
cannot borrow. We cannot bond it without going to a vote, and 
then how do you sell that against, you know, a recreation 
center or a library? So we can partition it. We will do the 
design this year. In 5 years, we will do phase 1, and in 10 
years, we will do phase 2. Then by the time we get to phase 3, 
phase 1 needs to be rebuilt again. It is a huge dilemma.
    Mr. Oberstar. And the cost of the construction dollar 
continues to erode?
    Ms. Novak. Correct.
    Mr. Oberstar. It has eroded 47 percent in the last 15 
years, but we cannot build $1 highways for 43 cents.
    Ms. Novak. Right.
    Mr. Oberstar. It just does not make sense.
    Ms. Novak. As we are updating our transportation plan in 
the Denver Metro area from the 2030 plan to the 2035 plan, we 
have to cut out $800 million in projects just because of the 
increased cost projections, so those bottom ones--we just keep 
lopping off the ones at the bottom in order to fund the 
priorities that are identified at the top.
    Mr. Oberstar. When a bridge is not available, as you 
described a moment ago, there are economic consequences, are 
there not?
    Ms. Novak. Not only economic, but public safety. I only 
have two bridges that cross my city. What happens when my 
police officers are on one side and a citizen needs help on the 
other? They would have to drive 10 miles out of their way to go 
up to the next bridge to cross the highway to respond. So it is 
a public safety matter.
    Mr. Oberstar. And that is what is happening in Minneapolis 
where Mayor Rybak--I know he had to catch a flight back to 
Minneapolis, and the schedules have become more restrictive, 
unfortunately. I had the same experience in flying back and 
forth.
    But the bridge collapsed, on the one side, on a lock 
operated by the Corps of Engineers. On the other side is a 
railroad. The lock moves 2 barges a day of aggregate, sand, 
gravel and other materials, principally for construction. That 
means 275 additional trucks on the highway daily because that 
bridge shut down. On the other side, shutting off the rail, 
that means another 40 or 50 trucks on the roadway to haul the 
goods, and the trucking sector is strapped. They do not have 
enough trucks to haul all of the goods. They do not have enough 
drivers to move. The railroads do not have enough capacity, and 
so you shut down the barge line and the rail line at the same 
time because of a bridge collapse. That does not make economic 
sense whatsoever.
    Mayor, thank you very, very much for your patience and for 
being with us today and for your contribution to our hearing. 
We are very grateful to you.
    Ms. Novak. Well, thank you for the time and for the 
opportunity.
    Mr. Oberstar. Thank you.
    Now, I am happy to welcome to the Committee my colleague, a 
new Member of Congress from the State of Minnesota, Mr. Keith 
Ellison, representing the city of Minneapolis, in whose 
district this bridge collapsed and who responded instantly that 
day. I remember when that story came out, and the gentleman met 
me on the House floor and said, "I am heading back tonight." He 
had his bag packed, and he was on his way.
    So thank you for being here for the resolution that was 
offered on the House floor today and that Mr. Walz managed on 
behalf of the Committee, and thank you for your splendid 
response to all of the needs of the citizens. I have heard many 
comments about your care, of your concern, of your personal 
intervention.

   STATEMENT OF THE HON. KEITH ELLISON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Ellison. Thank you very much, Mr. Chair. It is, indeed, 
an honor to be before the Transportation and Infrastructure 
Committee.
    I would like to start by thanking you, Mr. Chair, for 
holding this Committee hearing, and also Ranking Member Mica, 
and this is a very important and timely hearing on structurally 
deficient bridges. I would like to recognize Mayor R.T. Rybak 
for his tremendous leadership during the bridge collapse 
crisis. Mayor Rybak and his fellow elected county and State 
officials made Minnesota and our Nation proud with their strong 
and steady leadership during this calamity. I also want to 
thank Governor Pawlenty, Transportation Secretary Peters, and 
the NTSB for all of their work.
    Lastly, let me also thank the heroic efforts by first 
responders--firefighters, police officers, emergency medical 
personnel--whose heroism in the first minutes and hours after 
the bridge collapsed saved many lives, many lives, and saved 
many other people from more severe injuries that they would 
have suffered.
    Mr. Chair, I did take a moment to visit several hospitals 
in the Twin Cities area and the people who were in the bridge 
collapse, and many people had serious back injuries and others, 
and I am glad that that quick action by our first responders 
was able to minimize their injuries in many cases.
    As you may know, the tragic collapse of interstate 35W 
occurred within the 5th Congressional District, which is my 
district. It has been widely reported that the interstate 35 
bridge was "structurally deficient." In fact, according to the 
U.S. Department of Transportation, one out of every eight 
bridges across the Nation is in that same category of 
"structurally deficient." In my home State of Minnesota, about 
10 percent of the 13,000 bridges in the State were recently 
rated as "deficient." So the problem of structurally deficient 
bridges is not a theoretical one for any of us in America. It 
is a very real issue that demands our attention today so that 
other communities across the Nation can be spared the grief 
that my district and State had to bear on August 1st when the 
Interstate 35 bridge collapsed.
    I also want to thank again, Mr. Chair, you and all the 
Members of Congress who responded in a unanimous way to 
authorize the money for the reconstruction of the bridge. Of 
course, we have a little more work to do with the actual 
appropriation, but I am confident we will take care of that.
    As you know, Mr. Chair, we lost 13 Minnesotans. These were 
good people, one and all. The individuals were mothers, 
fathers, children, workers, good people, one child yet unborn, 
still growing in its mother's womb.
    Let me conclude, Mr. Chair, by respectfully asking this 
Congress to regard this tragedy as a national call to action to 
refocus on our domestic infrastructure. I want to join you in 
your call for that same thing, Mr. Chair, and I want to 
congratulate you on your bold efforts recently, but also on 
your prophetic efforts over the last number of years, I 
believe, even decades, when you, in a very prescient way, knew 
that we were heading down the wrong path with respect to 
investment in our basic infrastructure.
    Quite frankly, Mr. Chair, I would have far preferred that 
your good advice would have been fully embraced so that we 
would not be in this situation, but your words were prophetic 
when they were made many years ago, and I want to join with you 
in your call to action for our Nation.
    On August 1st, we, as a Nation, were united in grief, Mr. 
Chair, for the victims, and later, were united in the recovery 
and healing efforts. I, myself, went to several funerals. Now 
let us be united in rebuilding our Nation's ailing public 
infrastructure. For, if the Nation is a body, our 
infrastructure is the skeleton that holds it up.
    I will look forward to working with this Committee and with 
other Members of Congress in making a new national commitment 
to public infrastructure in America.
    Thank you, Mr. Chair.
    Mr. Oberstar. Thank you very much for your kind words but, 
more importantly, for your public service and for how you 
conducted yourself in those tragic days after the collapse of 
the bridge. You showed yourself to be a person of not only 
compassion, but of action.
    Mr. Ellison. Thank you, sir.
    Mr. Oberstar. I said in the aftermath of the bridge, after 
we had passed the emergency relief bill and began drafting the 
proposal, that we have to act so that those who died will not 
have lost their lives in vain, that Minnesota and the Nation 
will have learned the lesson and will have acted on that 
lesson.
    In light of what I initiated 20 years ago on hearings of 
bridge safety out of which we simply got a national bridge 
status inventory, that is all it is, it would be immoral if I 
did not act further. I was Chairman of the Subcommittee then, 
of the investigative Subcommittee. We did not have legislative 
authority, but we signaled the problem. We made 
recommendations. We urged the Congress and the then Reagan 
administration to take action 20 years after the Silver Bridge 
collapsed, and we heard Ms. Capito talk about the effect in her 
district. Well, now we have had another one, and by damn it, it 
is not going to happen again if I have anything to say about 
it, and I thank the gentleman for his contribution.
    Mr. Ellison. Thank you, sir.
    Mr. Oberstar. When we draft the bill, I will invite the 
gentleman to be an initial cosponsor.
    Mr. Ellison. Let me embrace that on the record.
    Mr. Oberstar. Thank you.
    Our next panel includes Mr. Bob McFarlin of the Minnesota 
Department of Transportation. He is the Assistant to the 
Commissioner for Policy and Public Affairs; Dan Dorgan, who is 
the Director of the Office of Bridges for the Minnesota 
Department of Transportation; Kirk Steudle of the Michigan 
Department of Transportation. He is the Director of the 
Michigan DOT; the Chief Engineer for Virginia's Department of 
Transportation, Malcolm Kerley; the County Engineer of Palm 
Beach County, Florida, George Webb; and Susan Miller, the 
County Engineer for Freeborn County, Minnesota.

TESTIMONIES OF BOB MCFARLIN, ASSISTANT TO THE COMMISSIONER FOR 
      POLICY AND PUBLIC AFFAIRS, MINNESOTA DEPARTMENT OF 
   TRANSPORTATION, ACCOMPANIED BY DAN DORGAN, BRIDGE OFFICE 
DIRECTOR, MINNESOTA DEPARTMENT OF TRANSPORTATION; KIRK STEUDLE 
   DIRECTOR, MICHIGAN DEPARTMENT OF TRANSPORTATION; MALCOLM 
KERLEY, CHIEF ENGINEER, VIRGINIA DEPARTMENT OF TRANSPORTATION; 
 GEORGE WEBB, COUNTY ENGINEER, PALM BEACH COUNTY, FLORIDA; AND 
   SUSAN MILLER, COUNTY ENGINEER, FREEBORN COUNTY, MINNESOTA

    Mr. Oberstar. We are very grateful to have you 
participating with us today. Thank you for being with us, for 
your patience, and we will just start from left to right.
    Mr. McFarlin, I regret that the Governor was not able to 
participate or the Lieutenant Governor, but we have two people 
of signal competence who represent the State of Minnesota.
    Mr. McFarlin. Thank you, Mr. Chairman.
    Chairman Oberstar and Members of the Committee, thank you 
for this opportunity.
    August 1st was a tragic day for Minnesota and for the 
Nation. Thirteen people died in the collapse of the I-35W 
bridge, and many more were injured. We continue to mourn those 
who died; we comfort their families, and we are tending to the 
injured. We will not forget them nor this tragedy.
    Our thanks go to you, Mr. Chairman, and to Members of the 
Minnesota Congressional Delegation and to the entire Congress 
for quickly authorizing $250 million in emergency relief funds. 
The Congress' overwhelming bipartisan support has been 
gratifying to Minnesotans. We also thank the Bush 
administration and the Federal agencies for the outstanding 
cooperation in helping Minnesota deal with this tragedy. Our 
appreciation also goes to the National Transportation Safety 
Board for its thorough approach in investigating the cause of 
the collapse.
    Today, there is one thing we know for certain. We do not 
know what caused the bridge to collapse. Minnesota is confident 
that the NTSB has the expertise to identify the cause, and we 
have pledged our cooperation in every way possible.
    Immediately following the collapse, Governor Pawlenty 
ordered MNDOT to begin an accelerated program to inspect all 
3,800 bridges on the State highway system by the end of the 
year. 1,650 have been inspected as of August 31st, and the rest 
will be completed by December 1st. The inspection program is 
prioritizing bridges classified as "structurally deficient." 
Current data shows 127 structurally deficient bridges on 
Minnesota's State highway system. To date, 102 have been 
inspected. Minnesota also has 230 fracture critical bridges on 
State and local systems. MNDOT will inspect all fracture 
critical bridges, and to date, 81 inspections have been 
completed.
    When the final victim was recovered on August 19th, MNDOT 
began the debris removal process in earnest. Bridge debris is 
being removed methodically under the direction of the NTSB. 
MNDOT anticipates completing debris removal and site cleanup in 
mid-October. Minnesota has also begun the process of rebuilding 
this important regional connection. The I-35W bridge carried 
141,000 vehicles per day, including 5,700 commercial vehicles. 
The loss of this vital link is costing road users and the 
regional economy in excess of $500,000 per day.
    It is in the public interest to reconstruct this interstate 
without delay. The new bridge, which will be built as a design-
build project, has a target completion date of late 2008. 
Safety will not be sacrificed for schedule, and quality will 
not be compromised in either design or construction. MNDOT's 
preliminary design calls for ten lanes of traffic, two lanes 
wider than the former bridge. This additional capacity will be 
dedicated to future transit service, including managed lanes 
and bus rapid transit. The bridge will also be built 
structurally capable of carrying light rail transit in the 
future. Principal funding for the rebuilding project will come 
from the U.S. DOT's Emergency Relief Program. The current cost 
estimate for the new bridge is $200 million to $250 million. 
The project's RFP has been advertised, and MNDOT expects to 
award the contract by the end of September with construction 
beginning as soon as mid-October.
    Mr. Chairman, this tragedy was especially shocking because 
Minnesota has one of the strongest bridge programs in the 
Nation. Minnesota currently ranks the sixth best in the Nation 
in terms of the fewest number of deficient bridges. In recent 
years, Minnesota's spending on bridges has consistently 
exceeded targeted Federal bridge funding. Minnesota's total 
Federal apportionments under the Federal-Aid Bridge Program 
under the last 5 years have been $185 million for State, county 
and local bridges. Our obligation limit under SAFETEA-LU has 
been 85 to 90 percent, effectively reducing the spending 
authority for this program to, roughly, $160 million.
    Since 2003, MNDOT has invested $390 million in the 
replacement or repair of State bridges alone, more than twice 
the amount available from Federal bridge funds for all 
jurisdictions. Minnesota routinely uses flexible funds from 
other Federal funding categories--the NHS, Interstate 
Maintenance and the Surface Transportation Program to pay for 
bridge repair and replacement projects.
    The NTSB investigation into the cause of the collapse may 
take up to 14 months, as Chairman Rosenker mentioned. Until the 
cause is determined, it is difficult to make specific 
recommendations on changes to bridge design, construction, 
inspection, and maintenance practices. Such changes, when they 
occur, should reflect NTSB findings and also be based on 
recommendations from organizations such as the Federal Highway 
Administration and the American Association of State Highway 
and Transportation Officials.
    Again, Mr. Chairman, I want to thank you and this 
Committee, the Minnesota Congressional Delegation and the 
entire Congress for so quickly coming to Minnesota's aid in 
this tragedy. We are also grateful for the response and 
continuing support of the administration and Federal agencies. 
It is imperative that we continue to work together to maintain 
the public's faith in the Nation's highways and bridges.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you for your testimony.
    I was on the House floor, managing the conference report on 
the Water Resources Development Act, which was the culmination 
of 7 years of work. It had not moved through three previous 
Congresses. We moved it through this Committee in 6 weeks. We 
moved it to the House floor in the 7th week, and then it took 
all the rest of the time to get it through conference with the 
Senate. Just as we were concluding action around just a little 
after 7:00 o'clock here, I got notice on my BlackBerry that the 
bridge had collapsed in Minnesota. I could not believe it. In a 
third world country but not in Minnesota.
    So I sat that evening with Committee staff and drafted the 
necessary language to remove the cap of the $100 million annual 
limitation on emergency relief, a $100 million cap per State, 
plus other provisions and the funding for alternative 
transportation under the transit program of $5 million. We 
introduced the bill that night. We had a markup scheduled in 
this Committee the next meeting, the regularly scheduled 
markup. So I am the Chairman. I can call it up. We moved it 
through Committee, and then we had to get a special rule to 
bring the bill to the House floor, and in 48 hours, we had that 
passed. I have not seen anything pass that fast in this 
Congress or in any Congress in a long time.
    Mr. Steudle.
    Mr. Dorgan, do you have separate testimony?
    Mr. Dorgan. No. Mr. Chairman, no. I am just here to help 
Mr. McFarlin answer questions.
    Mr. Oberstar. I greatly appreciate the opportunity to visit 
with you and with other members of the engineering staff of the 
MNDOT.
    Please proceed.
    Mr. Steudle. Mr. Chairman, representatives, thank you for 
allowing me the opportunity to testify today regarding the 
state of our bridges and Chairman Oberstar's National Highway 
System Bridge Reconstruction Initiative.
    My name is Kirk Steudle. I am the Director and the Chief 
Executive Officer of the Michigan Department of Transportation.
    First of all, I would like to express my sympathy to the 
families who have suffered because of this tragic collapse of 
the I-35W bridge in Minneapolis. When a tragedy like this 
occurs, it ripples across the transportation industry. It might 
be a big country, but we are also a small community of 
transportation professionals. Believe it when I say that we 
transportation professionals take that very much to heart.
    Now, more funding for bridges is clearly needed, and I 
strongly urge you not to stop there. Additional funding should 
be combined with sound, long-term, data-driven, asset 
management practices. I emphasize that because Federal road and 
bridge funding programs have not kept pace with the state of 
the practice of asset management, and the rules that govern the 
use of those funds are not always compatible with good asset 
management practices and principles.
    For example, in the past 2 years, MNDOT has spent less than 
90 percent of our Federal bridge funds, not because we were not 
investing in bridges, but because the rules for those funds 
were too restrictive, and they were not compatible with MNDOT's 
asset management approach.
    As part of that approach, we inspect bridges more 
thoroughly and more often than required by Federal law. We set 
strategic goals for road and bridge preservation. We manage our 
network of bridges, slowing the deterioration with capital 
preventative maintenance. In order to achieve our bridge goals, 
we had to look outside the Federal Highway Bridge Program. We 
made a choice to dedicate an additional $75 million annually in 
State funds just for bridge preservation. Now, to put that in 
context, our entire bridge program for the next 5 years 
averages $190 million. $100 million of that is Federal funds. 
$90 million of that is State funds, State funds that are 
generated by gas tax revenues at the State level and 
registration fees.
    An asset management approach keeps bridges from 
deteriorating and systematically upgrades those in poor 
condition. In 1998, Michigan improved just over 100 
structurally deficient bridges each year and added about 162 
other bridges a year to that list. Fixing the worst first was a 
losing proposition because, as we focused all of our attention 
on the worst bridges, other bridges were still deteriorating. 
We were in a hole that we could not easily get out of, but 
today, as a result of our data-driven asset management choices, 
we are making progress. We have completely reversed those 
numbers, improving about 145 bridges a year off of the 
structurally deficient list while only adding 86 onto the list.
    If you put them in percentages, in 1998, we had 21 percent 
poor bridges. Today, that number is down to 14 percent, all in 
a time frame of when we had a significant amount of interstate 
bridges that were built in the 1950s and 1960s that were coming 
into that population and needing significant work. With MNDOT's 
experience in mind, I would like to recommend that you revise 
the Federal Highway Bridge Program to allow the full 
expenditure of bridge funds under an asset management approach. 
To do this will require some very specific changes.
    First, eliminate the 10-year rule that prevents DOTs from 
using Federal bridge funds on a bridge more than once in 10 
years so that you can pursue less expansive and less expensive 
preventative maintenance and bridge repairs so that you can 
preserve the bridge before it deteriorates.
    Second, eliminate the 100-point sufficiency rating system 
and the arbitrary cutoff points for bridge funding eligibility. 
If the State has an asset management program in place, it 
should be able to use the Federal funds for the slate of bridge 
projects to manage the whole bridge network, all of them 
together, effectively preserving the bridge network. If you do 
need to keep the sufficiency rating, at least give us more 
flexibility.
    For example, today, States are not allowed to use Federal 
bridge funds to improve a structurally deficient bridge deck if 
other elements, such as the superstructure or the substructure, 
are still in good condition.
    Let me give you a specific example. In Michigan, we have 
608 structurally deficient bridges. 223 of those bridges are 
because the bridge decks are poor. The superstructure and 
substructure are rated in fair or good condition. Those 223 
bridges are not eligible for the Highway Bridge Program funding 
right now. 43 of those are serious. They are rated at a 3 going 
back to that rating scale. So we are using the State funds to 
replace those bridge decks. From an asset management 
standpoint, this simply does not make sense because the 
structurally deficient bridge deck actually accelerates the 
deterioration of other bridge elements. It is like saying you 
will not replace the shingles on your leaky roof until the 
moisture has destroyed the drywall or cracked the foundation.
    In conclusion, let me say that a short-term bridge program 
is a good start, but I strongly encourage you to remember that 
the same challenge exists for the entire transportation system. 
They just have not been visibly and tragically demonstrated as 
they were recently with bridges. Bridges are tied to the roads 
that they connect. Many of Michigan's structurally deficient 
bridges are on major freeways that are also in need of repair. 
In many cases, we just cannot fix the bridges without doing all 
of the major roadwork at the same time.
    As you heard from the Mayor from Colorado, many of those 
are massive, very expensive projects that, even at a State 
level, we would have trouble pulling those amount of resources 
together to pay for them.
    So thank you, Chairman Oberstar, for bringing this 
important and necessary debate on bridge funding and the 
programmatic reforms to the forefront.
    Mr. Oberstar. Thank you very much for that very 
enlightening testimony, which I will return as we get into the 
questions.
    Mr. Kerley.
    Mr. Kerley. Good afternoon.
    Mr. Chairman, my name is Malcolm Kerley. I am the Chief 
Engineer for the Virginia Department of Transportation. I chair 
the Highway Subcommittee on Bridges and Structures of the 
American Association of State Highway and Transportation 
Officials, AASHTO.
    On behalf of AASHTO, I want to thank you for holding this 
hearing and want to express our support for your proposed 
National Highway System Bridge Reconstruction Initiative. I am 
here to provide you and the public with the answers to some 
critical questions that have arisen since the tragic collapse 
of the interstate 35 West bridge.
    What have the States done since the accident to make doubly 
sure that the Nation's bridges are safe? How are States 
investing their money? Are the current funding levels adequate 
for the job at hand?
    The State Departments of Transportation consider bridge 
safety and preservation to be one of our highest priorities and 
a responsibility we take very seriously. Every State conducts a 
thorough and continuing bridge inspection and rehabilitation 
program. America's bridges are inspected at least every 2 years 
by trained and certified bridge inspectors. Conditions are 
carefully monitored, and where deterioration is observed, 
corrective actions are planned and taken. While we know all 
States comply with the Federal bridge inspection standards, 
each State has a responsibility to ensure that it develops a 
more detailed program appropriate to its unique circumstances. 
Since August 1, in compliance with the Federal request, every 
State has reviewed, inspected or is in the process of 
inspecting its steel deck truss bridges.
    Based on reports from this review, it appears that all of 
these bridges are safe. Nonetheless, of the almost 600,000 
bridges across the country, roughly 74,000, or 12.4 percent, 
are classified as "structurally deficient." This means that one 
or more structural condition requires attention. This may 
include anything from the simple deck repairs to the 
reinforcement of support structures. Classifying a bridge as 
"structurally deficient" does not mean that it is unsafe, but 
it does mean that work needs to be done.
    How are States spending their bridge funding? As age and 
traffic take a toll on bridge conditions, States wage a daily 
campaign to preserve them in good condition. The good news is 
that, since 1990, States have reduced, by almost half, the 
number of structurally deficient bridges on our Nation's 
highways. Reports alleging a diversion of Federal bridge funds 
are misleading because they focus only on the Federal bridge 
program data and fail to look at the total picture of all 
resources States commit to bridge improvements. The fact is 
that States are spending dramatically more money on bridges 
than is provided under the Highway Bridge Program.
    In 2004, the Federal Highway Bridge Program provided $5.1 
billion to the States. States actually spent $6.6 billion in 
Federal aid for bridge rehabilitation. State and local funding 
added another $3.5 billion for bridge repairs. As the FHWA 
reports, in 2004, a total of $10.5 billion was invested in 
rehabilitation by all levels of government. Transfers from 
Federal programs are simply a project management tool used by 
States and do not reflect actual levels of State bridge 
spending. Once again, in 2004, $10.5 billion was invested by 
all levels of government, and $5.1 billion was given to the 
States through the Federal Highway Bridge Program.
    Are the current levels adequate for the job at hand? 
Clearly, the answer is no. A huge backlog of bridge needs still 
remains. According to the U.S. DOT 2006 Conditions and 
Performance Report, needed repairs on the National Highway 
System bridges alone totaled over $32 billion, which includes 
over $19 billion needed on the interstate highway system. 
SAFETEA-LU increased guaranteed spending levels for highway and 
transit by 38 percent over the previous bill, but for the 
bridge program, SAFETEA-LU increased annual funding levels by 
only 6 percent. That funding has been eroded by dramatic 
increases in material costs--steel, concrete, fuel, asphalt--
which have increased an average of 46 percent from 2003 to 
2006. Thus, we are left with a program that does not have 
enough funding to overcome the system backlog.
    AASHTO commends you, Mr. Chairman, and your efforts to 
improve the national transportation infrastructure. This bridge 
rehabilitation proposal is a good first step. We also recommend 
streamlining processes that delay needed repairs on our 
Nation's highway system and allowing the use of proprietary, 
engineering-related projects that could spur innovation and 
long-term solutions.
    The tragic Minneapolis bridge collapse has rightly focused 
us to examine our bridge programs nationally. AASHTO and the 
State DOTs stand ready to act upon any recommendation of the 
National Transportation Safety Board and to work with the 
Congress to address the Nation's transportation investment 
needs.
    I appreciate the opportunity to be here, sir.
    Mr. Oberstar. Thank you very much, Mr. Kerley. Please give 
my greetings to your commissioner----
    Mr. Kerley. Yes, sir.
    Mr. Oberstar. --Mr. Ekern, who served in Minnesota and in 
my district, with great distinction.
    Mr. Kerley. Yes, sir. I sure will.
    Mr. Oberstar. Thank you.
    Mr. Webb.
    Mr. Webb. Good afternoon, Mr. Chairman and Members of the 
Committee. My name is George Webb, and I am the County Engineer 
in Palm Beach County, Florida.
    Today, I am representing the National Association of 
Counties and the National Association of County Engineers 
where, this year, I serve as its President. County engineers 
and elected county officials consider bridge safety to be one 
of our top priorities and take this responsibility very 
seriously.
    First, I want to thank the Chairman and the Committee for 
the opportunity to present a local government perspective on 
the status and condition of bridges. In my county, an urban 
county with a population of over 1 million, my highway and 
bridge budget is about $140 million annually. We have 230 
county bridges identified in the National Bridge Inventory 
System, and we are very fortunate that only one is considered 
structurally deficient, but we have 49 that are functionally 
obsolete. This is due to the fact that, because of our 
financial emphasis on system preservation and growth-related 
investments, the majority of the bridges in my county were 
built or rebuilt in the last 30 years. Statewide in Florida, 
there are 260 structurally deficient bridges with 204 owned by 
local governments and 56 by the State.
    However, over the next decade or so, Palm Beach County's 
bridges will be wearing out, in part because of the high 
traffic volumes. Some of our bridges carry over 50,000 vehicles 
per day, which is more traffic than many rural interstates. 
Palm Beach County already knows that we face having to replace 
three drawbridges in the next 10 to 15 at a cost of $50 million 
each.
    We simply do not have the funds for this. In contrast, the 
State of Florida also needs to replace another three to five 
drawbridges on the State system in my county, and they have 
access to both State gas tax revenue and the Federal bridge 
program to pay for these projects.
    As regards to bridge inspection, I have three staff that 
are certified to inspect bridges. More of my staff need to be 
trained, but we find that the National Highway Institute 
training programs, at least in Florida, have very limited slots 
for local governments. Let me add that, nationally, the bridge 
situation is more critical for local governments. Of the almost 
600,000 bridges in the United States, about 50 percent are 
owned by local governments. Of the 73,784 bridges rated 
structurally deficient, about 70 percent, or 52,000, are owned 
and maintained by local governments, mainly counties. 6,175 
bridges on the National Highway System are almost all State-
owned. However, in 38 of the 50 States, a higher percentage of 
local government bridges are deficient than State bridges, and 
in 31 States, the total number of local deficient bridges is 
higher than all State-owned bridges.
    The National Highway System Bridge Reconstruction 
Initiative proposes a trust fund approach modeled after the 
Highway Trust Fund and financed through a dedicated source of 
revenue. We generally support this concept for funding the new 
bridge program. That being said, we do feel the reach of the 
proposed legislation is somewhat limited and should be more 
inclusive and expanded to include all structurally deficient 
bridges, not just those on the National Highway System.
    Non National Highway System bridges that are structurally 
deficient do pose a threat to public safety and are often very 
important to a regional economy. In addition, we would 
recommend no requirement for a State or local match, which will 
get the new funds out to projects much more quickly and will 
not compete with other infrastructure needs by taking away 
State and local matching funds that have already been committed 
to other needed projects.
    Finally, we are concerned as to what would happen with the 
existing Federal Highway Bridge Replacement and Rehabilitation 
Program in the next highway reauthorization if this new bridge 
program becomes law. We wonder if this could lead to local 
bridges' no longer being eligible for Federal bridge funds. 
Finally, all levels of government need to continue to strive to 
accomplish system preservation on our deficient bridges. System 
preservation is not the replacement project of the major 
rehabilitation, which seems to grab the headlines, but instead, 
it is a containment program of inspection, maintenance and 
minor repairs needed to both maintain and to extend the life of 
the structure. We in local government have emphasized and have 
remained committed to system preservation, but we need your 
help in getting to a point where system preservation could more 
effectively be accomplished. Therefore, we strongly urge 
Congress to proceed on this new and, hopefully, expanded 
initiative to restore our bridge infrastructure nationwide.
    This completes my testimony, and I will be happy to respond 
to any questions.
    Mr. Oberstar. Thank you very much for your comments. Again, 
they were very thoughtfully delivered and carefully prepared.
    Ms. Miller, welcome from Southern Minnesota.
    Ms. Miller. Good afternoon, Chairman Oberstar and Members 
of the Committee. It is an honor for me to be here today.
    My name is Susan Miller. I am the Freeborn County engineer 
in Southern Minnesota. Today, I am here representing the 
National Association of Counties and the National Association 
of County Engineers where, this year, I serve as its president-
elect.
    Freeborn County is a small, rural county in the south 
central portion of Minnesota, bordering Iowa, with a population 
of about 32,000 people. We have 176 bridges, identified in the 
National Bridge Inventory System, of which only 13 are 
considered "structurally deficient," and we have none that are 
classified as "functionally obsolete." We have submitted that 
it will take about $3.5 million for us to replace those 13 
structures. By comparison, my neighbor in the county of 
Fillmore, with a population of about 22,000, has 165 
structurally deficient bridges out of their total of 465 
structures. Their county engineer estimates that that is nearly 
$50 million of transportation investment needed to replace 
those structures.
    Freeborn County does not receive Federal bridge funds but 
applies for bridge money from the State of Minnesota's local 
bridge fund. Not all States provide an opportunity for funding 
local bridges that way. NACO and NACE would like to determine 
how much of the Federal bridge program funds get spent on 
bridges that are owned by local governments. There has been a 
lot of discussion here today about what money is being spent 
where and on what systems, and NACE and NACO would like to 
encourage the Committee to pursue that initiative with the 
Federal Highway Administration tied on it by how much money is 
being spent on which bridges, whether they are locally owned, 
NHS bridges in a structurally deficient system.
    Let me indicate how important Federal bridge funds are to 
many local governments, though. Unlike Federal and State 
governments that rely on user fees for highway funding, local 
governments rely primarily on our own source revenue, or local 
property taxes. Raising property taxes is often unpopular 
politically, as you all know, and from the perspective of many 
local citizens, the disconnect is there between raising 
property taxes and improving bridges. They do not see a direct 
connection. It is not a user fee-based system. While we 
understand the National Highway System is the backbone of our 
transportation network, I ask your consideration to not leave 
rural local government out of increased Federal funding for 
bridges. We just will not be able to raise property taxes 
enough to meet all of the needs of our users.
    I want to stress that, every day, even in our Nation's 
rural areas, we face situations which could result in 
catastrophic collapses of one of our bridges. Perhaps the most 
amazing image captured after the I-35 tragedy was that of the 
dangling school bus where, thankfully, all were safe. As a 
mother of four wonderful kids, no picture haunted me more than 
that image of that school bus on that bridge, especially with 
yesterday being the first day of school and putting my kids on 
a bus and knowing that that bus goes across bridges that I am 
responsible for.
    I also think about the economic importance of bridges in 
rural areas. In my county, for example, renewable fuel 
production has emphasized how vital our transportation system 
is. We support one of the country's leading bio diesel 
producers with an annual output 30 million gallons per year 
and, additionally, two ethanol plants with an output of nearly 
105 million gallons per year. A collapsed, closed or weight-
posted bridge can have a tremendous negative economic impact to 
agriculture, mining or logging industries in our rural 
communities.
    We also have some observations on the bridge inspection 
program and the adequacy of training for local bridge 
inspectors. The current regulations note that State DOTs are 
the responsible party for inspections of all non-Federal 
bridges regardless of ownership. However, it should be noted 
that some States delegate this authority to counties. The 
opportunity, availability and affordability of training are 
concerns to local agencies throughout the country. In some 
States, no Federal funds are made available to local 
governments for these inspections. The qualifications for 
personnel implementing the inspection program require that the 
State or a delegated agency must be accomplished by a licensed 
Professional Engineer and have completed the Federal Highway 
Comprehensive Bridge Inspection training programs. Many 
counties in some States do not even have licensed county 
engineers or licensed professional engineers and have very 
limited staff. I believe the education and training package may 
be appropriate, but it is very costly to local government 
agencies, especially small ones.
    The consideration of a tiered approach should be explored 
based on the types of bridge structures inspected. Many local 
agencies own bridges that are relatively simple structures. We 
do not have a lot of lift- or suspension-type bridges or other 
complex structures. Additionally, as noted by the previous 
witness, the National Highway Institute training is offered 
primarily to State agencies, and it is very difficult for local 
agencies to be able to get one of those slots and attend that 
training.
    We continue to encourage the repackaging of the National 
Highway Institute training and use the Local Technical 
Assistance Program as an avenue to reach out to locals and to 
get that training down to our systems in the most effective 
manner.
    This completes my testimony. I would be happy to answer any 
questions.
    Mr. Oberstar. Again, thank you very much for the view from 
local government where the rubber really does meet the road in 
a very direct and powerful way.
    I want to welcome Ms. Drake, the gentlewoman from Virginia, 
as acting Ranking Member. Thank you very much for being with 
us.
    Mr. Westmoreland, thank you very much for being with us 
today, too. I am sorry. I did not notice you there.
    Mr. Westmoreland. That is okay.
    Mr. Oberstar. Okay. Now, what are the techniques that you 
use to conduct bridge inspections? What I am looking for are 
commonalities among the States and the counties in conducting 
bridge inspections.
    The reason I ask--it is quite transparent--is that, 20 
years ago, we found that there were not common standards used 
among the States for bridge inspections. One witness, the Ph.D. 
engineer for the Center For Auto Safety, said bridge 
maintenance and inspection is in the Stone Age. This was 20 
years ago. We highlighted a number of the issues, the needs to 
be addressed, and States have responded, but still, it is quite 
apparent that each State has different practices. You heard me 
describe earlier the statement of 20 years ago. Eyes are the 
best inspection tool. Many people still believe that is the 
standard, the use of a device to drag chains across a bridge 
and then listen to the sound and see whether it sounds right or 
it sounds odd. Many engineers have told me, "Oh, you know, that 
is really a very reliable way of testing a bridge," and they 
are on the front lines. They are doing it, but you have to 
wonder about that. So I want to get your--I will start with Ms. 
Miller and work our way to the right.
    Ms. Miller. Well, Mr. Chair, when I became a county 
engineer, that was one of my first issues or questions was how 
effective is our bridge inspection program, especially in the 
local system, and I will say that the Minnesota Department of 
Transportation in Southeast Minnesota has been extremely 
helpful and effective to the local engineers, and we did shadow 
inspections to make sure that our folks were trained to inspect 
bridges on the local system, are following the same procedures 
through the National Highway Institute courses and doing things 
the right way--following the old standards and the old 
techniques that are there. So we still use and employ many of 
those tools, and I do agree that your eyes are probably your 
best set of inspection tools.
    One thing I will add is there is a lot of technology that 
is out there. There are many new strategies out there that we 
can use for bridge inspection, but sometimes these can become 
very cost-prohibitive to the number of bridges that are owned 
and operated on the local system, and while we do not 
discourage the use of these higher technology tools, we would 
encourage that there be programs set up for sharing these on a 
district-by-district basis throughout a State or a centrally 
located set of tools that could be outsourced to local 
governments. That would be a concern for local governments that 
we have become so high-tech so fast that local government 
cannot react sufficiently to that.
    Thank you.
    Mr. Oberstar. Thank you.
    As we go along, I do have a question that I am not asking 
you to respond to now, but I want you to think about it, and 
that is whether there is a better body of knowledge today on 
which bridges are in actual risk of failure.
    Do we have a better body of knowledge today than we did 10 
years ago or 20 years ago?
    Mr. Webb. I would like to second what Ms. Miller just said; 
we have 230 bridges on the bridge inventory system that are 
inspected by the Department of Transportation typically by 
using consultants. So they hire consultants and do the 
inspections in our county. We have another 60 that are smaller 
than the 20 feet that are staff and specs. We have sent those 
to the National Highway Institute Training. I agreed that eyes 
are what we use, particularly on those structures which I am 
comfortable with as far as the type and structures that we have 
in our county and the newness of those structures. We have not, 
as you have talked about today, touched on any of the newer 
technologies. I think we are looking to see what is out there; 
in fact, letting the State sort of guide us in that fashion.
    Mr. Oberstar. Thank you.  Mr. Kerley.
    Mr. Kerley. The State of Virginia pretty much controls all 
the bridges in the Commonwealth, VDOT does. We have about 100 
inspectors about 43 inspection teams throughout the State. We 
do probably around 10,500 bridge safety inspections a year. 
There are consistencies, I think, between all the States from 
the viewpoint of utilizing the NBIS standards, the same 
training courses everyone is going to.
    We are fortunate our location, where Virginia is located 
close to Washington D.C., Turner Fairbanks, which is the FHWA 
Research Center in McLean. We have a research center on the 
campus of the University of Virginia. So we have utilized some 
of the techniques you talked about earlier, Mr. Chairman, mag 
particles, nondestructing testing on those.
    But I think I agree with the previous speakers that the 
hands-on is the first initial to identify then what you might 
come to do with a more expensive-type technique. We have also 
used an infrared instead of dragging the chains on the decks. I 
have some good people who will tell you that chain-dragging 
works pretty well too. We try to utilize what we have in the 
program that all the States are using and supplement that with 
what technology can bring to us.
    Mr. Oberstar. I cannot pass the opportunity to observe that 
when Senator Warner--very, very dear friend of mine with whom I 
have worked on a number of initiatives over the years--was 
asked at his news conference what was he most proud of, what 
accomplishment was he most proud of in his 30 years at the 
Senate, he said the Wilson bridge. It was an earmark, by the 
way.
    Mr. Kerley. Yes, sir. It was a Federal bridge, too, until 
we took ownership when the new one was built.
    Mr. Oberstar. That bridge carries 1 percent of the gross 
domestic product of the entire United States. That is how 
important that bridge was, which is why I was happy to partner 
with him to make that earmark happen.
    Mr. Steudle.
    Mr. Stuedle. Mr. Chairman, I will echo Mr. Kerley's 
comments. We use the National Bridge Inspection program, the 
NBI, that is to my knowledge used in almost every State. So we 
use that same system. All of our inspectors are trained and 
retrained and certified under that system. We have 21 bridge 
inspectors who work in teams of two, and some other team 
managers we have spread across the 83 counties in Michigan. 
There are about 4,400 bridges that are under the direct 
jurisdiction of the Department of Transportation in Michigan.
    We really do agree with the last three speakers. The first 
thing is you have to have eyes on the bridge. The first thing 
we did on August 2nd was to send those bridge inspectors back 
to four bridges in Michigan that have the same similar design 
as the Minnesota bridge does and had them, first of all, get 
different eyes on that bridge to make sure that what we saw 4 
months earlier was exactly true. And we did confirm by late 
Friday afternoon on the 3rd that what we had seen was in fact 
what was happening on those bridges and there were not any 
problems. There was one of those four bridges that was 
structurally deficient because it has a bad bridge deck, but 
the structure, the superstructure and substructure, were fine. 
If there are things that those inspectors see, then we clearly 
bring in more nondestructive testing, the magnet particle 
testing and ultrasound and infrared-type technology. It is not 
practical to use that on every bridge; there are just too many 
and it would be too cost-prohibitive.
    The single most cost-effective method would be to put eyes 
on bridges on all the structural components. Guys down there 
with a hammer; it is not real glamorous, but you can bang on 
the concrete, there is a different sound. I have one of those 
engineers who grew up in the Department and actually dragged 
one of those chains across the bridge deck as well. It is not 
glamorous, but there is a different sound there. It does not 
need to be the end-all, but it certainly can be the canary that 
says you need to look at this a little closer.
    We think that is really one of the most important pieces. 
You physically have to have someone there, looking at them, to 
make that first assessment.
    Mr. Oberstar. You are right. It does say seasoning and 
experience, to have the ear to hear and the eyes to see. And I 
do not denigrate those technologies at all. They have been used 
successfully for years. But we need to back them up.
    Mr. McFarlin, Mr. Dorgan
    Mr. McFarlin. I will cover what we do in Minnesota, just to 
give you an overview of that. Within the DOT itself, the State 
DOT, we have 75 team leaders. They would all meet the 
requirements of the National Bridge Inspection program. They 
had a 10-day course on inspection. Occasionally they have 
refresher courses within our State. That is mandatory every 4 
years to go to a refresher course. In addition, those 
inspectors would have 2 to 5 years' experience, 2 years for an 
engineer, 5 for a non-engineer. That is on the State side.
    Among the counties there would be one team leader in every 
county, so an additional 87 team leaders within our county 
system. And beyond that we have others that we call level 1 
inspectors that are working towards the team leader. There are 
154 of those.
    So we have quite a large workforce that spends part of the 
year doing bridge inspections both on the State and county side 
and, again, refresher training became a requirement 2 years ago 
for our inspectors.
    A lot of comments have been covered by the others, but I 
know you asked specifically about the technology. Earlier you 
cited ultrasonic and some other means that were used. As others 
have said, the first thing one of the inspectors uses is their 
eyes to see what they can find visually. For steel bridges, it 
goes well beyond that and very much so in the case of a 
fracture critical bridge. Ultrasonic testing is regularly used, 
mag particle and dye penetrants also. But ultrasonic is 
actually what they are gravitating towards as the preferred 
technology for really critical structures.
    On our underwater inspections in addition to having divers, 
every 5 years we do underwater inspections, but we regularly do 
inspections with sonar, looking for scour holes looking for 
scour within our rivers. So there is quite a bit of technology 
used, and our equipment, we have four under-bridge snooper 
trucks at the moment, and one on order. They are manufactured 
in Duluth by Aspen Aerials; that is the vendor in our area. So 
we have a large investment there in equipment, too.
    And for our fracture-critical bridges, as County Engineer 
Miller mentioned, counties do their own inspection with the 
exception of fracture-critical, because our teams have the 
ultrasonic equipment and some of the other things needed for 
fracture-critical inspection. Those are all performed by the 
State for the counties.
    Mr. Oberstar. Thank you very much. The snooper cranes were 
stimulated by the hearings that we held 20 years ago and 
highlighted a need for a more efficient way to get under the 
bridge, and this technology was just coming under practice.
    Mrs. Drake. Thank you, Mr. Chairman. And, Mr. Kerley, it is 
good to see you. Thank you for the work you do in Virginia for 
us.
    In regards to this legislative proposal that we are 
discussing, extra funding, new funding for bridges, you used 
the term "good first step" and then you also said innovation 
and long-term solutions. Are there recommendations that you 
could lay out for the Committee as we continue this discussion 
in regards to how to deal with this particular issue?
    Mr. Kerley. Well, reference to good first step is that 
additional funding is needed in this particular area. I have 
gone through and looked at some of the proposals in there. The 
proposal of enhancing the inspection program, I think the 
AASHTO States would be supportive of that. Every tragedy we 
have had in the past has led to improvements in the inspection 
program. So moving toward improvements in the inspection 
program is something that all States would support. The concern 
would be is the funding with the amount of inspections that we 
are doing now and the time associated with that and those type 
of things would have to be considered.
    We would look to work with Congress and find out first what 
happened in Minnesota, what happened that caused that, and then 
try to improve the system so that does not happen again. And 
then it gives us an opportunity to look at the whole program 
once again.
    Recently there have been changes in the inspection program, 
increased requirements for inspectors, increased fracture-
critical inspection cycles, those things. We have to see if 
they are working and what we can do to improve the program. So 
AASHTO would be happy to work with the FHWA and Congress to 
improve the program as much as possible.
    Mrs. Drake. Can you also walk us through how Federal 
funding for bridges is used in Virginia? How do we spend that 
money, or what decisions--is there a way to try to maximize it?
    Mr. Kerley. In Virginia we utilize all the Federal funds 
that come in to the State. We have probably about $909 million 
that we receive in Federal funds, about 94 million of that is 
Federal bridge money. We utilize some of that in our 
maintenance program now, but Virginia will probably spend, if 
we receive $94 million in Federal bridge funds, we will 
probably spend an additional $150 million in State funds to 
supplement that. We have nine construction districts in the 
State of Virginia and each one of those has a bridge section 
who conducts the bridge safety inspections and is responsible 
for the bridges in their particular construction area. We 
oversee that from the central office. We utilize the reports to 
establish priorities; and our State bridge engineer, working 
with our Commonwealth Transportation Board, sets those 
authorities. In 2004 the General Assembly put in budget 
language that requires all the Federal bridge money to be used 
on bridges utilizing the sufficiency ratings in determining 
where the priority would be.
    Mrs. Drake. Mr. Chairman, I would just like to ask Mr. 
Steudle one question.
    You mentioned part of the problem is the roads that the 
bridges connect to, and you made an interesting comment about 
this is bigger than just bridges. I do not know if you heard 
the opening statements, but Mr. Mica was talking at length 
about having a strategy and a strategic plan for 
transportation. I wondered if you wanted to expand on that, if 
there are others of you on the panel who agree with that.
    I am wondering if it isn't a bigger issue, although bridges 
we are all so concerned about because we know what could 
happen, but if we should not take this opportunity to just do a 
bigger strategy for transportation.
    Mr. Steudle. You hit on that. Really, the key point is we 
are focused on bridges because of the tragedy and because of 
the fatalities that happened. It is hard to pinpoint how many 
people died because of a pothole, but it happens. It happens 
when someone loses control of their car. And it is because 
there is one here and one there and maybe three over here that 
it does not raise to the same level.
    My point was while we are focused on bridges--which we need 
to and I applaud you for going at that and I do not want to 
take any steam away from that--I really want you to look at the 
whole transportation system in and of itself. In some of the 
questions this morning to Secretary Peters, the Members were 
clearly thinking of how does this fit with the railroad 
structures and how does it fit with other pieces.
    That really is what my comment was driving at. We need to 
look at the entire system--how we fund transportation across 
all of the States in all the different modes. And then 
specifically within highways, how do we do it; is there enough 
for the road systems as well?
    Now, the example I gave, we have got a big mega-project 
that is a billion dollars for 6 miles of Interstate 94 through 
the city of Detroit that has about 38 bridges on it that are 
all listed as structurally deficient, and they have been on 
there for 10 years. We have been trying to get it through the 
environmental process, but even at the end, we end up with a 
financial constraint issue that says we do not have enough 
money to build this.
    How are we going to repair these bridges that desperately 
need to be fixed? We have been spending State money holding 
them together while this other project is moving through the 
system that would eventually widen it and put service drives 
and modernize that interstate that, frankly, was one of the 
first ones that was built. So it is a very, very old section of 
Interstate 94. We have not figured out how we will be able to 
fund that piece.
    So when we look at just the bridge piece, that is only a 
part, because we could throw a bunch of money at bridges, but 
then the roads connecting them would still have a bunch of 
deficiencies as well.
    Mrs. Drake. Thank you, Mr. Steudle. Thank you, Mr. Kerley.
    Mr. Oberstar. We have begun the process with this Committee 
at the beginning of the year with hearings on the operation 
effectiveness of the safety legislation in August of 05 and 
laying the groundwork for the broader infrastructure initiative 
and reauthorization in 09. This is a step-by-step process, 
evaluating all the pieces. We will do a top-to-bottom review as 
was done at the end of the interstate era with ISTEA. This will 
be a major restructuring of our Federal aid highway and bridge 
and safety and transit programs. Meanwhile, we have a high-
profile issue that we have to address and we need to--is that 
the Grasho Road project you are talking about in Detroit? That 
major mega-project?
    Mr. Steudle. Grosse Ile?
    Mr. Oberstar. Yes.
    Mr. Steudle. No. It is about 4 or 5 miles apart.
    Mr. Oberstar. It seems that has been under construction and 
reconstruction forever, given the times I have driven over it.
    Do you have something else you wanted to add?
    Mr. Steudle. I want to emphasize the work that you are 
starting for the reauthorization and understand that the bridge 
piece is something that there is an opportunity to deal with 
right now and I think we need to do it now. My comments really 
are let's make that as the first step into the reauthorization 
process that you are kicking off and starting as well. Let's 
not give people the false impression that we have taken care of 
the transportation problem because we have addressed some 
bridges. Once it gets outside of the transportation industry, 
people think you just worked on that, so it must be good for 20 
years, when in fact what we did was preventive maintenance and 
we kept it in good condition. A lot of that comes with funding 
as well. They say, you just took care of that; you have enough.
    Mr. Oberstar. Goodness, no. This is a dress rehearsal, if 
you will.
    Mr. Duncan. Thank you, Mr. Chairman, I will not have any 
questions, I wasn't able to come for the testimony because Mr. 
Mica asked me to meet with some Texas transportation officials. 
But I would like to say this: I read Chairman Oberstar's 
proposal and I like about everything in there.
    One thing I did point out in my opening statement this 
morning was that Tennessee over the last several years has done 
quite a bit of work on our bridges and we have about half of 
the structurally deficient bridges as is the national average. 
I hope when we come up with whatever we come up with in the 
end, we do not short-change States that have done a little bit 
more in regard to the bridges. And I hope we do not punish the 
States that have done the most work in that regard, because I 
do not think that would be fair, because we still do have 
bridges that need--we have a lot of bridges in our State, with 
all of our lakes and hills and rivers and so forth.
    I just hope we keep that in mind, Mr. Chairman. Thank you 
very much.
    Mr. Oberstar. Yes, indeed. As I pointed out through the 
course of the hearing, I have set forth a proposal, not an 
introduced bill, this is a work in progress. The idea of 
hearings is to shape a bill. This is rather unusual that we 
follow this procedure, but I felt this was a fair and right way 
to do this, and to gather ideas. As Mr. Baker pointed out, 
there are unique circumstances in Louisiana, unique structures 
that need to be addressed in a different way, and we will fold 
that into this proposal.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. I want to thank 
you for putting that proposal out and giving us an opportunity 
to have the input from these experts and also our input.
    Mr. Dorgan, I was reading some information about the I-35 
bridge. If I understand it correctly, it was due to undergo 
some renovation I think in December of 06, and because of maybe 
some structural concerns or whatever underneath, it was an 
option not to do that; is that pretty much correct?
    Mr. Dorgan. Mr. Sherman and Congressman Westmoreland, the 
years are slightly off there. We have considered different 
options on the structure. One was reinforcing--this was based 
on a study that the Department had done--to add reinforcing 
plates to the bridge; another was a thorough inspection of the 
fracture-critical areas that were of concern in the main truss; 
and a third was a combination of the two. Originally we had 
scheduled a contract to add the reinforcement. That would have 
gone to contract this fall, in October 07. Last winter we made 
the decision, based on some new information from the consultant 
that was doing the study, we made the decision to pursue the 
inspections last spring and we did those in May. We got 
approximately half the bridge inspected. This is the main truss 
spans now, and no evidence of any fatigue cracking was found. 
Given all the previous studies on that structure, the expert 
opinions were that if none had been experienced to date, we 
would not have fatigue problems with that. And to this day, 
well, I think the NTSB has to conclude their study as to the 
actual causes of this. But up to this time, fatigue has not 
been identified as an issue. There were certainly other things 
Chairman Rosenker referred to in his testimony. That was not 
one of them.
    Mr. Westmoreland. Chairman Oberstar brought up the point 
that 20 years ago this one piece of equipment was brought up at 
a hearing and has been put in place, so I think we are right at 
a point where there is some cutting-edge technology out there 
that is a little bit more than a guy with a flashlight and a 
hammer to go out.
    I know it is expensive technology, but there is one in 
Georgia, LifeSpan, that does this type of technology on a 
bridge, and I know it is more expensive. If I understand it 
correctly and since the tragedy on I-35, knowing that we would 
probably have these hearings, I started looking into some of 
this information. And I think that with some of this more 
sophisticated technology you may take a bridge that is a 
category 4, where if you use the sophisticated technology you 
may find out it that was a 6 or a 2 rather than a 4. So on some 
of these especially, Mr. Dorgan, did you ever, or did anybody 
at the DOT, ever think about going to a little more of the 
sophisticated monitoring system rather than just continuing to 
do the visual inspections, but go that extra step further to do 
any of this high-tech stuff? Would that have been a last 
resort?
    Mr. Dorgan. Congressman Westmoreland, actually regarding 
high-tech, it was done on this bridge. We used ultrasonic 
testing throughout those inspections that have been done over 
the years for fracture-critical; and particularly for the 
inspections done in May, it was both visual and ultrasonic 
testing that was done, and our inspection staff is very well 
trained in that. They are all certified, American Welding 
Society certifications and ANSI certifications. No cracks, 
again, were found. So ultrasonic was used.
    Regarding I think the other technology you may have been 
referring to, monitoring systems, that were available from a 
different company. That was considered earlier in some of the 
previous study work. The monitoring systems, however, that we 
looked at were specifically for monitoring fatigue cracks when 
you had active fatigue cracks in a structure. This structure in 
the main trusses which was our area of concern had no fatigue 
cracks. So we had no cracks to apply monitors to monitor.
    In addition to that, of the weld details that were of 
interest, there were probably over a thousand locations in that 
main truss. It was made up of--- each truss has at least 64 
members of it. So the monitoring systems we have seen that are 
practical work maybe well on girder bridges where it is one 
continuous piece of steel. This was a considerably different 
type of structure. So rather than relying on a monitoring 
system that we thought probably was not well-suited for the 
structure, instead we were doing very frequent inspections.
    Mr. Westmoreland. Let me say this in closing. I know all of 
you have a very difficult job with the money that is available 
and as many bridges you have to look after. I hope that with 
this proposal that Chairman Oberstar has put forward that we 
will start looking at some of the different technologies that 
we can use in some of this new stuff to determine the 
structural strength of these bridges and maybe get a more 
accurate reading.
    One of the other interesting things, I cannot remember who 
brought it up, about the divers going down and looking at the 
bridges. I know the I-35 collapse came on the news--whether 
this is true or not, I learned not to believe everything you 
hear on the news--the divers could not get close enough to read 
the tags on the car. So that would put a diver in a tough 
situation trying to examine the structure, the underpinning of 
a bridge under water if he is in water where he is having that 
kind of visibility. So maybe there is some kind of high-tech. 
That is all the questions I have, Mr. Chairman, and I 
appreciate you giving me the opportunity to ask them.
    Mr. Oberstar. Thank the gentleman for his observations, 
very thoughtful contribution.
    Early in the testimony among this panel I heard concern 
about restrictive Federal rules, limitations on use of funds 
for bridge decking and a number of other concerns about the 
limitations under which you must operate in the use of your 
Federal funds. I want to point out those are regulations issued 
by the Federal Highway Administration. They are not founded in 
law.
    I am glad you raised this for--the purpose of having this 
hearing is to hear from the practitioners the concerns they 
have in operating the Federal program. We can clear the deck, 
if you will. We can clean out those Federal regulations in the 
upcoming legislation, and along the way as we move ahead with 
this bridge initiative. If the Federal Highway Administration 
is putting you in a straitjacket on your operation of the 
program, that certainly is not intended by law.
    Preventive maintenance, for example, is specifically 
allowed by law. It has been since 1987, and then in 91 in ISTEA 
and then TEA-21 and in the current SAFETEA-LU. So we have 
worked to give States broad flexibility.
    The concern expressed by Ms. Miller and Mr. Web about 
training of inspectors and supervisors. In the proposal I have 
set forth, we have a provision to require training to higher 
standards and more skills for inspectors and supervisors. We 
will provide funding for that in this bridge initiative; 
inspectors generally, without restrictions. We will do our best 
to give the broadest flexibility that you need. Any other such 
limitations that you think are obstacles, send them to us. We 
would very much welcome your input and we will take whatever 
steps are necessary to make things better.
    In Minnesota we have had a goal in previous years of 
ensuring that 65 percent of bridges are in good condition. 
Michigan raised its standard. Minnesota, according to reports 
that I have heard, lowered the goal to 55 percent. Tell us what 
Michigan did.
    Mr. Steudle. First of all, it is 85 percent, good and fair. 
So I cannot comment on what the Minnesota numbers are because I 
do not know their system. But I do know that Michigan's goal is 
95 percent of the freeway bridges in good or fair condition and 
85 percent of the non-freeway bridges in good or fair 
condition.
    We had a goal. We started this in 1998 and our goal was to 
get there by 2008. It is important to note that in 1998 we were 
at about 79 percent and we have increased that number up to 
about 86, a significant boost at a time when we had a lot of 
aging bridges coming at us. But frankly, a lot of that was an 
influx of State dollars that, as I said before, is about 50 
percent State dollars, 50 percent Federal dollars and an 
emphasis on the bridge program and looking at the entire bridge 
network as a complete network, and understanding that you have 
to manage them in different stages of life. Not every bridge 
needs to be reconstructed. You need to be fix what needs to be 
fixed on those structures. We have had a concerted effort for 
the last 10 years, and that is why I brought the example of the 
bridge decks; 223 bridge decks out of 608 are structurally 
deficient because--our bridges are structurally deficient 
because the bridge decks themselves are poor. The rest of it is 
fine. Those are in our program, mostly being paid for--
completely being paid for with State funds. So those bridges 
will come off of the structurally deficient list. So we manage 
them as an entire network of bridges and not just as multiple 
phases of their life. Not just one particular structure and one 
fix fits all.
    Mr. Oberstar. Thank you.
    Mr. McFarlin.
    Mr. McFarlin. Mr. Chairman, as Mr. Dorgan is crunching some 
numbers to help answer the question, I just want to mention the 
goals that you mentioned are part of a much larger performance 
measure package that Minnesota DOT uses to guide its 
investments not only in bridges, but in safety in the roadways 
and other aspects of what we invest our funds into. We also 
review those performance measures regularly to see not only--
they are measures we have set. We are measuring against 
ourselves, and we review them to see if they are realistic, if 
they might be too low or too high. It is a constantly evolving 
process to peg our performance measures to where we think we 
ought to be. We are very proud of that effort to guide our 
investments based on actual measurements and performance of our 
system.
    I think Mr. Dorgan, off the top of his head, has some 
numbers on bridge performance goals.
    Mr. Oberstar. But that was announced that Minnesota had set 
the goal of 55 percent. Why was that reduced from 65 percent?
    Mr. Dorgan. Congressman Oberstar, the goal of--back in 1997 
when we established performance measures, there was a goal of 
maintaining at least 65 percent of our bridges in good 
condition--that would be by the NBIS classifications--and that 
was also State-owned bridges, regardless whether they were 
interstate or not. As the years unfolded, we realized that that 
level at 65 percent was probably unrealistic to maintain. At 
the time we set that goal, we were at about 62 percent.
    Mr. Oberstar. Unrealistic from what standpoint; cost?
    Mr. Dorgan. Unrealistic when you consider the life span of 
a bridge. When you consider how when we want 75 to 100 years of 
life to maintain it with that much inventory at 65 percent in 
good condition, in order to achieve that we would have had to 
have been replacing bridges prematurely to get that number of 
bridges up to 65 percent.
    So our current goal, once we took a more realistic look at 
that--this is all State-owned bridges--we set that level at no 
less than 55 percent in good condition; our fairs plus poors 
are no more than 16 percent; and our poors no more than 2 
percent.
    Now, when I just checked with Mr. Steudle to check how 
Michigan figures their numbers, if we compare to Michigan's 
goal, the goods through fair condition, Minnesota right now 
would be at 96 percent of our bridges in either good through 
fair condition. What that leaves is bridges in poor condition 
at under 4 percent, so it would be a little bit better than 96 
percent against that standard. I think each State is setting 
their own performance goal so it is somewhat tough to compare 
to each other until you can figure out what each other is 
actually measuring.
    Mr. Oberstar. That is why we need a national standard. That 
is why we need to have one set of rules by which everybody 
plays, everybody understands, and measurements can be equitably 
and accurately made. And that goes to the data-driven aspect of 
a national bridge program.
    Mr. Dorgan. I would agree, Congressman. A lot of States are 
in to performance measures now. And since we are all setting 
our own performance measures--but a national set of performance 
measures would give us a basis of comparison.
    Mr. Oberstar. That would be the first title of this 
proposal.
    I was very encouraged, Mr. McFarlin, to hear you say that 
safety will not be sacrificed for schedule in the 
reconstruction of this bridge. I probably need not, but I will 
anyway, recall the 1962 and the rush to finish a portion of I-
35 that resulted in a great brouhaha in Minnesota. We do not 
want another one of those.
    Mr. Dorgan. I can assure you that this bridge will not 
cause a brouhaha. We are very confident in our design-build 
method and our approach. We've had great success and the 
design-build area and Minnesota has built many large projects 
in the State that have gone forward very successfully, come in 
on time, very close to budget, very small overruns, good 
cooperation with not only the contractors but with local units 
of government and with citizens. We are very confident and I 
can assure you that this is going to go forward very well.
    Mr. Oberstar. I want to thank you very much. You have all 
made a valuable contribution. I urge you again to think through 
all those restrictive rules that you have been saddled with 
through the Federal Highway Administration. Make a compilation 
for us, and especially county engineers with your national 
network, and send that in to us as soon as you can. That is a 
matter we can fix.
    Good. Thank you very, very much.
    Panel V.
    We have Mr. Andy Herrmann, Managing Partner, Hardesty & 
Hanover, New York; Mr. William Cox, Corman Construction, Inc., 
here on behalf of ARTBA; Mr. Tim Lynch, American Trucking 
Association, Senior Vice President; Ms. Janet Kavinoky--I was 
wondering where to put the accent on that. I love that, a name 
that has real weight. And then Don Kaniewski. Now, there is a 
real--that's an odd name that everybody--the Federated People's 
Republic of the Soviet--the core of my district--can understand 
and pronounce. And let me take this opportunity, Mr. Kaniewski, 
to congratulate you on 30 years of service with the laborers.
    I will give you a big applause. I have been around long 
enough to remember your predecessor, Jack Kerr.
    Congratulations. We will start with Mr. Herrmann.

 TESTIMONY OF ANDY HERRMANN, P.E, HARDESTY & HANOVER, MANAGING 
PARTNER; WILLIAM G. COX, PRESIDENT, CORMAN CONSTRUCTION, INC.; 
 DONALD KANIEWSKI, LEGISLATIVE AND POLITICAL AFFAIRS DIRECTOR, 
   NATIONAL CONSTRUCTION ALLIANCE; JANET KAVINOKY, EXECUTIVE 
       DIRECTOR, U.S. CHAMBER OF COMMERCE, AMERICANS FOR 
TRANSPORTATION MOBILITY; AND TIM LYNCH, SENIOR VICE PRESIDENT, 
        AMERICAN TRUCKING ASSOCIATION, WASHINGTON, D.C.

    Mr. Herrmann. Thank you, Chairman Oberstar, and Members of 
the Committee. Good morning. My name is Andrew Hermann. I serve 
on the board of directors of the American Society of Civil 
Engineers. I am the managing partner of Hardesty & Hanover, a 
transportation consulting engineering firm headquartered in New 
York City. During my 34-year career I have been responsible for 
many of the firm's major bridge projects. I want to thank you 
for holding this hearing. I can say there are a few 
infrastructure issues of greater importance to Americans than 
bridge safety.
    ASCE is the country's oldest national civil engineering 
organization, representing more than 140,000 civil engineers. 
ASCE strongly supports the National Highway System Bridge 
Reconstruction Initiative introduced by Chairman Oberstar. We 
look forward to working with you to enact this important 
legislation.
    More than 4 billion vehicles cross bridges in the United 
States every day and, like all man-made structures, bridges 
deteriorate. Deferred maintenance accelerates deterioration and 
bridges become more susceptible to failure. In 2005 ASCE issued 
its latest report card for America's infrastructure, which 
stated that in 2003, 27.1 percent of the Nation's bridges were 
structurally deficient or functionally obsolete, which was an 
improvement from the 28-1/2 percent in the year 2000. In fact, 
over the past 12 years the number of deficient bridges has 
steadily declined from 34.6 percent in 1992 to 25.8 percent in 
2006. However, this improvement is contrasted with the fact 
that 1 in 3 urban bridges were classified as structurally 
deficient or functionally obsolete, much higher than the 
national average. The 10-year improvement rate from 1994 to 
2004 was a decrease of 5.8 in deficient bridges.
    Projecting forward from 2004 yields an estimate of 46 years 
to remove all deficient bridges. But, unfortunately the rate of 
deficient bridge reduction from 1998 to 2006 is decreasing, 
with the current projection from 2006 estimated at 57 years for 
the elimination of all deficient bridges. While progress has 
been made in the past in removing deficient bridges, our 
progress is now slipping or leveling off. There is a 
demonstrated need to invest additional resources in our 
Nation's bridges.
    The National Bridge Inspection Standards in place since the 
early seventies require biannual safety inspections for bridges 
to be performed by qualified inspectors. Approximately 83 
percent of our bridges are inspected once every 2 years. 
Standard condition evaluations are documented for individual 
bridge components as well as ratings for the functional aspects 
of the bridge. These ratings are weighted and combined into an 
overall sufficiency rating for a bridge on the zero to 100 
scale.
    A bridge's sufficiency rating can define it as structurally 
deficient or functionally obsolete. Both trigger a need for 
remedial action. A structurally deficient bridge may be 
restricted to light vehicles and reduced speeds because of its 
deteriorated structural components. While not necessarily 
unsafe, such bridges are at the point where replacement and 
rehabilitation will be necessary.
    A bridge classified as functionally obsolete is safe to 
carry traffic, but has less than the desirable geometric 
conditions required by current standards, and may not safely 
accommodate current traffic volumes, vehicle sizes and vehicle 
weights. These restrictions not only contribute to traffic 
congestion but also pose such major inconveniences as lengthy 
detours for school buses or emergency vehicles.
    Bridges and their components are structurally load-rated at 
inventory and operating levels of capacity in their present 
inspected physical condition. The inventory rating is the 
design level for a bridge for normal traffic. The operating 
rating level with a reduced factor of safety is intended to 
define infrequent overload vehicle permits, and generally 
describes the maximum permissible live load to which the bridge 
may be subjected. Allowing unlimited numbers of vehicles to use 
a bridge at the operating level may shorten the life of the 
bridge.
    Bridge inspection services should not be considered a 
commodity. Currently NBIS regulations do not require bridge 
inspectors to be professional engineers, but do require 
individuals responsible for the load rating of the bridges to 
be professional engineers.
    ASCE believes that non-licensed bridge inspectors and 
technicians may be used for routine inspection procedures and 
records, the pre-inspection evaluation. The actual ratings and 
condition evaluations should be performed by licensed 
professional engineers, experienced in bridge design and 
certified as bridge inspectors.
    ASCE strongly supports the establishment of a dedicated 
funding source to repair, rehabilitate, and replace 
structurally deficient bridges on the National Highway System 
as a complement to the current FHWA bridge program. This 
initiative would be a first step in addressing the long-term 
needs of the Nation. However, this effort should not detract 
from the investment needs debate during the reauthorization of 
SAFETEA-LU in 2009.
    The requirement to distribute funds based on a formula 
which takes into account public safety and needs is an 
excellent step in creating a program that addresses public 
safety first. Successfully and efficiently addressing the 
Nation's transportation issues would require a long-term, 
comprehensive, nationwide strategy, including identifying 
potential financing methods and investment requirements for the 
safety and security of our families. We as a Nation can no 
longer afford to ignore this growing problem. Aging 
infrastructure represents a growing threat to public health, 
safety and welfare, as well as the economic well-being of our 
Nation.
    Thank you, Mr. Chairman. This concludes my statement. I 
would be pleased to answer any questions you may have.
    Mr. Oberstar. We very much appreciate the presence of the 
ASCE, you are a watch dog on the Nation's infrastructure, and a 
very credible one--one frequently cited in the lay press, if 
you will.
    Mr. Herrmann. Thank you.
    Mr. Oberstar. Mr. Cox.
    Mr. Cox. Chairman Oberstar, Representative Duncan, my name 
is Bill Cox. I am president of Corman Construction in Annapolis 
Junction, Maryland. I am here today in my capacity as Vice 
Chairman of the American Road and Transportation Builders 
Association.
    While ARTBA welcomes today's discussion on how to best meet 
the enormous bridge needs, we deeply regret the circumstances 
that led to this hearing. Bridges can be rebuilt and roadways 
repaired, but lives touched by tragedy can never be made whole. 
Our membership offers its condolences to those families who 
lost loved ones or had been injured in the I-35 bridge 
collapse.
    Mr. Chairman, I would like to applaud your leadership in 
proposing a bold and targeted Bridge Safety Initiative. I also 
want to commend Representative Mica for his call for the 
development of a comprehensive national transportation 
strategy. These objectives are not mutually exclusive and can 
be pursued concurrently. The Minneapolis bridge tragedy 
demonstrates the significant public safety threat that exists 
from delaying repairs to aging bridges.
    ARTBA believes immediate action on Chairman Oberstar's 
proposal to rehabilitate National Highway System bridges is a 
logical first step towards restructuring Federal surface 
transportation policy to ensure unmet needs are addressed.
    Mr. Chairman, in my remaining time I would like to provide 
a broader perspective on the debate that has unfolded since 
last month's disaster in Minnesota. Not surprisingly, since the 
accident, certain groups have put forth the same stale 
arguments as to why Federal leadership to help rehabilitate the 
Nation's bridges is not warranted. In doing so, we believe they 
really missed the point. The U.S. is suffering from not just a 
bridge crisis but a systemic transportation crisis. We need to 
dramatically upgrade the Nation's bridges, roadways, public 
transportation facilities, rail lines and airport 
infrastructure.
    An example of this rhetoric is the suggestion that if it 
were not for congressional earmarks, sufficient resources would 
be available for transportation needs. The fundamental 
assumption behind this claim is that earmarked funds are not 
used for needed highway and bridge improvements. We need to 
remind ourselves, about projects like the new Woodrow Wilson 
Bridge project, the largest single earmark in the 1998 surface 
transportation bill. There are countless other examples of 
high-priority road and bridge projects that have been earmarked 
and, many, a part of State transportation plans.
    I am proud that my company has been involved in the Woodrow 
Wilson project and will have played a role in addressing one of 
the Nation's worst bottlenecks and a major impediment to the 
safe movement of freight and people along the east coast. It is 
not only an example of a critical project that came to be 
through the earmark process, but also a mega-project that will 
be delivered on time and on budget.
    Mr. Chairman, as we work to overcome the pervasive 
transportation challenges, we need to utilize all financing 
solutions, not take some off the table. Public-private 
partnerships, innovative financing, tolling and new user fees 
are all part of the solution.
    In the days after the bridge collapse, however, there seems 
to be more interest by some in trying to utilize the Federal 
motor fuels tax as a political wedge issue instead of rolling 
up our sleeves and finding a comprehensive solution to bridge 
deficiencies and other transportation challenges. We need to 
recognize the foundation of any successful transportation 
financing structure must continue to be the Federal motor fuels 
tax. It has been demonstrated to be the most effective and 
fiscally responsible method to finance transportation 
improvements, and will be for years to come.
    While the increasing fuel efficiency and alternative motor 
fuels may ultimately have a dilutive effect on gasoline tax 
revenues, that point is decades away. The only thing antiquated 
by the gas tax is its current rate. To suggest that drivers can 
receive comparable results from contributing the same level of 
financial support to maintain and improve the Nation's 
transportation network as they did 15 years ago lacks all 
credibility. Since that time, the population has grown, the 
economy has grown, the number of vehicles have grown, demands 
on the system have grown, and the cost of road and bridge 
improvements have skyrocketed.
    In closing, ARTBA believes the targeted proposal to 
rehabilitate the Nation's national highway bridges is necessary 
to address the immediate public safety threat neglected bridges 
represent. This measure would provide the quantifiable results 
and accountability that Americans demand and our Nation's 
citizens deserve. We urge all Members of Congress to support 
Chairman Oberstar's NHS Bridge Reconstruction Initiative as a 
critical first step towards achieving the goal of a 
comprehensive national surface transportation plan. Thank you 
for the opportunity to speak.
    Mr. Oberstar. Thank you for your contribution, I am very 
much encouraged and inspired by that. Thank you.
    Mr. Kaniewski.
    Mr. Kaniewski. Thank you, Mr. Chairman. Congressman Duncan, 
thank you for your kind words.
    My name is Donald Kaniewski. I am the Political and 
Legislative Director of Laborers' International Union of North 
America. I testify not only as a representative of the 
Laborers' today, but also on behalf of the unions that are 
members of the National Construction Alliance. That includes 
the United Brotherhood of Carpenters and the International 
Union of Operating Engineers. Together we represent well over 1 
million highly skilled construction workers who build America's 
infrastructure day in and day out. Our members are the ones 
that take congressional authorizing legislation and convert it 
into real-world concrete and steel transportation projects that 
move this country.
    I want to take a moment to say that on August 1st, we had 
many members on the bridge, and we believe that they were doing 
the wrong job; they were conducting resurfacing when perhaps 
they should have been engaged in replacement. In an inherently 
dangerous industry, we want to see our members take those 
risks, be doing the right job for the country in building and 
repairing the infrastructure in the needed way, and not be 
subject to such tragedy in an unsafe world. We did lose one 
member of the Operating Engineers, but all others were safe 
after the fall of the bridge.
    It is no longer a secret that America has serious 
infrastructure problems and needs a comprehensive 
infrastructure policy for the 21st century. The tragedy in 
Minnesota, the explosion of the underground steam pipes in New 
York, the failure of the levees in the gulf coast all 
underscore the necessity of a national commitment to repairing 
and modernizing infrastructure.
    The NCA has been a longstanding advocate for robust Federal 
investment in our Nation's infrastructure system. It is our 
belief that a solid infrastructure system across a range of 
modalities from highways, airports, harbors, freight and 
passenger rail, forms the physical backbone that is critical to 
maintaining and enhancing economic growth, competitiveness, 
productivity and quality of life in this country.
    Mr. Chairman, your proposal is a significant part of a 
solution that moves our Nation closer to closing the gap 
between available revenues and documented need. That is why the 
three unions of the NCA strongly support your bridge 
improvement proposal. Your plan is a critical step in the right 
direction for the following reasons: It provides immediate 
dedicated funding for bridge inspection, repair, rehabilitation 
and reconstruction; creates a dedicated trust fund to ensure 
new revenues to utilize for their intended purposes; it 
implements a needs-based funding proposal with strict 
prohibition on earmarks. It considers all options to generate 
the necessary revenues for the program, including an increase 
in user fees.
    This specific approach is exactly what is needed to 
solidify public support and reinvigorate political will behind 
infrastructure investment. America's support of increased 
investment in infrastructure has to be based on trust, and your 
plan strikes the balance by first assessing need before 
stipulating funding. Now that we have the focus of the Nation 
on the chronic underinvesting and the aging and ailing 
infrastructure, we must not lose it. We must take on those 
whose rigid ideology and rhetoric automatically straitjacket by 
refusing to put all the revenue options on the table to address 
the problem in a forthright manner.
    Once the need is clearly established, then the issue is one 
of establishing an efficient revenue source to realistically 
address or investment needs.
    The NCA strongly believes that building and maintaining a 
world-class 21st century infrastructure system, one that makes 
the Nation competitive in a global economy, is inherently a 
Federal responsibility. Furthermore, we believe that in order 
to improve investment in a Nation's infrastructure, we must 
maximize all existing revenue sources. As we all know, the 
Federal gas tax is the sole source of revenue for investments 
in highway and transit. Until another equally efficient method 
of funding is identified, we believe that the most 
straightforward approach to increasing revenue lies in 
increasing the user fee.
    Let me be specific. A gas tax increase is the most direct 
way to address the short-term revenue needs to fund this 
particular bridge proposal. Such a direct correlation between 
revenues and spending is fiscally responsible, especially in a 
pay-go budgetary environment.
    With regard to more comprehensive reauthorization of the 
highway transit program, we would support various fee 
modifications and other additions that are tied to a trust fund 
that is dedicated to the purpose of funding and improving the 
Nation's infrastructure system. A gas tax increase or 
transformed into a sales tax or fee based on vehicle miles 
traveled, or a combination thereof, all acceptable to us, and, 
we believe to the public, if they have the confidence that they 
will get what they pay for and the funds will not be diverted.
    We are not averse to innovative financing, particularly for 
large projects of national significance. Bonding and financial 
leverage and other tools should be part of mix. Although we are 
not experts on all methods of innovative financing, we believe 
everything that enhances investment must be considered.
    In conclusion, while we recognize the need for a 
comprehensive systemic approach to America's overall 
infrastructure needs and how best and most effectively to 
finance those needs across a range of modalities, we strongly 
encourage a singular focus on the present bridge deficiency 
issue before us as the most politically doable piece of the 
broader infrastructure problem facing the country. A 5-cent gas 
tax increase to raise the necessary $25 billion for bridge 
inspection and repair and replacement is a finite, achievable 
objective in the remaining months of the 110th Congress. We 
respectfully urge recognition of this reality and encourage the 
Committee and both bodies of Congress to act quickly to pass 
desperately needed legislation to ensure the infrastructure 
system that America relies on is safe.
    Thank you for the opportunity to be here today.
    Mr. Oberstar. Thank you very much for a resounding 
statement.
    Obviously saved the best for last. Ms. Kavinoky.
    Ms. Kavinoky. Thank you, Mr. Chairman, and distinguished 
Members of the Committee. Thank you for calling this important 
hearing on the state of America's bridges.
    Today, your Committee meets at a time when the Nation's 
attention is focused squarely on infrastructure, but under the 
worst possible circumstances. Now is the time to move on a 
robust, thoughtful, and comprehensive plan to build, maintain, 
and fund a world-class 21st century transportation system.
    We cannot afford to delay. If we fail to address our 
challenges we will lose jobs and industries to other nations. 
If we fail to act, we will pollute our air and destroy the 
free, mobile way of life that we cherish. And ultimately if we 
fail to increase investment, we will see more senseless deaths 
on our bridges and roads, not to mention on our rails and 
waterways. It is likely to get much worse if we do not act.
    We have a system that is overworked, underfunded, 
increasingly unsafe and without a strategic vision. Bridges are 
the critical links in the multimodal system that moves goods 
and people.
    And, Mr. Chairman, the Chamber applauds you for your 
leadership in proposing a strong plan to address the Nation's 
deficient bridges.
    Ms. Kavinoky. After the tragic collapse in Minneapolis, we 
all became acutely aware of the magnitude of the problem. 
Today, one quarter of our Nation's bridges are structurally 
deficient or functionally obsolete, and that figure does not 
include 16 percent of elevated transit structures that are in 
substandard condition or worse.
    In addition to the painfully obvious safety concerns, there 
is an economic impact. Take bridges in Oregon, for example. The 
Oregon DOT says that the potential economic impact of 
structurally deficient bridges in that State alone could be 
$123 billion over the next 25 years.
    Mr. Chairman, we support your proposal to identify needs 
first and then to tackle the backlog of bridge maintenance 
through a formula funding approach without earmarks and with 
improved oversight. This is the right way to do the job.
    The Chamber also encourages the Committee to address the 
shortcomings in current law. We strongly support holding States 
accountable for the expenditure of the resources provided in 
SAFETEA-LU. Without addressing the current diversion of bridge 
dollars to other Federal funding categories, new programs may 
essentially create a substitution effect, rather than 
increasing the funding dedicated to bridge needs.
    While the events of August have shone a spotlight on the 
state of our Nation's bridges, it is important to recognize 
that the collapse of the I-35 West bridge is symptomatic of a 
much larger infrastructure problem, and it is time to create a 
new era in transportation. This country's current approach to 
delivering transportation infrastructure is not set up for 
today's robust economy or for the economy of the future. We do 
need a national plan; and, as Ranking Member Mica aptly 
articulated earlier this year, the Federal government must take 
the leading role in developing the national strategic 
transportation plan. We thank him for his continued vision and 
leadership on this issue. Every level of government must step 
up to the plate, and the Federal government must bear a 
significant part of the responsibility and will perform a 
critical role.
    For our part, what is the Chamber going to do? We are 
launching a major, multi-million dollar initiative called Let's 
Rebuild America, with four key goals to support your work and 
this industry's work.
    First, we will document the program with research. Second, 
we will educate the public, the business community and 
policymakers. Third, we will spur private investment in 
critical infrastructure of all kinds. Finally, and perhaps most 
importantly, we will foster an honest dialogue on how to find 
the public money to meet critical infrastructure needs. There 
is no single answer to that question, which means all the 
options must be on the table, including increasing user fees.
    Mr. Chairman and Members of the Committee, the question 
facing America is this: Are we a nation of builders? Are we 
still a "can do" society? Are we still the kind of people who 
can rally to a great cause with a shared sense of mission and a 
national purpose? Surely, we ought to be able to create the 
vision, forge the consensus, secure the resources, and find the 
political courage to make this happen. I believe that we can 
and I believe that we will and business will lead the way. It 
should not take a disaster like the bridge collapse to focus 
the Nation's attention on our vast infrastructure challenges, 
but now that we have that focus we must not lose it.
    Thank you very much for the opportunity to be here today, 
and I look forward to answering your questions.
    Mr. Oberstar. Thank you very much, Ms. Kavinoky.
    You are right. It should not take a bridge tragedy to focus 
attention, but, regrettably, that is what happens in this 
country, and now and again there is a tragedy.
    A few years ago--in fact, it was in 1990--18 feet ripped 
off a Boeing 737 of Aloha Airlines. It was not supposed to 
fail. That was not supposed to happen. They were built so that 
if there were a structural failure it would rip to a stress 
point and stop, but it ripped off and all of aviation sat down.
    Then I crafted the aging aircraft legislation, something I 
had been talking about for years and was not able to advance. 
But a tragedy happened, and now all aircraft at 15 years of age 
was sat down, torn down to bare metal and inspected from stem 
to stern, and parts were replaced. Well, it has taken another 
tragedy to get us to think about the Nation's infrastructure. 
Thank you.
    Mr. Oberstar. Mr. Lynch.
    Mr. Lynch. Thank you very much, Chairman Oberstar, Chairman 
DeFazio, Ranking Member Duncan. We appreciate the invitation 
for the American Trucking Associations to testify on the 
condition of the Nation's infrastructure and bridges.
    Members of this Committee well understand the importance of 
the Nation's infrastructure. It is unfortunate that it took the 
tragic collapse of the Interstate 35W bridge to focus the 
public and, perhaps more importantly, the media's attention on 
the vulnerabilities of the highway system. We must not lose 
this opportunity to educate the American people about the very 
real safety and economic consequences of failing to adequately 
maintain and improve the system. We thank you for providing a 
forum that will help to inform the debate and that will 
hopefully move us toward an agreement on solutions to the 
challenges we face.
    The trucking industry and the highway system that supports 
it are the lynch pins of the Nation's freight transportation 
system. The industry hauls 69 percent of the freight by volume 
and 84 percent by revenue. In addition, the trucking industry 
plays an important role in the movement of intermodal rail, 
air, and water freight. Truck tonnage is projected to increase, 
reaching toward the 14-billion-ton mark by the year 2017. This 
growth, of course, means that a lot more trucks will be on the 
road. We estimate another 2.7 million trucks will be needed to 
serve the Nation's economy, or a 40 percent increase.
    A reliable network of highways is crucial to our industry's 
ability to deliver goods safely, efficiently and on schedule. 
Since deregulation and the completion of the interstate highway 
system over the previous quarter century, the trucking industry 
has made continuous improvements that have allowed its 
customers to significantly reduce inventories and to create 
manufacturing and supply chain efficiencies that have saved the 
U.S. economy billions of dollars, increased salaries, slowed 
consumer price increases, and created innumerable jobs. Any 
disruption to the movement of freight on our Nation's highway 
system can well jeopardize those gains.
    Mr. Chairman, our highway and infrastructure is a network 
of roads, bridges and tunnels that link our Nation together. 
That network includes superstructures like the Chesapeake Bay 
Bridge and the previously mentioned today Woodrow Wilson Bridge 
that are vital links in moving people and goods. However, that 
system also includes bridges over creeks and streams that may 
only carry a few cars and trucks on any given day. Both are 
important and both need to be maintained. But tragedies like 
the I-35 bridge collapse highlight how vulnerable our system is 
when a structure on a major highway is damaged, closed or load-
posted. The resulting traffic disruptions distress local and 
regional economies due to higher freight rates and lost 
business opportunities. Significant costs are also incurred due 
to lost time, wasted fuel by sitting in congestion and by 
having to divert to alternate routes.
    Mr. Chairman, earlier this afternoon, you mentioned the 
amount of rail and barge traffic due to the collapse that now 
will have to move on the highway system. While I am certain 
that there is a trucker out there who will benefit from that, 
as a Nation that traffic probably should remain on the barges 
and on the rails, but that is just another cost that goes into 
the equation.
    Mr. Chairman, much of this Nation's traffic moves on the 
National Highway System. This 162,000-mile network comprises 
just 4.1 percent of total highway miles, yet it carries nearly 
45 percent of total vehicle miles. When this network 
experiences inefficiencies, whether due to posted bridges or 
daily congestion, the economic impacts ripple throughout the 
supply chain and can greatly impact the health of regional and 
national economies.
    Despite its obvious importance to the Nation, significant 
portions of the NHS are in poor condition, are routinely 
congested and have been starved by insufficient investment. Of 
the more than 116,000 NHS bridges, over 6,000 are structurally 
deficient and more than 17,000 are functionally obsolete. 
Furthermore, and perhaps more importantly for my industry, 760 
NHS bridges are currently load-posted. The posting of bridges 
forces trucks to use alternative routes, increasing freight 
transportation costs and requiring greater fuel use, which 
produces more emissions. While this hearing and the public's 
attention are understandably focused on bridges, we must not 
forget that bridges are individual components of the overall 
highway network.
    Mr. Chairman, we applaud your initiative on the National 
Highway System Bridge Reconstruction Initiative. We believe it 
is an excellent model for future highway investment decisions. 
The emphasis on prioritizing investment based on greatest need 
are principles that can and should be applied to the entire 
Federal program.
    I earlier made note of Congressman Baker's comments about 
what they have done in Louisiana with respect to the 
prioritization of the bridge program in that State; and, 
frankly, we want to find out quite a bit more about that.
    Over the past 20 years, the Highway Bridge Program and its 
predecessor, the Highway Bridge Replacement and Rehabilitation 
Program, have been funded at a level equivalent to roughly 11 
to 14 percent of total annual transportation program 
apportionments. Under SAFETEA-LU, the program provides an 
average of $4.1 billion annually for the bridge program. 
However, beginning with ISTEA and including now the SAFETEA-LU, 
up to 50 percent of State apportionments can be "flexed" to 
non-bridge-related projects.
    Mr. Chairman, I will tell you that one of the things I have 
always loved about being at these hearings, even sitting on the 
peanut gallery side, is that you learn some things. We were not 
able to determine how much of that has actually been flexed 
out. If I understood your comments earlier, some $4 billion has 
been flexed out over the last decade, and we would certainly 
encourage that as the Committee considers both this proposal as 
well as reauthorization that that be something that you take a 
very long and careful look at.
    Mr. Chairman, even the most well-designed and best-
maintained bridge will deteriorate over time for a variety of 
reasons. All vehicles, including trucks, play a role in this 
process. It is important to understand, however, that bridge 
collapses are generally the result of singular events and not 
usually caused by the slow progression of deterioration.
    If a bridge does collapse due to fatigue or due to other 
structural issues, it is likely that this may have been 
prevented by better inspection, maintenance or management 
practices. Therefore, Mr. Chairman, we very much support your 
efforts to enhance inspection procedures, techniques and to 
improve bridge management.
    The ATA looks forward to working with the Committee to 
address the Nation's bridge and other highway infrastructure 
needs. Most importantly, Mr. Chairman, we recognize our 
responsibility to help finance these needs. However, Mr. 
Chairman, we believe and we believe the public at large shares 
this view that highway user charges have to be viewed as an 
investment in both mobility and safety. We look to Congress, 
the administration and the States to allocate that investment 
in a rational manner, in short, to ensure a good return on 
their investment.
    Thank you very much for giving me this opportunity to 
testify.
    Mr. Oberstar. Thank you, Mr. Lynch, for a very thorough, 
far-reaching, comprehensive presentation.
    Most striking was your projection of 2.7 million more 
trucks to be needed over what period of time?
    Mr. Lynch. That would be over a 10-year period.
    Mr. Oberstar. Over a 10-year future period?
    Mr. Lynch. Correct.
    Mr. Oberstar. A 40 percent increase. That is a result of 
just-in-time inventory, isn't it? The just-in-time delivery of 
goods making our trucking system rolling warehouses. This is 
economy driven. This is not the trucking companies. It is your 
customers. It is what the producers and consumers want. They 
want this just-in-time delivery, and so your members have 
become inventory purveyors, if you will.
    Mr. Lynch. That is correct, Mr. Chairman. Notwithstanding 
occasional glitches on the highway, we are not out there for 
sport or to aggravate the public. We are out there to deliver 
the freight.
    Mr. Oberstar. You are out there because the economy demands 
it, and if we do not maintain this portfolio of highways and 
bridges in top condition then your members cannot do their job. 
The public sector has to do its job so the private sector can 
do what it does best, provide jobs, services and deliver goods.
    Mr. Lynch. Absolutely.
    Mr. Oberstar. All of the witnesses have provided, I think, 
just remarkable testimony and presentations that will benefit 
our ultimate product.
    I thank Mr. Kaniewski for saying, "Everything that enhances 
investment should be considered as a way of revenue stream." We 
will do that.
    You know, when I proposed this initiative, we were 
discussing it, and there were thoughts. Well, don't talk about 
how you are going to finance it, because that is what will 
catch the headlines. Well, it is irresponsible not to set forth 
an objective, to set forth the goals of "this is what we need 
to do," and it is what we need to do. The cornerstone of any 
investment in surface transportation has to be the user fee. 
Call it the "gas tax" or whatever you want to do. Then there 
are other means of financing.
    Mr. DeFazio has held extensive hearings, in-depth 
hearings--and he will continue to do that--on the investment 
needs of our Surface Transportation Program and the merits of 
various proposals, but if I did not set forth how I proposed to 
achieve this objective that would be the next question. All 
right. You have got this great idea. How are you going to do 
it? Well, I have set forth. So now let them all come and make 
their criticisms.
    Ms. Kavinoky, I love the Chamber's theme, Let's Rebuild 
America. Terrific. You, too, said all options must be on the 
table, including the user fee, and we accept that, and we will 
work with the Chamber to do that.
    Mr. Donahue came from the trucking sector. He has had a 
long commitment to and a familiarity with surface 
transportation.
    Four years ago, it was the Chamber's objective to fully 
fund the Aviation Trust Fund. We did not quite get there, but, 
without the Chamber, it would not have had the nearly 100 
percent funding that we had, that we did achieve for the 
Aviation Trust Fund at a time when the now Governor of Indiana 
was the Director of the Office of Management and Budget, Mr. 
Daniels, and who did not want to make that full--he wanted to 
hold back $600 million of the Aviation Trust Fund that was 
needed for investment in taxiways and runways. That was in 
early 2001. The Chamber was out there ahead and provided the 
energy we needed.
    Mr. Herrmann, our earlier witness, Ms. Miller, for the 
county engineers, said, "Most counties do not have a licensed 
public engineer." That really was shocking to me. I thought 
they were up to date, but they are not, and you observed that 
licensed public engineers are necessary for the proper 
development of surface transportation and bridge programs.
    Mr. Herrmann. Yes, Mr. Chairman.
    Basically, a bridge inspector, once you get to a reasonably 
sized bridge, should be able to have the expertise to know the 
load paths, the critical numbers, the fatigue-prone details, 
and to test potential areas of distress in the particular type 
of structure being inspected. They have to evaluate not only 
the condition of the individual bridge components but how the 
components fit into and affect the load paths of the entire 
structure. The bridge engineer may have to make immediate 
decisions to close a lane, to close an entire bridge or to take 
trucks off a bridge in an effort to protect the public's 
safety.
    You need someone--I mean, right now, the requirements, I do 
not even believe, need an engineering degree. There are various 
categories of bridge inspectors, and one of them is without a 
degree, and I think an engineering degree is needed and also 
the professional credentials and past work in bridge design and 
inspection to inspect a bridge properly.
    Mr. Oberstar. I totally concur. We have had experience in 
my district with at least one county that did not have an 
engineer. In fact, it did not have one because the engineer 
they did have asked for an increase in pay, and the county 
board said no, so he left for a job elsewhere. Then when it 
came time to plan the future investments for that county, they 
were out in the cold. They did not have anyone to speak up for 
the surface transportation needs of that county. They have 
learned their lesson. They have one now.
    Mr. Herrmann. Mr. Chairman, we have found in some instances 
where the cost of bridge inspection does control. We have had 
experienced engineers, licensed engineers with 20, 25-plus 
years' experience who we could not use on a bridge inspection 
because they cost too much. And it is not that they did not 
want to use them. It is just that they did not fit into the 
budgetary program.
    Mr. Oberstar. Well, one of the previous witnesses also said 
that there are too many bridges and it is too costly to use the 
more advanced technologies that I cited earlier. Well, that is 
why we need this investment.
    Mr. DeFazio, let me compliment the Chairman of the 
Subcommittee on the intense work that he has done since the 
beginning of this session on the overview of the existing 
Surface Transportation Program.
    Mr. DeFazio. Thank you, Mr. Chairman. As always, thank you 
for your leadership in proposing an initiative to move forward.
    As I made the point earlier when the Chairman was being 
beleaguered by the press about all of the specifics of his 
proposal, I said, "You do not understand that this is a 
different Congress, and it is not like the Congress of the last 
12 years. This is a real legislative process. We are here today 
to listen to people and to get ideas and to figure out how to 
improve our product, but we are committed to addressing this 
problem and to not putting our heads in the sand like the 
administration."
    So I appreciate the Chairman's leadership, and we are truly 
here to listen, and I appreciate a lot of the testimony we have 
gotten today. We need allies, obviously, in this fight. You 
were all, most of you, here earlier.
    I guess I would first go to Ms. Kavinoky from the Chamber. 
You know, I was just walking out as you mentioned the word 
"Oregon," and I was walking back in as you mentioned the words 
"user fees." You know, I would just like to understand how the 
Chamber got there, having heard the Secretary's testimony 
earlier. I mean, you had some statistics that I quoted earlier 
about the deaths that relate to poorly maintained roads.
    Do you know, does that include a design flaw like the kind 
of thing we were talking about where we have structurally and 
functionally obsolete bridges? Is it that or do you just mean 
bad maintenance generally in terms of that attribution of one-
third of the deaths?
    Ms. Kavinoky. Mr. Chairman, that statistic comes from TRIP, 
the road information program. Actually, I heard you ask that 
question and called over to TRIP to double-check their 
background. That includes maintenance issues, but it does also 
include design deficiencies, structural design flaws.
    Mr. DeFazio. Right. Because that was the point I was 
attempting to make earlier, which is that this is a horrible 
tragedy and so unexpected--the collapse and 13 people in the 
blink of an eye--but, on a daily basis, if we attribute a third 
of the deaths every day to something that has to do with 
maintenance and then just take a portion of that and say, well, 
it has to do with functionally obsolete bridges and other 
infrastructure which creates dangerous conditions, then on a 
daily basis we can make the point that our obsolete and 
insufficient infrastructure is killing more people.
    Ms. Kavinoky. Sir, that is exactly the Chamber's point, 
yes.
    Mr. DeFazio. All right. Then your second point, which, I 
think, goes sort of again to--well, you make a couple of 
others, but you talked about the $67 billion in extra vehicle 
repairs. Is that also from that same group?
    Ms. Kavinoky. It is from TRIP, yes.
    Mr. DeFazio. Yes. Okay. Again, that would be where the 
Chamber would, perhaps, come down where they do not normally 
always come down on the idea of increasing some user fees, 
which is, hey, with the economic competitive issues which you 
raised with the GDP investments of our competitor nations, with 
the problems with a lot of your members in just-in-time 
delivery and with the increased costs they actually incur just 
because, you know, that is a lot of money on extra vehicle 
costs. I mean, if we could fix half of the problems and get 
that number down by half on an annual basis we would come out 
ahead in the end. I assume that you have come to somewhat of a 
similar conclusion with the Chamber.
    Ms. Kavinoky. Sir, we have a formal policy process as, of 
course, do most associations; and I cannot tell you that from a 
very formal policy declaration perspective that we are coming 
right out and saying, "It is time. Let us do it." But what the 
Chamber is saying is there is ample evidence. There is ample 
evidence from a safety perspective, from lives lost, from an 
economic perspective and not just with regard to bridges, which 
are critical links in the overall infrastructure, but with 
infrastructure across the board that this Committee has 
actually addressed, including waterways.
    And we certainly commend you for moving WRDA this year with 
regard to the Federal Aviation Administration. We think it is 
absolutely critical that we modernize the air traffic control 
system, but we recognize that there is a fundamental cost to 
providing the economic underpinnings of the economy, and I 
believe that if we can link the benefits of the transportation 
system and the investment--just as Mr. Lynch said--with what is 
being paid, we have got a very credible case to sell to the 
business community and to the American people that they are 
going to get what they pay for.
    Mr. DeFazio. Exactly, and I believe there does need--you 
know, if you are talking to someone who is sitting in 
congestion, they want to hear that you are somehow going to 
address that problem. Or if you want to talk to someone who has 
lost a loved one or whatever in a tragedy, they want to hear 
that you are addressing that. So I fully support that.
    Mr. Cox, if I could, as to your testimony on page 4, you 
talk about ARTBA as advocating the inclusion of a new Federal 
program, the Critical Commerce Corridors, as part of the 
SAFETEA-LU reauthorization effort that is funded outside the 
Highway Trust Fund and that is dedicated to building the 
transportation system capacity. Can you expand on that a 
little?
    Mr. Cox. Well, our vision there is that, yes, there are 
problems with congestion. Yes, there are problems with 
maintaining the existing system, which is growing older by the 
decade, as we know. But the one thing that we really need to 
face up to, just as was brought up by Mr. Lynch, is that the 
trucking part of our economy is really a driver of the economy 
for the big stores, the small stores. As he talked about, it is 
69 percent by volume and 80 something by revenue.
    What we see is, in time, a critical problem of getting from 
ports to highways around the big cities if there is not some 
thought given to providing maybe not special roadways but 
roadways that are designed to move freight from the container 
ships to the trucks to the highways to the interstates so that 
the American economy, which is really the leader in the world 
in that aspect, will continue to be so.
    Mr. DeFazio. And you would feel that that would be 
significantly a Federal responsibility?
    Mr. Cox. I would think yes. If you are talking countrywide, 
you would have to start off with the Federal government. 
Certainly, there would be State participation, but we would 
have to see that there has to be a leader to get the thing 
started. So, yes.
    Mr. DeFazio. Great. I hope you will convey those thoughts 
down to DOT. They seem to be a little reluctant to go there on 
some of these issues.
    On page 5, I thought this was--again, this is just for the 
record, because earlier we had some very confusing testimony 
from the Department of Transportation about whether or not 
there is a need and whether or not we are spending $40 million 
a year on conditions and, therefore, you know, we are doing 
just fine, et cetera, which seemed to contradict their own 
conditions and operations report.
    You talk here, according to the U.S. DOT C&P Report, 
Federal highway and bridge investments are $20 billion below 
the amount necessary to simply maintain current roadway and 
bridge physical conditions and congestion levels each year. Is 
that accurate?
    Mr. Cox. I only can go with the information that was given 
to me by the people at ARTBA who prepared it. I presume that it 
is. I presume it is as accurate as any of those kinds of 
estimates are, but I do not think it takes, really, what you 
read in books. I think anybody who drives around our urban 
areas notes the fact that we have not been keeping up with the 
growth not only in businesses but in homes and with all of the 
other needs that transportation, both public transportation and 
vehicular transportation, provides.
    Mr. DeFazio. Okay. Then if I could, Mr. Chairman--I know I 
am a bit over my time here, but if I could direct a question to 
Mr. Lynch.
    Again, sir, referencing back--I mean, you did a very good 
job of quantifying, you know, the obligations we are putting on 
the National Highway System and the amount that is actually 
already load-posted and those functions. I mean, you really did 
a good job of reiterating those things.
    Then you get down into meeting the needs. You said there, 
today's $70 billion investment in highways and bridges would 
nearly have to double to $132 billion to significantly improve 
highway conditions and to reduce congestion. The Federal 
investment in highways must rise 50 percent above forecasted 
levels by 2015 just to maintain current levels of highway 
condition and performance. Do you stand behind that?
    Mr. Lynch. Absolutely.
    Mr. DeFazio. Okay. Again, you need to be shipping some of 
this work down to DOT and see if we can get some attention down 
there. Because, you know, I would agree with those numbers, but 
I do not feel that we quite have them on board yet with that 
magnitude.
    Mr. Lynch. We have had ongoing dialogue there. As the 
Chairman knows, we have a few issues about financing that we do 
not quite see eye to eye on with the Department, and we have 
made it very clear to them that our preferred financing 
mechanism needs to continue to be the fuel tax, recognizing 
that over some period of time we probably are going to be 
transitioning perhaps to a system like you have and with which 
you are experimenting in Oregon with a mileage-based tax. But 
we have certainly made our thoughts known about some other 
financing mechanisms, particularly in New York City and in a 
few other places.
    Mr. DeFazio. All right. One last point. When you talk about 
the capability of flexing money out of high-priority bridge 
projects into other non-bridge related, what would you suggest? 
What should we do? I mean, should we just close down that 
flexibility until a State has addressed all of its structurally 
and/or functionally obsolete bridges? Or how do you think we 
ought to deal with that?
    Mr. Lynch. I think that is, perhaps, one of the tougher 
issues that you are going to have to deal with.
    On the one hand, you have States essentially saying we need 
more money. Give us the money, but do not tie a lot of strings 
to how we use that money.
    As one of the users and as one of the payers into the 
system, while we are comfortable in having a certain degree of 
flexibility there, we will never be able to sell a fuel tax 
increase. Now, whether it is imposed on us, that is a whole 
other issue, but we will not be able to sell that to our own 
membership if they believe that the money is not going to the 
things that they believe it was intended to go to and the fact 
that--I was, frankly, surprised to find out that 50 percent of 
the funds could be flexed out of the bridge program. That is 
arguably very, very critical, and that is certainly a focal 
point of not only this hearing but, I think, now of a lot of 
the public concern about the infrastructure.
    So we would certainly recommend that the Committee and 
Congress take a very careful look at, if you allow that degree 
of flexibility out of the program, what happens to the 
condition of the bridges in this country.
    Mr. DeFazio. Okay. Thank you.
    Mr. Oberstar. Would the gentleman yield on this particular 
point? It is a very significant one.
    Mr. DeFazio. Absolutely.
    Mr. Oberstar. We invited the National Governors Association 
to testify. They declined. Specifically, the Governor of my 
State declined. He has aspirations for a place on the national 
stage. This was an opportunity as he is the incoming Chair of 
the National Governors Association.
    But this particular issue of flexibility was one that the 
National Governors Association insisted on in ISTEA, in TEA-21 
and again in SAFETEA-LU to "give us the authority. We are the 
managers. Give us the flexibility to move these." Then what did 
they do? They moved $4,700,000,000 over the last decade out of 
the bridge program and then complained they do not have enough 
money for bridges. We gave them the flexibility, and they 
misused it. That is outrageous, but they did not come here to 
defend their flexibility. When we move into the reauthorization 
process, that is something that is going to be very high on the 
list; and I will tell you that there will be no flexibility in 
moving funds out of this bridge trust fund that I have 
proposed.
    I thank the gentleman.
    Mr. DeFazio. Further, Mr. Chairman, I might suggest--not to 
sort of try and write the legislation here, but I would suggest 
that, you know, when we are looking at criteria for the new 
program, however, that might be funded that one measure be 
whether a State is fully utilizing its apportionment under TEA-
LU to address the bridge problem; and if they are not, then I 
guess I would really question why it would be in the queue for 
the special fund to deal with this issue.
    Mr. Oberstar. In fact, that is a condition of this proposed 
legislation.
    Mr. DeFazio. Ah, the Chairman is always ahead of me here. I 
missed that detail in the outline. They did not give me enough 
of a detailed outline. That was probably in your head and not 
in print.
    Mr. Oberstar. It is in print. It is there, yes.
    Mr. DeFazio. All right. I read it quickly.
    Thank you, Mr. Chairman. I have no more questions.
    Mr. Oberstar. I thank the gentleman very much.
    Again, I just am in admiration of his diligent work on the 
review of the Surface Transportation Program.
    In the course of this day--let me sum up. Item one of the 
initiative is to establish uniform processes and standards for 
inspection of structurally deficient bridges and for inspector 
training. The Secretary agreed to that. Mr. Capka agreed to 
that. The county engineers agreed to that. Every panel has 
agreed to that. That is 25 percent.
    The distribution of funds based on public safety and need, 
requiring the Department of Transportation to develop an 
administrative formula for the distribution of funds. The 
Secretary did not disagree with that. She embraced it. Mr. 
Capka embraced it. Our previous panels embraced it. All of you 
have addressed it in one way or another. That is 50 percent.
    The accountability by prohibiting earmarks by the 
administration, by the States in the prioritization of 
structurally deficient bridges under this new standard to be 
done by the Federal Highway Administration in cooperation with 
the States and then reviewed by the National Academy of 
Sciences. The Secretary agreed with that. Other panelists 
agreed with that. That is 75 percent.
    Then the Bridge Reconstruction Trust Fund with dedicated 
funding. Well, we had a little disagreement on that matter, but 
I think everybody understands, at the end of the day, we are 
not going to have a bake sale to fund the construction of 
bridges. Mr. Duncan observed, very thoughtfully, that if we 
were not spending all of this money in Iraq--$45 billion on 
their infrastructure that is being blown up as fast as it is 
being built--we would have money here at home. Right. 
Meanwhile, we have a means, we have a way, we have options. I 
have laid the options on the table, and we will address that 
matter. So I think we are about 95 percent of the way home on 
this.
    I just have to observe, in closing, Mr. Mica, earlier in 
the day in his opening remarks, compared this proposal to 
ignoring the crumbling foundation, leaking roof and obsolete 
plumbing of a 50-year-old house; it is just paving the 
driveway.
    Well, the house I grew up in--that is still my home--in 
Chisolm is about 70 years old. It was built by my father, 
uncles and grandfather, who was a carpenter. Grandpa Grillo 
came from Naples, Italy. There is a picture of me pounding a 
nail in that old house. I put a new roof on it. The foundation 
was leaking. We fixed that. Just 2 weeks ago, the faucets were 
leaking, and the kitchen drain was--and I fixed the faucets, 
and then I had to run off to a 4th of July parade, and I will 
admit that I put the faucet washers in backwards so they were 
not working right. But I got a plumber in, and he fixed that, 
and he fixed the kitchen drain and the basement drain, and he 
left a note on my table saying "aging residential 
infrastructure in need of repair." We fixed it, and we are 
going to fix this as well.
    Mr. Mica also, in a news release that he issued, called it 
a "duplicative bridge program and a gas tax increase without 
examination of existing highway bridges." What does he think we 
are doing here? What have we been doing all day? Examining the 
Highway Bridge Program.
    Twenty years ago, I examined bridge safety in those 
hearings. This is no novice coming to this subject matter, and 
we intend to do something about it. It would be immoral to have 
this bridge collapse and do nothing about it in a very 
targeted, focused, deliberative, sunsetted, 3-year initiative 
to attack this problem with a credible, effective and workable 
initiative.
    I thank you for your support of it.
    Mr. Kaniewski. Thank you, Mr. Chairman.
    Mr. Oberstar. The Committee is adjourned.
    [Whereupon, at 6:00 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7652.010
    
    [GRAPHIC] [TIFF OMITTED] T7652.011
    
    [GRAPHIC] [TIFF OMITTED] T7652.012
    
    [GRAPHIC] [TIFF OMITTED] T7652.013
    
    [GRAPHIC] [TIFF OMITTED] T7652.014
    
    [GRAPHIC] [TIFF OMITTED] T7652.015
    
    [GRAPHIC] [TIFF OMITTED] T7652.016
    
    [GRAPHIC] [TIFF OMITTED] T7652.017
    
    [GRAPHIC] [TIFF OMITTED] T7652.018
    
    [GRAPHIC] [TIFF OMITTED] T7652.019
    
    [GRAPHIC] [TIFF OMITTED] T7652.020
    
    [GRAPHIC] [TIFF OMITTED] T7652.021
    
    [GRAPHIC] [TIFF OMITTED] T7652.022
    
    [GRAPHIC] [TIFF OMITTED] T7652.023
    
    [GRAPHIC] [TIFF OMITTED] T7652.024
    
    [GRAPHIC] [TIFF OMITTED] T7652.025
    
    [GRAPHIC] [TIFF OMITTED] T7652.026
    
    [GRAPHIC] [TIFF OMITTED] T7652.027
    
    [GRAPHIC] [TIFF OMITTED] T7652.028
    
    [GRAPHIC] [TIFF OMITTED] T7652.029
    
    [GRAPHIC] [TIFF OMITTED] T7652.030
    
    [GRAPHIC] [TIFF OMITTED] T7652.031
    
    [GRAPHIC] [TIFF OMITTED] T7652.032
    
    [GRAPHIC] [TIFF OMITTED] T7652.033
    
    [GRAPHIC] [TIFF OMITTED] T7652.034
    
    [GRAPHIC] [TIFF OMITTED] T7652.035
    
    [GRAPHIC] [TIFF OMITTED] T7652.036
    
    [GRAPHIC] [TIFF OMITTED] T7652.037
    
    [GRAPHIC] [TIFF OMITTED] T7652.038
    
    [GRAPHIC] [TIFF OMITTED] T7652.039
    
    [GRAPHIC] [TIFF OMITTED] T7652.040
    
    [GRAPHIC] [TIFF OMITTED] T7652.041
    
    [GRAPHIC] [TIFF OMITTED] T7652.042
    
    [GRAPHIC] [TIFF OMITTED] T7652.043
    
    [GRAPHIC] [TIFF OMITTED] T7652.044
    
    [GRAPHIC] [TIFF OMITTED] T7652.045
    
    [GRAPHIC] [TIFF OMITTED] T7652.046
    
    [GRAPHIC] [TIFF OMITTED] T7652.047
    
    [GRAPHIC] [TIFF OMITTED] T7652.048
    
    [GRAPHIC] [TIFF OMITTED] T7652.049
    
    [GRAPHIC] [TIFF OMITTED] T7652.050
    
    [GRAPHIC] [TIFF OMITTED] T7652.051
    
    [GRAPHIC] [TIFF OMITTED] T7652.052
    
    [GRAPHIC] [TIFF OMITTED] T7652.053
    
    [GRAPHIC] [TIFF OMITTED] T7652.054
    
    [GRAPHIC] [TIFF OMITTED] T7652.055
    
    [GRAPHIC] [TIFF OMITTED] T7652.056
    
    [GRAPHIC] [TIFF OMITTED] T7652.057
    
    [GRAPHIC] [TIFF OMITTED] T7652.058
    
    [GRAPHIC] [TIFF OMITTED] T7652.059
    
    [GRAPHIC] [TIFF OMITTED] T7652.060
    
    [GRAPHIC] [TIFF OMITTED] T7652.061
    
    [GRAPHIC] [TIFF OMITTED] T7652.062
    
    [GRAPHIC] [TIFF OMITTED] T7652.063
    
    [GRAPHIC] [TIFF OMITTED] T7652.064
    
    [GRAPHIC] [TIFF OMITTED] T7652.065
    
    [GRAPHIC] [TIFF OMITTED] T7652.066
    
    [GRAPHIC] [TIFF OMITTED] T7652.067
    
    [GRAPHIC] [TIFF OMITTED] T7652.068
    
    [GRAPHIC] [TIFF OMITTED] T7652.069
    
    [GRAPHIC] [TIFF OMITTED] T7652.070
    
    [GRAPHIC] [TIFF OMITTED] T7652.071
    
    [GRAPHIC] [TIFF OMITTED] T7652.072
    
    [GRAPHIC] [TIFF OMITTED] T7652.073
    
    [GRAPHIC] [TIFF OMITTED] T7652.074
    
    [GRAPHIC] [TIFF OMITTED] T7652.075
    
    [GRAPHIC] [TIFF OMITTED] T7652.076
    
    [GRAPHIC] [TIFF OMITTED] T7652.077
    
    [GRAPHIC] [TIFF OMITTED] T7652.078
    
    [GRAPHIC] [TIFF OMITTED] T7652.079
    
    [GRAPHIC] [TIFF OMITTED] T7652.080
    
    [GRAPHIC] [TIFF OMITTED] T7652.081
    
    [GRAPHIC] [TIFF OMITTED] T7652.082
    
    [GRAPHIC] [TIFF OMITTED] T7652.083
    
    [GRAPHIC] [TIFF OMITTED] T7652.084
    
    [GRAPHIC] [TIFF OMITTED] T7652.085
    
    [GRAPHIC] [TIFF OMITTED] T7652.086
    
    [GRAPHIC] [TIFF OMITTED] T7652.087
    
    [GRAPHIC] [TIFF OMITTED] T7652.088
    
    [GRAPHIC] [TIFF OMITTED] T7652.089
    
    [GRAPHIC] [TIFF OMITTED] T7652.090
    
    [GRAPHIC] [TIFF OMITTED] T7652.091
    
    [GRAPHIC] [TIFF OMITTED] T7652.092
    
    [GRAPHIC] [TIFF OMITTED] T7652.093
    
    [GRAPHIC] [TIFF OMITTED] T7652.094
    
    [GRAPHIC] [TIFF OMITTED] T7652.095
    
    [GRAPHIC] [TIFF OMITTED] T7652.096
    
    [GRAPHIC] [TIFF OMITTED] T7652.097
    
    [GRAPHIC] [TIFF OMITTED] T7652.098
    
    [GRAPHIC] [TIFF OMITTED] T7652.099
    
    [GRAPHIC] [TIFF OMITTED] T7652.100
    
    [GRAPHIC] [TIFF OMITTED] T7652.101
    
    [GRAPHIC] [TIFF OMITTED] T7652.102
    
    [GRAPHIC] [TIFF OMITTED] T7652.103
    
    [GRAPHIC] [TIFF OMITTED] T7652.104
    
    [GRAPHIC] [TIFF OMITTED] T7652.105
    
    [GRAPHIC] [TIFF OMITTED] T7652.106
    
    [GRAPHIC] [TIFF OMITTED] T7652.107
    
    [GRAPHIC] [TIFF OMITTED] T7652.108
    
    [GRAPHIC] [TIFF OMITTED] T7652.109
    
    [GRAPHIC] [TIFF OMITTED] T7652.110
    
    [GRAPHIC] [TIFF OMITTED] T7652.111
    
    [GRAPHIC] [TIFF OMITTED] T7652.112
    
    [GRAPHIC] [TIFF OMITTED] T7652.113
    
    [GRAPHIC] [TIFF OMITTED] T7652.114
    
    [GRAPHIC] [TIFF OMITTED] T7652.115
    
    [GRAPHIC] [TIFF OMITTED] T7652.116
    
    [GRAPHIC] [TIFF OMITTED] T7652.117
    
    [GRAPHIC] [TIFF OMITTED] T7652.118
    
    [GRAPHIC] [TIFF OMITTED] T7652.119
    
    [GRAPHIC] [TIFF OMITTED] T7652.120
    
    [GRAPHIC] [TIFF OMITTED] T7652.121
    
    [GRAPHIC] [TIFF OMITTED] T7652.122
    
    [GRAPHIC] [TIFF OMITTED] T7652.123
    
    [GRAPHIC] [TIFF OMITTED] T7652.124
    
    [GRAPHIC] [TIFF OMITTED] T7652.125
    
    [GRAPHIC] [TIFF OMITTED] T7652.126
    
    [GRAPHIC] [TIFF OMITTED] T7652.127
    
    [GRAPHIC] [TIFF OMITTED] T7652.128
    
    [GRAPHIC] [TIFF OMITTED] T7652.129
    
    [GRAPHIC] [TIFF OMITTED] T7652.130
    
    [GRAPHIC] [TIFF OMITTED] T7652.131
    
    [GRAPHIC] [TIFF OMITTED] T7652.132
    
    [GRAPHIC] [TIFF OMITTED] T7652.133
    
    [GRAPHIC] [TIFF OMITTED] T7652.134
    
    [GRAPHIC] [TIFF OMITTED] T7652.135
    
    [GRAPHIC] [TIFF OMITTED] T7652.136
    
    [GRAPHIC] [TIFF OMITTED] T7652.137
    
    [GRAPHIC] [TIFF OMITTED] T7652.138
    
    [GRAPHIC] [TIFF OMITTED] T7652.139
    
    [GRAPHIC] [TIFF OMITTED] T7652.140
    
    [GRAPHIC] [TIFF OMITTED] T7652.141
    
    [GRAPHIC] [TIFF OMITTED] T7652.142
    
    [GRAPHIC] [TIFF OMITTED] T7652.143
    
    [GRAPHIC] [TIFF OMITTED] T7652.144
    
    [GRAPHIC] [TIFF OMITTED] T7652.145
    
    [GRAPHIC] [TIFF OMITTED] T7652.146
    
    [GRAPHIC] [TIFF OMITTED] T7652.147
    
    [GRAPHIC] [TIFF OMITTED] T7652.148
    
    [GRAPHIC] [TIFF OMITTED] T7652.149
    
    [GRAPHIC] [TIFF OMITTED] T7652.150
    
    [GRAPHIC] [TIFF OMITTED] T7652.151
    
    [GRAPHIC] [TIFF OMITTED] T7652.152
    
    [GRAPHIC] [TIFF OMITTED] T7652.153
    
    [GRAPHIC] [TIFF OMITTED] T7652.154
    
    [GRAPHIC] [TIFF OMITTED] T7652.155
    
    [GRAPHIC] [TIFF OMITTED] T7652.156
    
    [GRAPHIC] [TIFF OMITTED] T7652.157
    
    [GRAPHIC] [TIFF OMITTED] T7652.158
    
    [GRAPHIC] [TIFF OMITTED] T7652.159
    
    [GRAPHIC] [TIFF OMITTED] T7652.160
    
    [GRAPHIC] [TIFF OMITTED] T7652.161
    
    [GRAPHIC] [TIFF OMITTED] T7652.162
    
    [GRAPHIC] [TIFF OMITTED] T7652.163
    
    [GRAPHIC] [TIFF OMITTED] T7652.164
    
    [GRAPHIC] [TIFF OMITTED] T7652.165
    
    [GRAPHIC] [TIFF OMITTED] T7652.166
    
    [GRAPHIC] [TIFF OMITTED] T7652.167
    
    [GRAPHIC] [TIFF OMITTED] T7652.168
    
    [GRAPHIC] [TIFF OMITTED] T7652.169
    
    [GRAPHIC] [TIFF OMITTED] T7652.170
    
    [GRAPHIC] [TIFF OMITTED] T7652.171
    
    [GRAPHIC] [TIFF OMITTED] T7652.172
    
    [GRAPHIC] [TIFF OMITTED] T7652.173
    
    [GRAPHIC] [TIFF OMITTED] T7652.174
    
    [GRAPHIC] [TIFF OMITTED] T7652.175
    
    [GRAPHIC] [TIFF OMITTED] T7652.176
    
    [GRAPHIC] [TIFF OMITTED] T7652.177
    
    [GRAPHIC] [TIFF OMITTED] T7652.178
    
    [GRAPHIC] [TIFF OMITTED] T7652.179
    
    [GRAPHIC] [TIFF OMITTED] T7652.180
    
    [GRAPHIC] [TIFF OMITTED] T7652.181
    
    [GRAPHIC] [TIFF OMITTED] T7652.182
    
    [GRAPHIC] [TIFF OMITTED] T7652.183
    
    [GRAPHIC] [TIFF OMITTED] T7652.184
    
    [GRAPHIC] [TIFF OMITTED] T7652.185
    
    [GRAPHIC] [TIFF OMITTED] T7652.186
    
    [GRAPHIC] [TIFF OMITTED] T7652.187
    
    [GRAPHIC] [TIFF OMITTED] T7652.188
    
    [GRAPHIC] [TIFF OMITTED] T7652.189
    
    [GRAPHIC] [TIFF OMITTED] T7652.190
    
    [GRAPHIC] [TIFF OMITTED] T7652.191
    
    [GRAPHIC] [TIFF OMITTED] T7652.192
    
    [GRAPHIC] [TIFF OMITTED] T7652.193
    
    [GRAPHIC] [TIFF OMITTED] T7652.194
    
    [GRAPHIC] [TIFF OMITTED] T7652.195
    
    [GRAPHIC] [TIFF OMITTED] T7652.196
    
    [GRAPHIC] [TIFF OMITTED] T7652.197
    
    [GRAPHIC] [TIFF OMITTED] T7652.198
    
    [GRAPHIC] [TIFF OMITTED] T7652.199
    
    [GRAPHIC] [TIFF OMITTED] T7652.200
    
    [GRAPHIC] [TIFF OMITTED] T7652.201
    
    [GRAPHIC] [TIFF OMITTED] T7652.202
    
    [GRAPHIC] [TIFF OMITTED] T7652.203
    
    [GRAPHIC] [TIFF OMITTED] T7652.204
    
    [GRAPHIC] [TIFF OMITTED] T7652.205
    
    [GRAPHIC] [TIFF OMITTED] T7652.206
    
    [GRAPHIC] [TIFF OMITTED] T7652.207
    
    [GRAPHIC] [TIFF OMITTED] T7652.208
    
    [GRAPHIC] [TIFF OMITTED] T7652.209
    
    [GRAPHIC] [TIFF OMITTED] T7652.210
    
    [GRAPHIC] [TIFF OMITTED] T7652.211
    
    [GRAPHIC] [TIFF OMITTED] T7652.212
    
    [GRAPHIC] [TIFF OMITTED] T7652.213
    
    [GRAPHIC] [TIFF OMITTED] T7652.214
    
    [GRAPHIC] [TIFF OMITTED] T7652.215
    
    [GRAPHIC] [TIFF OMITTED] T7652.216
    
    [GRAPHIC] [TIFF OMITTED] T7652.217
    
    [GRAPHIC] [TIFF OMITTED] T7652.218
    
    [GRAPHIC] [TIFF OMITTED] T7652.219
    
    [GRAPHIC] [TIFF OMITTED] T7652.220
    
                                    

</pre></body></html>
